     Department of Veterans Affairs
     Office of Inspector General




Semiannual Report to Congress
Issue 66 | April 1—September 30, 2011
Online Availability
This report is provided with our compliments. It is also available on our web site:
http://www.va.gov/oig/publications/semiannual-reports.asp

To access other OIG reports and publications, visit:
http://www.va.gov/oig/publications/default.asp




Additional Copies
Copies of this report are available to the public. Written requests should be sent to:

                                 Office of Inspector General (53B)
                                  Department of Veterans Affairs
                                    810 Vermont Avenue, NW
                                      Washington, DC 20420




Automatic Notifications
OIG offers a free e-mail subscription service that provides automatic notifications by e-mail when
new reports or other information is posted to the OIG web site. You may specify that you would
like to receive notification of all OIG reports or only certain types of OIG reports. In addition,
you may change your preferences or unsubscribe at any time. To receive e-mail notifications of
additions to the OIG web site, go to: http://www.va.gov/oig/email-alerts.asp and click on “Sign up
to receive e-mail updates.”

In addition, you can also sign up to receive OIG’s RSS feeds by visiting: http://www.va.gov/oig/rss,
clicking on any of the desired RSS feeds, and then clicking on “Subscribe to this feed.”
        Message from the
                                                       Inspector General
                                                     I am pleased to submit this issue of the Semiannual
                                                     Report to the Congress. Pursuant to the Inspector
                                                     General Act of 1978, as amended, this report presents
                                                     the results of our most signiﬁcant accomplishments
                                                     during the reporting period April 1 – September 30,
                                                     2011.

                                                     During this reporting period, the Ofﬁce of Inspector
                                                     General (OIG) issued 161 reports on VA programs and
                                                     operations. OIG investigations, inspections, audits,
                                                     evaluations, and other reviews identiﬁed nearly
                                                     $4.1 billion in monetary beneﬁts, for a return on
                                                     investment of $86 for every dollar expended on OIG
                                                     oversight.

                                                    OIG criminal investigators closed 503 investigations,
and made 290 arrests for a variety of crimes including fraud, bribery, embezzlement, identity theft, drug
diversion and illegal distribution, computer crimes, and personal and property crimes. OIG investigative
work also resulted in 264 administrative sanctions. Settlements in nine cases brought against companies
under the qui tam provisions of the False Claims Act recovered $24,306,091 for VA as a direct result of the
work of the Ofﬁces of the Counselor and Investigations (OI).

A primary focus for OIG investigative and audit work this reporting period has been VA’s Veteran-Owned
and Service-Disabled Veteran-Owned Small Business (VOSB and SDVOSB) programs. OIG’s OI is
aggressively pursuing allegations regarding ineligible businesses that obtain VOSB and SDVOSB contract
awards. Recent investigative work resulted in the successful prosecution of the Chief Executive Ofﬁcer of
a business that had been awarded SDVOSB set-aside construction contracts valued at over $16 million
for which the company was not eligible. VA’s Suspension and Debarment Committee subsequently
debarred the defendant and his company from doing business with the Federal government. In a separate
investigation, a company and four defendants were indicted after a multi-agency investigation determined
that the SDVOSB acted as a pass-through company for a larger company and that the owner of the
SDVOSB was not a service-disabled Veteran. Based on information provided by OIG, the company and
the four defendants were also suspended by VA’s Suspension and Debarment Committee from doing
business with the Government.

In July, Belinda J. Finn, Assistant Inspector General for Audits and Evaluations, testiﬁed before Congress
on the results of OIG’s recent audit and investigative work involving the VOSB and SDVOSB programs.
Our audit report found that 76 percent of the businesses OIG reviewed were ineligible for the program
and/or the speciﬁc VOSB or SDVOSB contract award, potentially resulting in $2.5 billion awarded to
ineligible businesses over the next 5 years.

OIG’s Beneﬁts Inspection Division issued a summary report identifying systemic issues found at 16 VA
Regional Ofﬁces (VAROs) inspected from April 2009 to September 2010. The report found that VARO
management teams face multiple challenges in providing beneﬁts and services to Veterans. Challenges
include providing additional oversight and training for personnel responsible for processing disability
compensation claims related to temporary 100 percent disability evaluations, post-traumatic stress disorder,
traumatic brain injury, herbicide-related disabilities, and Haas cases. Haas claims involve Veterans who

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        |1
Issue 66 | April 1 — September 30, 2011
                       Message from the Inspector General, continued
served in waters off Vietnam and did not set foot in Vietnam, potentially precluding those Veterans from
entitlement to presumption of exposure to herbicide agents, including Agent Orange. OIG projected that
VARO staff did not correctly process 23 percent of approximately 45,000 claims. As a result of the
16 inspections, OIG made 86 recommendations to improve VARO operations regarding the systemic
issues addressed. VARO Directors concurred with all of the recommendations.

A retrospective review conducted by the Ofﬁce of Healthcare Inspections (OHI) found that the Veterans
Health Administration (VHA), in response to OIG’s 2008 recommendation to the Under Secretary for
Health, successfully implemented a mechanism to ensure that VHA facilities had appropriate infrastructure
to support surgeries performed. OIG identiﬁed no adverse patient outcomes clearly attributable to facility
infrastructure, and found that under circumstances where it was unable to provide service, VHA referred
complex surgeries to non-VHA facilities with sufﬁcient capabilities to support the surgeries performed.

OHI also issued a follow-up report to a comprehensive 2009 review of VHA residential mental health (MH)
care facilities. The 2011 review found that progress was made in some areas, but VHA made little interim
progress in one key area—ensuring contact with patients during the time interval between acceptance into
a MH residential rehabilitation program and the start of the program. The follow-up inspection identiﬁed
actual stafﬁng at the Residential Rehabilitation Treatment Programs and referral for additional vocational
rehabilitation and employment services based on program size and urban-rural status as new areas of
concern.

Ofﬁce of Contract Review (OCR) staff conducts preaward reviews to assist VA contracting ofﬁ cers in
negotiating fair and reasonable contract prices for health care resources procured on a sole-source basis
that are valued at more than $500,000. OCR’s collective ﬁndings since 2006 determined that VHA has
not effectively implemented all the requirements set forth in VA Directive 1663, Healthcare Resources
Contracting – Buying, Title 38 U.S.C. § 8153, under which VA may enter into non-competitive (sole-source)
contracts with afﬁliated institutions for health care resources. This was due to lack of resources, training,
and enforcement, which resulted in recurring contracting and pricing issues with sole-source contracts
with afﬁliated institutions. The report also discusses OIG’s ﬁndings regarding conﬂict of interest issues and
recommends that VA seek personal services contracting authority. OCR also recovered more than
$2 million in contract overcharges for VA.

We thank the Secretary, Deputy Secretary, and other senior Department ofﬁcials and their staffs for their
support of our work and receptiveness to our recommendations for improving VA programs and operations.
We look forward to continuing our partnership with the Department and Congress in the months ahead to
meet the many challenges facing VA as it works to ensure our Nation’s heroes receive the care, support,
and recognition they have earned in service to our country.




GEORGE J. OPFER
Inspector General




                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
 2|
                                                                                 Issue 66 | April 1 — September 30, 2011
Table of Contents

Message from the Inspector General | 1

Statistical Highlights | 4

VA and OIG Mission, Organization, and Resources | 6

Ofﬁce of Healthcare Inspections | 9

         Combined Assessment Program Reviews | 9

         Community Based Outpatient Clinic Reviews | 9

         National Reports | 10

         Hotline Reports | 12

Ofﬁce of Healthcare Inspections and Ofﬁce of Audits and Evaluations Joint Review | 19

Ofﬁce of Audits and Evaluations | 20

         Veterans Health Administration Audits and Reviews | 20

         Veterans Beneﬁts Administration Audits | 21

         Veterans Beneﬁ ts Administration Beneﬁ ts Inspections | 22

         Other Audits and Reviews | 23

Ofﬁce of Investigations | 25

         Veterans Health Administration Investigations | 25

         Veterans Beneﬁ ts Administration Investigations | 31

         Other Investigations | 35

         Administrative Investigations | 39

         Threats Made Against VA Employees | 39

         Fugitive Felons Arrested with OIG Assistance | 40

Ofﬁce of Management and Administration | 41

         Hotline Division | 41

Ofﬁces of Contract Review and Counselor to the Inspector General | 43

         Preaward Reviews | 43

         Postaward Reviews | 43

         Qui Tam Cases | 44

Other Signiﬁcant OIG Activities | 45

         Congressional Testimony | 45

         Special Recognition | 46

Appendix A: List of OIG Reports Issued | 48

Appendix B: Status of OIG Reports Unimplemented for Over 1 Year | 61

Appendix C: Inspector General Act Reporting Requirements | 73

Appendix D: Government Contractor Audit Findings | 75

Appendix E: American Recovery and Reinvestment Act Oversight Activities | 76

Appendix F: Restoring American Financial Stability Act Reporting Requirements | 77





VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                      |3
Issue 66 | April 1 — September 30, 2011
                                                                    Statistical Highlights

                                                                                  Reporting                 Fiscal
                                                                                   Period                    Year
Monetary Impact (in Millions)
Better Use of Funds                                                                       $889.3 $3,202.3
Fines, Penalties, Restitutions, and Civil Judgments                                        $39.7   $519.7
Fugitive Felon Program                                                                     $82.8   $200.0
Savings and Cost Avoidance                                                              $264.5    $397.7
Questioned Costs                                                                       $2,770.1 $2,773.9
Dollar Recoveries                                                                          $5.4    $28.0
Total Dollar Impact                                                                    $4,051.8 $7,121.6
Cost of OIG Operations1                                                                   $47.0    $94.0
Return on Investment (Total Dollar Impact/Cost of OIG Operations)                          86:1     76:1
Reports Issued
Combined Assessment Program Reviews                                                               29                 54
Community Based Outpatient Clinic Reviews (encompassing 37 facilities)                             5                 10
Healthcare Inspections                                                                            33                 64
Joint Review                                                                                      1                   2
Audits and Reviews                                                                               15                  25
Beneﬁts Inspections                                                                              14                  20
Administrative Investigations                                                                     1                   4
Preaward Contract Reviews                                                                        48                  92
Postaward Contract Reviews                                                                       15                  30
Total Reports Issued                                                                            161                301
Investigative Activities
Arrests (Not including Fugitive Felons)                                                         260                488
Fugitive Felon Arrests                                                                           30                 60
Fugitive Felon Apprehensions by Other Agencies with OIG Assistance                               27                 46
Indictments                                                                                     188                360
Criminal Complaints                                                                             100                167
Convictions                                                                                     176                344
Pretrial Diversions and Deferred Prosecutions                                                    21                 56
Administrative Sanctions                                                                        264                427
Cases Opened                                                                                    490                990
Cases Closed                                                                                    503                979




                                                                          VA O f f i c e o f I n s p e c t o r G e n e r a l
4|
                                                                          Issue 66 | April 1 — September 30, 2011
Statistical Highlights
                                                                                                                 Reporting           Fiscal
                                                                                                                  Period              Year
  Congressional Activities
  Cases Opened                                                                                                                 7            13

  Healthcare Inspections Activities
  Clinical Consultations                                                                                                       1             6
  Administrative Case Closures                                                                                                 6            20
  Hotline Activities
  Cases Opened                                                                                                              628         1,184
  Cases Closed                                                                                                              637         1,018
  Administrative Sanctions                                                                                                   27            37
  Substantiation Rate                                                                                                     40%           40%
  Contacts                                                                                                              15,286        30,222




1. Beginning in 2009, the 6-month and ﬁscal year cost of operations for the Ofﬁce of Healthcare Inspections ($9.5 million and $19 million,
respectively), whose oversight mission results in improving the health care provided to Veterans rather than saving dollars, is not included in
the return on investment calculation.

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                                           |5
Issue 66 | April 1 — September 30, 2011
              VA and OIG Mission, Organization, and Resources
Department of Veterans Affairs
The Department’s mission is to serve America’s Veterans and their families with dignity and compassion
and to be their principal advocate in ensuring that they receive the care, support, and recognition earned
in service to the Nation. The VA motto comes from Abraham Lincoln’s second inaugural address, given
March 4, 1865, “to care for him who shall have borne the battle and for his widow and his orphan.”

While most Americans recognize VA as a Government agency, few realize that it is the second largest
Federal employer. For ﬁscal year (FY) 2011, VA is operating under a $124.2 billion budget, with over
300,000 employees serving an estimated 22.7 million living Veterans. To serve the Nation’s Veterans, VA
maintains facilities in every state, the District of Columbia, the Commonwealth of Puerto Rico, Guam, the
Republic of the Philippines, and the U.S. Virgin Islands.

VA has three administrations that serve Veterans: the Veterans Health Administration (VHA) provides
health care, the Veterans Beneﬁts Administration (VBA) provides monetary and readjustment beneﬁts,
and the National Cemetery Administration (NCA) provides interment and memorial beneﬁts. For more
information, please visit the VA Internet home page at www.va.gov.

VA Office of Inspector General
The Ofﬁce of Inspector General (OIG) was administratively established on January 1, 1978, to consolidate
audits and investigations into a cohesive, independent organization. In October 1978, the Inspector
General Act, Public Law (P.L.) 95-452, was enacted, establishing a statutory Inspector General (IG) in
VA. It states that the IG is responsible for: (1) conducting and supervising audits and investigations;
(2) recommending policies designed to promote economy and efﬁciency in the administration of, and to
prevent and detect criminal activity, waste, abuse, and mismanagement in VA programs and operations;
and (3) keeping the Secretary and Congress fully informed about problems and deﬁciencies in VA
programs and operations and the need for corrective action. The IG has authority to inquire into all VA
programs and activities as well as the related activities of persons or parties performing under grants,
contracts, or other agreements. Inherent in every OIG effort are the principles of quality management and
a desire to improve the way VA operates by helping it become more customer-driven and results-oriented.

OIG, with 609 employees from appropriations, is organized into three line elements: the Ofﬁces of
Investigations (OI), Audits and Evaluations (OAE), and Healthcare Inspections (OHI), plus a contract
review ofﬁce and a support element. FY 2011 funding for OIG operations provides $109 million from
ongoing appropriations. The Ofﬁce of Contract Review (OCR), with 24 employees, receives $4 million
through a reimbursable agreement with VA for contract review services including preaward and postaward
contract reviews and other pricing reviews of Federal Supply Schedule (FSS) and construction contracts.
In addition to the Washington, DC, headquarters, OIG has ﬁeld ofﬁces located throughout the country.

OIG keeps the Secretary and Congress fully and currently informed about issues affecting VA programs
and the opportunities for improvement. In doing so, OIG staff strive to be leaders and innovators, and
to perform their duties fairly, honestly, and with the highest professional integrity. For more information,
please visit the OIG Internet home page at www.va.gov/oig.




                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
 6|
                                                                                  Issue 66 | April 1 — September 30, 2011
              VA and OIG Mission, Organization, and Resources

OIG Field Offices Map




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                 | 7

Issue 66 | April 1 — September 30, 2011
                                                                                                                                                                                                                                                                                                Office of Contract




                   8|
                                                                                                                                                                                                   Inspector General                                                                                 Review
                                                                                                           Congressional                         Special Assistant to the                          ______________                                      Counselor to the
                                                                                                             Relations                             Inspector General                                                                                  Inspector General
                                                                                                                                                                                                Deputy Inspector General                                                                       Information Release
                                                                                                                                                                                                                                                                                                      Office




                                                                                                                Assistant Inspector General                                  Assistant Inspector General
                                                                                                                                                                               Audits and Evaluations                          Assistant Inspector General                       Assistant Inspector General
                                                                                                                       Investigations
                                                                                                                                                                                                                             Management and Administration                         Healthcare Inspections
                                                                                                                                                                                                                            ____________________________                    ________________________________
                                                                                                       Deputy Assistant            Deputy Assistant                    Deputy Assistant       Deputy Assistant
                                                                                                      Inspector General           Inspector General                   Inspector General      Inspector General              Deputy Assistant Inspector General                Deputy Assistant Inspector General
                                                                                                        Investigations              Investigations                  Audits and Evaluations Audits and Evaluations
                                                                                                       (HQ Operations)            (Field Operations)                (HQ/Field Operations)    (Field Operations)


                                                                                                                                           Northeast Field Office
                                                                                                                       Criminal                 Newark, NJ
                                                                                               Analysis and                                                                                                                              Operations                                                        Program
                                                                                                                    Investigations         (Bedford, MA; Buffalo,                                                                                                         Consultation and
                                                                                                Oversight                                                                                                                                                                                              Administration and
                                                                                                                                            NY; Manchester, NH;                                                                                                           Medical Review
                                                                                                                                                                                                                                                                                                        Special Projects
                                                                                                                                             New York City, NY)                                       Management
                                                                                                                       Benefits                                                                        Operations
                                                                                                                                          Mid-Atlantic Field Office                                                                      Information
                                                                                                                        Fraud                Washington, DC                                                                            Technology and
                                                                                                                                                                                                                                                                             Healthcare
                                                                                                                                              (Columbia, SC;                                                                            Data Analysis                                                     Biostatistics
                                                                                                                                                                                                             Audit                                                        Financial Analysis
                                                                                                                                             Fayetteville, NC;
                                                                                                                     Computer                                                                              Planning
                                                                                               Administrative                                 Pittsburgh, PA)
                                                                                               Investigations          Crimes                                                 Operations
                                                                                                                    and Forensics                                                                                                     Administrative and
                                                                                                                                           Southeast Field Office              Divisions
                                                                                                                                                                                                                                          Financial                          Combined                  Community Based
                                                                                                                                               Bay Pines, FL                   Dallas, TX               Quality
                                                                                                                                                                                                                                         Operations                         Assessment                 Outpatient Clinics/
                                                                                                                                          (Atlanta, GA; Nashville,           Washington, DC            Assurance
                                                                                                                     Health Care                                                                                                                                             Program                     Vet Centers
                                                                                                                                           TN; Tallahassee, FL;
                                                                                                                       Fraud               West Palm Beach, FL)

                                                                                                                                            Central Field Office                Financial              Statistical
                                                                                               Investigative                                                                                                                               Hotline
                                                                                                                                                Chicago, IL                      Audits                Operations                                                                       Regional Offices
                                                                                               Data Systems
                                                                                                                    Fugitive Felon                                                                                                                                                        Atlanta, GA
                                                                                               and Analysis                               (Cleveland, OH; Denver,
                                                                                                                      Program                                                                                                                                                            Baltimore, MD
                                                                                                                                           CO; Kansas City, MO)
                                                                                                                                                                                Benefits                                                                                                 Bay Pines, FL
                                                                                                                                         South Central Field Office            Inspection                                                                                                 Bedford, MA
                                                                                                                       Forensic                                                                                                            Budget                                         Chicago, IL
                                                                                                                                                Dallas, TX                   (Bay Pines, FL;
                                                                                                                      Document                                                                                                                                                             Dallas, TX
                                                                                                                      Laboratory          (Houston, TX; Jackson,             San Diego, CA)
                                                                                                                                           MS; Little Rock, AR)                                                                                                                           Denver, CO
                                                                                                   Legal                                                                                                                                                                                Kansas City, MO
                                                                                                  Counsel                                                                                                                                                                               Los Angeles, CA
                                                                                                                                           Northwest Field Office                                              Operations Divisions
                                                                                                                                                                               Information                        Atlanta, GA                                                            San Diego, CA
                                                                                                                                            San Francisco, CA
                                                                                                                                                                             Technology and                                                                                               Seattle, WA
                                                                                                                                               (Seattle, WA;                                                     Bay Pines, FL
                                                                                                                                                                              Security Audits                     Bedford, MA                                                           Washington, DC
                                                                                                                                              Spokane, WA)
                                                                                                                                                                               (Austin, TX;                        Chicago, IL
                                                                                                                                                                             Washington, DC)                    Kansas City, MO
                                                                                                                                            Western Field Office
                                                                                                                                                                                                                Los Angeles, CA
                                                                                                                                             Los Angeles, CA
                                                                                                                                                                                                                  Seattle, WA
                                                                                                                                             (Las Vegas, NV;
                                                                                                                                               Phoenix, AZ;
                                                                                                                                              San Diego, CA)
                                                                                               4/18/2011                                                                                                                                                                           INSPECTOR GENERAL
                                                                                                                                                                                                                                                                                 Department of Veterans Affairs
                                                                                                                                                                                                                                                                                                                             VA and OIG Mission, Organization, and Resources




                                          VA O f f i c e o f I n s p e c t o r G e n e r a l
Issue 66 | April 1 — September 30, 2011
Office of Healthcare Inspections
The health care that VHA provides Veterans is ranked consistently among the best in the Nation, whether
those Veterans are recently returned from Operations Enduring Freedom, Iraqi Freedom, or New Dawn
or are Veterans of other periods of service with different patterns of health care needs. OIG oversight
helps VHA maintain a fully functional program that ensures high-quality patient care and safety, and
safeguards against the occurrence of adverse events. The OIG OHI focuses on quality of care issues in
VHA and assesses medical outcomes. During this reporting period, OHI published 8 national healthcare
inspections; 25 Hotline healthcare inspections; 1 joint review with OAE; 29 Combined Assessment
Program (CAP) reviews; and 5 Community Based Outpatient Clinic (CBOC) reviews, covering 37 facilities,
to evaluate the quality of care.

Combined Assessment Program Reviews
CAP reviews are part of OIG’s efforts to ensure that quality health care services are provided to Veterans.
CAP reviews provide cyclical oversight of VHA health care facilities; their purpose is to review selected
clinical and administrative operations and to conduct crime awareness brieﬁngs. During this reporting
period, OIG issued 29 CAP reports, which are listed in Appendix A. Topics reviewed in a facility CAP may
vary based on the facility’s mission. Topics generally run for 6–12 months; the CAP topics in current use
since October 2010 are:
                  • 	 Coordination of care.                 • Medication management.
                  • 	 Environment of care.                  • Physician credentialing and
                  • 	 Management of multidrug-resistant 
      privileging.
                      organisms.                            • Quality management.

                  • 	 Management of test results.

When ﬁndings warrant more global attention, summary or “roll up” reports are prepared at the conclusion of
a topic’s use. During this reporting period, OIG issued two CAP summary reports regarding VHA’s
management of test results and infection control practices.

Community Based Outpatient Clinic Reviews
As requested in House Report 110-775, to accompany House Resolution 6599, Military Construction,
Veterans Affairs, and Related Agencies Appropriation Bill, FY 2009, OIG initiated a systematic review of
VHA CBOCs. The purpose of the cyclical reviews is to assess whether CBOCs are operated in a manner
that provides Veterans with consistent, safe, high-quality health care in accordance with VA policies and
procedures. The CBOC inspection process consists of four components: CBOC site-speciﬁc information
gathering and review, medical record reviews for determining compliance with VHA performance
measures, onsite inspections, and CBOC contract review. The objectives of the reviews are to determine
whether: (1) CBOCs comply with selected standards in VHA Handbook 1160.01, Uniform Mental
Health Services in VA Medical Centers and Clinics, regarding the management of mental health (MH)
emergencies, (2) CBOCs have a skills competency assessment and validation policy and process in place
and if individuals performing competency assessment and validation have the education, background,
experience, or knowledge related to the skills assessed, (3) Short-Term Fee Basis authorization and
follow-up processes for outpatient radiology consults including computerized tomography, magnetic
resonance imaging (MRI), positron emission tomography scan, and mammography ensure quality
and timely patient care, (4) CBOCs comply with selected VHA requirements regarding the provision of
mammography services for women Veterans, (5) CBOCs are in compliance with standards of operations

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       |9
Issue 66 | April 1 — September 30, 2011
                                                  Office of Healthcare Inspections
according to VHA policy in the areas of environmental safety and emergency planning, (6) CBOC
providers are appropriately credentialed and privileged in accordance with VHA policy, (7) primary care
active panel management and reporting are in compliance with VHA policy, and (8) primary care and MH
services provided at contracted CBOCs are in compliance with the contract provisions and evaluate the
effectiveness of contract oversight provided by the VA.

During this reporting period, OIG performed 37 CBOC reviews throughout 13 Veterans Integrated
Service Networks (VISNs). These reviews were captured in 5 reports. We made recommendations for
improvements at the following facilities:

• 	 VISN 1: Springﬁeld, MA
• 	 VISN 4: Georgetown, DE; Ventnor, NJ; and Camp Hill, McKean County, Pottsville/Frackville, and
    Venango County, PA
• 	 VISN 6: Morehead City and Raleigh, NC
• 	 VISN 8: Guayama and Ponce, PR
• 	 VISN 9: Clarksville and Cookeville, TN
• 	 VISN 11: Goshen, IN
• 	 VISN 15: Belton and Nevada, MO
• 	 VISN 16: Harrison, AR; Hammond and Houma, LA; Branson, MO; and Conroe, Lufkin, and Wichita
    Falls, TX
• 	 VISN 17: San Antonio (North Central Federal Clinic), Tyler, and Uvalde, TX
• 	 VISN 18: Alamogordo and Artesia, NM; and Bellemont and Kingman, AZ
• 	 VISN 20: Klamath Falls, OR
• 	 VISN 21: Capitola and French Camp (Stockton), CA
• 	 VISN 23: Hibbing and Rochester, MN; Mission, SD; and Newcastle, WY

A roll up report for the CBOCs reviewed in FY 2010 and two informational reports for FYs 2011 and 2012
were also published during this reporting period.

National Reports
Readjustment Counseling Services Show Improvement But Issues Remain
The purpose of OIG’s inspection was to assess the quality of Readjustment Counseling Service (RCS)
Vet Centers’ post-traumatic stress disorder (PTSD) counseling services to determine how clients are
screened for PTSD, if treatment documentation complies with policy, and if providers are trained to provide
PTSD counseling services according to policy. OIG found that counselors utilized appropriate tools to
screen clients for PTSD, client treatment case ﬁle documentation improved from the FY 2009 report, and
staff training improved. Although RCS made improvements from the previous review, OIG found that Vet
Center Team Leaders were not consistently providing supervision and consultation to Vet Center providers
in accordance with RCS policy. OIG recommended that Vet Center Team Leaders perform monthly
provider’s record reviews, and provide supervision and consultation to providers in compliance with RCS
policy. Additionally, OIG recommended that corrective action be taken when supervision and consultation
issues are identiﬁed through the annual clinical quality reviews.




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
10 |
                                                                                Issue 66 | April 1 — September 30, 2011
Office of Healthcare Inspections
Progress Made, But More Work Remains for VHA’s Residential MH Care Facilities
OIG conducted a follow-up review to evaluate any improvements made or problems remaining since the
completion of a comprehensive 2009 review of VHA’s residential MH care facilities. OIG found signiﬁ cant
interim progress in meeting some of the prior recommendations, but only moderate or little progress for
others, including limiting the dispensing of prescribed narcotics to up to a 7-day supply to Veterans in
residential programs. The follow-up inspection identiﬁed actual stafﬁng at the Residential Rehabilitation
Treatment Programs as a new area of concern. Additionally, the inspection found that patients were
assessed for occupational dysfunction, but were referred to vocational rehabilitation services based on
program size and urban-rural status. In light of the emphasis on a recovery-based model, this area of
concern is also newly addressed in the recommendations.

Roll-Up Inspection Determines Clinic Care Comparable to Parent Facilities
Between March 15 and August 27, 2010, OIG completed an evaluation of 47 VHA CBOCs to determine
whether they provide a quality of care that is comparable to their parent VA Medical Center (VAMC) and
whether they generally meet VHA directives and guidelines. CBOCs appear to be providing a quality
of care that is not substantially different from parent VAMCs, and they generally met VHA directives
and guidelines. However, of the 47 CBOCs reviewed, OIG found that only 87 percent complied with the
required cardiopulmonary resuscitation (CPR) training; 26 percent did not monitor, collect, or analyze
hand hygiene data on a routine basis; and 19 percent did not consistently secure patients’ personally
identiﬁable information (PII). Additionally, OIG determined that VHA used four different pricing models to
compensate for MH services at 18 contract CBOCs, and Primary Care Management Module Coordinators
were not effectively managing primary care provider (PCP) assignments, which resulted in nine contract
CBOCs having patients assigned to more than one PCP. OIG made ﬁve recommendations to address the
identiﬁed issues.

OIG Finds VHA Facility Capabilities Appropriate for Level of Surgical Care
OIG conducted a retrospective review to characterize where seven complex and intermediate surgical
procedures were performed at VHA facilities and at non-VHA facilities through fee basis arrangements
prior to VHA’s release of Directive 2010-018, Facility Infrastructure Requirements To Perform Standard,
Intermediate, or Complex Surgical Procedures, on May 6, 2010. OIG found that VHA facilities had
appropriate infrastructure to support surgeries performed. Although some surgeries were performed at
VHA facilities with designations of lower complexity than required by the Directive, these surgeries were
performed prior to the publication of the Directive, and OIG identiﬁed no adverse patient outcomes clearly
attributable to facility infrastructure. OIG also found that VHA referred complex surgeries to non-VHA
facilities with sufﬁcient capabilities to support the surgeries performed. OIG made no recommendations.

OIG Makes Five Recommendations to Improve Infection Control Practices
OIG evaluated selected infection prevention (IP) practices in VHA facilities by determining whether facilities
complied with required IP practices in patient care units, trained employees on the Occupational Safety
and Health Administration Bloodborne Pathogens Rule, and performed N95 respirator ﬁt testing. OIG
conducted the review at 69 facilities during CAP reviews performed from January 1, 2010, through
March 31, 2011. VHA facilities recognized the importance of maintaining consistent IP practices to ensure
Veteran safety and reduce the incidence of health care-associated infections. OIG identiﬁed ﬁve areas
where compliance with selected IP requirements needed to improve and recommended that corrective
actions are initiated when hand hygiene performance falls below established thresholds, ultraviolet
germicidal irradiation ﬁxtures are turned on and functional, negative pressure is monitored and within
acceptable levels in occupied airborne infection isolation rooms, employees with occupational exposure

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 11
Issue 66 | April 1 — September 30, 2011
                                                      Office of Healthcare Inspections
risk complete annual Occupational Safety and Health Administration Bloodborne Pathogens Rule training,
and designated employees complete annual N95 respirator ﬁt testing.

OIG Identiﬁes Three Areas in Need of Improvement in Management of Laboratory, Radiology, and
Pathology Test Results
OIG evaluated the management of test results in VHA facilities by determining whether facilities complied
with VHA policy and Joint Commission standards related to communicating critical clinical laboratory,
radiology, and anatomic pathology test results; periodically monitored communication of critical test results
to evaluate effectiveness; documented appropriate notiﬁcation and follow-up actions in medical records
when critical test results were generated; and notiﬁed patients of normal test results. OIG also followed
up on a previous report published in 2002. This review was conducted at 25 facilities during CAP reviews
performed from October 1, 2010, through March 31, 2011. In response to OIG’s 2002 report, VHA provided
system-wide guidance for management of test results and made signiﬁcant improvements related to
diagnostic clinician communication and documentation of critical results. OIG identiﬁed three areas where
compliance with VHA requirements needed improvement and recommended that facilities’ written policies
be comprehensive and deﬁne processes for monitoring the effectiveness of communicating critical results
to practitioners and patients, that ordering practitioners notify patients of all critical results within the deﬁned
timeframes, and that practitioners notify patients of normal results and managers monitor compliance.

Hotline Reports
Management Slow to Address Poor Infection Control Practices, Stafﬁng Issues at Dayton, Ohio,
Dental Clinic
OIG reviewed infection control issues at the Dayton, OH, VAMC, at the request of the Chairmen and
Ranking Members of the Senate Committee on Veterans’ Affairs and the House Committee on Veterans’
Affairs. The inspection found evidence of a lack of adherence to proper infection control policies and
determined that a VAMC dentist did not comply with infection control and related procedures. Dental
Service management was aware of these infractions, yet did not act sufﬁciently on this evidence.
Additionally, OIG found Dental Service stafﬁng levels to be suboptimal, which may have increased the
likelihood that deviations from approved infection control practices would occur. Moreover, interpersonal
relations among Dental Service staff were strained and negatively affected the Dental Service. OIG
recommended that the VISN Director review the ﬁndings related to the Dayton Dental Service and take
appropriate action, in addition to ensuring the Dental Service is required to comply with the relevant
infection control policies.

Allegations Regarding Medical Follow-Up for Urology Care Not Substantiated Against
Chattanooga, Tennessee, CBOC
OIG conducted a healthcare inspection of the Chattanooga, TN, CBOC in response to a Hotline allegation
regarding medical follow-up for elevated prostate-speciﬁc antigen (PSA) levels of a patient. The patient
experienced periods of elevated PSA levels since 2004, and an August 2010 prostate biopsy revealed
cancer. Contrary to the allegations that CBOC staff did not follow up on the elevated PSA levels, OIG
found that the patient’s CBOC providers routinely measured PSA levels and communicated results to
the patient. The patient chose to receive primary care and urology care from community providers.
Medical documentation reﬂected that the patient either reported a recent normal prostate examination
by a community provider or refused a CBOC prostate examination. Although CBOC staff requested that
the patient provide documentation of visits with community providers, none was provided. OIG did not
substantiate the allegation and made no recommendations.
                                                                                      VA O f f i c e o f I n s p e c t o r G e n e r a l
12 |
                                                                                      Issue 66 | April 1 — September 30, 2011
Office of Healthcare Inspections
Rescue Medication Policy in Need of Updating at VA Eastern Kansas Health Care System, Topeka,
Kansas
OIG reviewed the validity of allegations that local policy regarding rescue medications was inappropriate
and unsafe for the Specialized Inpatient Stress Disorders Unit (SIPU) patient population at the VA Eastern
Kansas Health Care System (HCS), Topeka, KS. The inspection substantiated that facility policy did not
allow patients to carry rescue medications with them when they left the unit. Although SIPU staff identiﬁed
this problem and implemented a change in practice that allowed patients to carry rescue medications with
them when they leave the facility, the facility policy did not reﬂect the new process. In accordance with
OIG’s recommendation, the facility developed a policy that includes procedures for administering rescue
medications in the SIPU; therefore, OIG considers the recommendation implemented.

Inspection Finds Inadequacies in Patient Care, Airway Management, and Critical Care Coverage at
VA Northern Indiana HCS, Fort Wayne, Indiana
OIG conducted an inspection to determine the validity of allegations regarding the quality of care for
four patients at the VA Northern Indiana HCS in Fort Wayne, IN. OIG found inadequate management,
documentation, and review of Patient 1’s cardiopulmonary arrest and inadequate Intensive Care Unit
(ICU) monitoring of Patient 2. OIG also found that Patient 3 should not have been accepted in transfer
from a community hospital. OIG identiﬁed no quality of care issues in the care of Patient 4. OIG did not
substantiate allegations against the physician in question. However, OIG determined that during a 6-month
period, there were 23 days with periods ranging from 4 to 15 hours during which there were no staff in the
facility with demonstrated competence to perform out-of-operating room airway management; Medical
Ofﬁcers of the Day were routinely providing care to patients in the emergency department (ED) and to
inpatients, including the ICU, contrary to VHA policy; and that in March 2010 there were two intervals when
three patients in the ICU received mechanical ventilator therapy concurrently. OIG did not substantiate that
there were no backup ventilators in the facility or that the use of three ventilators simultaneously was in
violation of facility policy. OIG made ﬁve recommendations to address inspection ﬁndings.

Inspection Conﬁrms Delay in Renal Cancer Care at West Palm Beach, Florida, VAMC
OIG conducted an inspection to determine the validity of allegations of delayed cancer care at the West
Palm Beach, FL, VAMC. OIG reviewed allegations that patients did not receive timely treatment after a
diagnosis of lung or renal cancer; these patients did not receive timely cardiac risk assessment prior to
surgery; and management was aware of, but unresponsive to, these issues. While no pattern of delays in
care for those patients diagnosed with lung cancer were found, OIG substantiated the allegation that there
were delays in treatment for patients diagnosed with renal cancer. OIG found that renal cancer patients
referred to the Miami VAMC waited between 3 and 5 months from conﬁrmed diagnosis for their treatment.
OIG substantiated the allegation that VAMC management was aware of problems with timely renal cancer
care for one patient, but made no effort to follow up on this. OIG did not substantiate the allegation that
there were delays in obtaining cardiology risk assessments for lung and renal cancer patients scheduled
for surgery. Management agreed with the ﬁndings and recommendations and provided acceptable action
plans.

Delay in Diagnosis and Communication Issues Found at Chattanooga, Tennessee, CBOC
OIG conducted an inspection in response to allegations of a delay in diagnosis and communication issues
at the Chattanooga, TN, CBOC, which is part of the Tennessee Valley HCS, Nashville, TN. OIG also
reviewed an additional allegation that the patient had difﬁculty getting an appointment at the CBOC. OIG
substantiated the allegation of a delay in diagnosis, ﬁnding no evidence that the patient’s CBOC PCP
reviewed the MRI results, notiﬁed the patient of the abnormal results, or ensured follow-up care. Current

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 13
Issue 66 | April 1 — September 30, 2011
                                                     Office of Healthcare Inspections
local policy does not delineate responsibility for the follow up of fee basis provider recommendations
to ensure continuity of care. OIG could not conﬁrm or refute the allegations that the PCP did not
communicate adequately with the patient’s TRICARE provider, that the CBOC staff did not allow the patient
to change providers, or that the patient had difﬁculty getting appointments at the CBOC. Management
agreed with the ﬁndings and recommendations.

Pain Management Clinic Deﬁciencies Found at Detroit, Michigan, VAMC
OIG evaluated allegations of poor prescribing practices for controlled substances in the Pain Management
Clinic (PMC) at the John D. Dingell VAMC in Detroit, MI. A complainant alleged that PMC physicians
prescribed controlled substances (CS) without adequate evaluation of patients, supervisors coerced
PMC providers to write CS prescriptions for patients not under their care, and patient injuries and deaths
occurred because of PMC providers’ prescribing practices. OIG substantiated that providers were
prescribing CS without adequate evaluation of patients and found that the facility did not have a policy
outlining requirements for the ongoing assessment of patients treated with narcotic medications. OIG did
not substantiate the allegations that supervisors coerced providers to write CS prescriptions for patients
they had not evaluated or that injuries or deaths resulted from the prescribing practices of PMC providers.
OIG recommended that the VAMC Director ensure managers deﬁne the expected frequency of provider
evaluations for patients treated with narcotic medications, and ensure a peer review is conducted of the
PMC physician responsible for prescribing narcotic prescriptions without adequate patient evaluation.

Improvements Needed in ICU Patient Assessment, Documentation, and Adverse Event Reporting
at Shreveport, Louisiana, VAMC
OIG evaluated the validity of an allegation that a patient became paralyzed after the insertion of an
epidural catheter at the Overton Brooks VAMC in Shreveport, LA. OIG did not substantiate the allegation.
However, OIG concluded that the patient’s hypotension was poorly monitored and should have been
treated more aggressively, and that ICU nursing staff did not document required patient assessments.
In addition, the VAMC’s system of reporting and evaluating adverse events needed improvement. OIG
recommended that the VAMC Director ensure that (1) patients in the ICU are assessed appropriately
and patient care activities are consistently documented, and (2) processes are in place for reporting and
evaluating adverse events. Management agreed with the ﬁndings and recommendations and provided
acceptable action plans.

Delays in Communication, Colonoscopy Referrals Noted at Contract CBOCs Afﬁliated with New
Mexico VAHCS
OIG conducted a review to determine the validity of allegations regarding patient care at contract CBOCs
afﬁliated with the New Mexico VAHCS. The complainant alleged that contract issues negatively affected
patient care; a CBOC physician underwent three level-III peer reviews following the death of a patient; from
April to September 2010, four patients with positive colorectal cancer screening tests were not referred to a
specialist to determine the cause for bleeding; and there were numerous complaints from Veterans unable
to get access to care when needed. OIG substantiated that contract issues that limited communication
between clinic and HCS staff negatively affected patient care, and that there were issues with access
to care at the CBOC. OIG did not substantiate that there were three level-III peer reviews assigned to a
CBOC physician, but did ﬁnd issues related to peer review timeliness and conﬁdentiality when the results
were communicated to facility contracting staff. OIG also did not substantiate the allegation regarding
positive colorectal cancer screenings for four patients, but did ﬁnd that the facility was not timely in referring
patients for colonoscopies following positive screening tests; however, they had an acceptable action plan.
OIG made four recommendations to address the ﬁndings.

                                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
14 |
                                                                                    Issue 66 | April 1 — September 30, 2011
Office of Healthcare Inspections
Patient Abuse Allegations Not Substantiated at Oklahoma City, Oklahoma, VAMC
OIG evaluated the validity of allegations that a patient at the Oklahoma City, OK, VAMC was abused at
the community nursing home (CNH) and that the VAMC provided inadequate CNH oversight. OIG did
not substantiate the allegations of patient abuse or inadequate CNH oversight. The patient received
appropriate treatment while at the CNH, and the Oklahoma City VAMC and Adult Protective Services
thoroughly investigated the complaint and did not ﬁnd evidence of abuse. OIG made no recommendations.

Provider Privileging and Delayed Patient Care Allegations Unfounded at West Haven, Connecticut,
VAHCS
OIG evaluated the validity of allegations regarding a service’s administrative practice at the West Haven,
CT, VAHCS. The complainant alleged that the service chief did not have recent experience providing
direct patient care, did not meet the requirements for physician re-privileging, and intentionally delayed
patient care based on the assigned provider. OIG did not substantiate allegations against the service
chief; however, facility leadership is taking steps to clarify the requirements for documentation of clinical
competence for privileging based on the results of a February 2011 OIG CAP review of the West Haven
Campus. OIG also did not substantiate delayed patient care based on the assigned provider. OIG made
no recommendations.

Lack of Management Controls Results in Loss of Veterans’ Grant Records at Durham, North
Carolina, VAMC
At the request of Senator Richard Burr, OIG conducted an inspection of the Prosthetic and Sensory Aids
Service at the Durham, NC, VAMC. Speciﬁcally, OIG reviewed the potential loss of Veterans’ Home
Improvement and Structural Alterations (HISA) grant records that contained PII, which may have caused
undue delays in providing these critical modiﬁcations to Veterans homes. OIG was unable to determine
the exact number of HISA records missing but estimates that as many as 90 records are missing. OIG
found numerous discrepancies in the oversight and administration of the HISA program, which contributed
to the lack of management control over this program. The review found that facility managers did not place
appropriate emphasis on protecting, investigating, and reporting lost or stolen ﬁles that contained PII. More
than 3 weeks passed from the discovery of the lost records to notiﬁcation of appropriate authorities. Since
the discovery of the missing ﬁles, personnel and leadership changes in the prosthetics department have
been addressed.

OIG Substantiates Inadequate Management of Electronic Waiting Lists at Atlanta, Georgia, VAMC,
MH Clinics
OIG conducted an evaluation regarding inadequate management of the electronic waiting list (EWL) for
several MH clinics at the Atlanta, GA, VAMC. OIG substantiated that several MH clinics had signiﬁ cantly
high numbers of patients on their EWLs over a period of months in FY 2010, and OIG substantiated that
facility managers were aware of the EWLs but were slow in taking actions to address the condition. While
the facility has since provided resources to eliminate the MH EWLs, ongoing actions are necessary to
ensure the condition does not recur. OIG also substantiated that FY 2010 funds were inappropriately used
to pay a contractor’s FY 2009 expenses and that there were delays in payments to the contractor. OIG
recommended that the VAMC Director ensure ongoing actions are taken to minimize and/or alleviate MH
EWLs and that responsible staff follow ﬁscal guidelines. The Acting VISN Director agreed with the ﬁndings
and recommendations.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                         | 15
Issue 66 | April 1 — September 30, 2011
                                                     Office of Healthcare Inspections
OIG Substantiates Lapses in Execution of Suicide Safety Measures at West Palm Beach, Florida,
VAMC
OIG performed an inspection at the West Palm Beach, FL, VAMC to determine the validity of allegations
regarding a high-risk patient attempting suicide in the ED and again on the MH unit. The complainant also
expressed concerns about staff training; poor communication with the family; staff actions regarding an
art therapy class; and the patient’s transfer to a non-VA treatment center. OIG substantiated that due to
lapses in carrying out suicide safety measures, the patient was able to attempt suicide twice while under
the care of facility providers. While not part of the allegations, OIG found that the facility’s internal reviews
of the events did not fully adhere to the National Center for Patient Safety guidelines for completion of root
cause analyses. Two of the complainant’s allegations resulted in recommendations to the VISN and VAMC
Directors.

Allegations Regarding Hospice Care Substantiated at Baltimore, Maryland, VA Rehabilitation and
Extended Care Center
OIG conducted a review to determine the validity of two allegations regarding hospice care at the Baltimore
VA Rehabilitation and Extended Care Center, which is part of the VA Maryland HCS. OIG substantiated
that two patients did not have adequate pain management as deﬁned by VHA policy and hospice industry
standards. The review identiﬁed ﬁve factors that contributed to the pain management deﬁ ciencies:
(1) facility staff did not develop individualized and comprehensive pain management care plans, (2) patient
pain reassessments were not appropriately documented, (3) clinical staff did not have sufﬁcient training
on the principles of pain management for hospice patients, (4) hospice interdisciplinary teams were not
effectively used, and (5) clinical pharmacists were not actively involved in the pain management process.
OIG did not substantiate that the lack of “piped in” oxygen, suction, and air compromised hospice patient
safety and comfort. OIG found that the facility provided appropriate oxygen, suction, and air. OIG made
four recommendations to address the factors that contributed to the pain management deﬁ ciencies.
Management agreed with the ﬁndings and recommendations.

Hospice and Palliative Care Improvements Needed at Detroit, Michigan, VAMC
OIG evaluated the validity of allegations that facility staff at the John D. Dingell VAMC in Detroit, MI, did
not respect a patient’s treatment decision, misrepresented the family’s wishes, and treated the patient and
family disrespectfully. OIG did not substantiate that the patient’s attending physician misrepresented the
family’s wishes and was unprofessional. OIG substantiated: (1) staff did not provide comfort care to the
patient prior to the patient’s transfer from acute care to hospice care, (2) physicians delayed the patient’s
transfer to the hospice unit, and (3) nursing staff did not show compassion to a dying patient and the
patient’s family. OIG recommended that the VAMC Director ensure that all clinical staff receives training
in hospice and palliative care and that the VAMC follows hospice care guidelines to ensure all family
members have adequate privacy for initial bereavement. The VISN and VAMC Directors concurred with
our ﬁndings and recommendations and provided acceptable action plans. OIG will follow up until the
planned actions are completed.

Allegations of Clinical and Administrative Issues Not Substantiated at Pineville, Louisiana, VAMC
OIG performed an inspection at the Alexandria VAMC, Pineville, LA, to determine the validity of allegations
regarding clinical and administrative issues in the Suicide Prevention Program. The complainant alleged
that there were more than 600 patients on the “high risk for suicide” list who were not being monitored
as required; that conﬁdentiality and privacy were being breached in several program areas; and that
Social Work Service leaders were not providing adequate oversight of programs, were not responsive to
complaints, and were not appropriately addressing peer review ﬁndings. OIG found that at one point, there

                                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
16 |
                                                                                    Issue 66 | April 1 — September 30, 2011
Office of Healthcare Inspections
were over 400 patients on the “high risk for suicide” list; however, this condition no longer existed at the
time of OIG’s site visit and OIG found that the revised monitoring system meets VHA requirements. OIG
did not substantiate breaches in conﬁdentiality or privacy, lack of management oversight, or inadequate
follow-up of peer reviews ﬁndings. OIG made no recommendations.

Deﬁciencies Noted in Prescribing Practices at Tyler, Texas, VA Primary Care Clinic
OIG’s OHI conducted an evaluation to determine the validity of allegations regarding inadequate medical
and MH care for a patient at the Tyler VA Primary Care Clinic in Tyler, TX. The complainant further alleged
that the patient had dementia and facility providers disregarded her concerns. OIG substantiated the
allegation that facility providers improperly prescribed opioids and alprazolam to the patient. Speciﬁ cally,
the following deﬁciencies were identiﬁed in prescribing practices: (1) inconsistent documentation of pain
assessments, (2) absence of a written opioid treatment agreement or urine drug tests, (3) no consideration
of nonpharmalogical approaches for pain management, and (4) absence of evaluations of opioid therapy
effectiveness. However, OIG could neither substantiate nor refute the allegation that prescribing practices
contributed to his overdose and death. OIG found no evidence to support the allegation that the patient
had dementia or otherwise lacked decision-making capacity. OIG recommended that the System Director
ensures that providers document pain assessments for patients on opioid therapy and monitor and
evaluate these patients in accordance with VHA policies.

OIG Substantiates Poor Management of Patient Abuse Cases at the Charlie Norwood VAMC,
Augusta, Georgia
OIG conducted an inspection to determine the validity of allegations that two patient abuse cases were
not managed properly, and as a result, patients were placed at risk at the Charlie Norwood VAMC,
Augusta, GA. OIG substantiated that some staff members and managers did not comply with policies
for reporting patient abuse or evaluating victims and events, and that some managers did not take
appropriate or timely administrative action. OIG found no evidence, however, that patients were actually
harmed by these procedural breaches. OIG substantiated that a senior executive acted improperly in the
administrative action involving substantiated patient abuse and that responsible managers did not report a
nurse to the State Licensing Board as required. VISN and Medical Center Directors concurred with OIG’s
recommendations and provided acceptable action plans.

Allegation of Surgeon Privileging and Resident Supervision Issues Substantiated at the W.G. (Bill)
Hefner VAMC, Salisbury, North Carolina
OIG conducted an inspection to determine the validity of allegations of surgeon privileging and resident
supervision issues at the W. G. (Bill) Hefner VAMC in Salisbury, NC. OIG substantiated the allegation that
some surgeons performed certain operative procedures without the appropriate corresponding privileges;
however, OIG did not ﬁnd evidence that poor surgical outcomes resulted. OIG substantiated the allegation
that residents in Surgical Service were not supervised as required by VHA policy, and that there was no
surgeon on site 2 days per week while residents were seeing patients in the clinic. OIG found that resident-
authored progress notes were not consistently co-signed by a supervising surgeon in the timeframe
verbalized as acceptable by clinical leadership. OIG also found that interval notes documenting patients’
current condition and need for surgery were not consistently entered into the medical record by the
attending surgeon. The VISN and VAMC Directors concurred with OIG’s ﬁndings and recommendations
and provided acceptable action plans.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 17
Issue 66 | April 1 — September 30, 2011
                                                     Office of Healthcare Inspections
Allegations of Poor Quality of Care Substantiated at the VA Nebraska-Western Iowa HCS, Omaha,
Nebraska and VA Central Iowa HCS, Des Moines, Iowa
OIG conducted an inspection to determine the validity of allegations regarding the quality of care received
by a patient at both the Omaha, NE and Des Moines, IA, HCSs. The complainant alleged that while at
the Omaha HCS, a patient suffered a stroke that was unnoticed by staff, did not receive assistance with
activities of daily living (ADLs), did not receive rehabilitative therapy, did not receive a pulmonary treatment,
did not receive pain medication timely, and had a delay in receiving medication by mail. The complainant
also alleged that while at the Des Moines HCS, the patient did not receive assistance with his ADLs,
speech therapy, and discharge planning. OIG substantiated that the patient did not receive one pulmonary
treatment, medication by mail timely, and was not reassessed for pain medication effectiveness. OIG
recommended the Omaha HCS Director ensure clinicians review the delay in medication by mail and
ensure pain assessments and reassessments are done according to policy.

Allegations of Poor Quality of Care Substantiated at the Corpus Christi CBOC, Harlingen, Texas
OIG evaluated the validity of allegations regarding quality of care at the Corpus Christi CBOC in Corpus
Christi, TX. OIG substantiated the allegation that a CBOC primary care provider did not diagnose a
patient’s fractured ankle when the patient presented for evaluation. The facility had taken appropriate
action prior to the review. OIG substantiated that a CBOC primary care provider prescribed antibiotics
without ﬁrst obtaining wound cultures. OIG identiﬁed two factors that affected this patient’s care: failure
to implement the facility’s Skin Integrity Management Program Policy for managing the skin integrity
of outpatients and fee-basis records not always being available in the medical record. The facility
identiﬁed opportunities for improvement prior to OIG’s review, which were found to be acceptable. OIG
recommended that the VAMC Director ensure that the CBOC follow the Skin Integrity Management
Program Policy.

Diagnosis of Pulmonary Embolism Not Adequately Pursued at the Oklahoma City, Oklahoma,
VAMC
OIG conducted a review to determine the validity of allegations of misdiagnosis by providers at the VAMC
in Oklahoma City, OK. The complainant alleged that a patient was given a diagnosis of communicable
pneumonia, placed in a room with four other patients in the facility’s emergency room (ER), and then
incorrectly given a diagnosis of lung cancer. When the patient left the facility and went to a community
hospital, the patient was found to have acute pulmonary embolism. OIG did not substantiate that the
patient was placed in a room with four other patients or that the patient was given a diagnosis of lung
cancer. OIG found that providers did not adequately pursue a possible diagnosis of pulmonary embolism
at initial presentation or upon admission to the facility. OIG recommended that the VAMC Director obtain
a peer review assessment of the care provided to this patient during both presentations to the ER and
subsequent admission. The VISN and VAMC Directors concurred with OIG’s ﬁndings. OIG will follow up
until the planned actions are completed.

Allegations of Quality of Care Issues Not Substantiated at the Captain James A. Lovell Federal
Health Care Center, North Chicago, Illinois
OIG conducted an inspection to determine the validity of multiple allegations regarding the quality of
care in the MH and two medical specialty clinics at the Captain James A. Lovell Federal Health Care
Center, Chicago, IL. The complainant alleged that a patient did not have drug screens completed prior
to being prescribed narcotics and that the patient’s death was not properly reported and investigated.
OIG substantiated the allegation that urine drug screens were not performed. OIG found that the case
was properly reported and investigated; however, the peer reviewer of the case was not certiﬁed in pain

                                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
18 |
                                                                                    Issue 66 | April 1 — September 30, 2011
Office of Healthcare Inspections
management. OIG did not substantiate the other allegations related to MH providers issuing narcotics
outside the narcotic agreement, the contract physician self-referring, the physician in a specialty clinic
taking multiple weeks of annual leave, or that managers were aware that multiple patients did not receive
care during that time. OIG recommended that the Center Director ensure that patients with narcotic
agreements are appropriately monitored for compliance with prescription medications and a physician
certiﬁed in pain management review this case.

OIG Finds Bedsores Not Caused by Neglect or Abuse at Fresno, California, VAHCS
OIG evaluated the validity of an allegation regarding patient neglect and abuse at the VA Central California
HCS, Fresno, CA. The complainant alleged that a patient developed bedsores (pressure ulcers) due
to neglect and abuse while an inpatient on the HCS’s medical units and as a resident in the community
living center. OIG did not substantiate the allegation. OIG found that the patient developed pressure
ulcers while being treated by the HCS as well as subsequent pressure ulcers that developed when not an
inpatient. OIG concluded that these were not the result of neglect or abuse but more likely the result of
his debilitated catabolic state, and the insertion of a Foley catheter used in the treatment of life-threatening
urosepsis. OIG determined that the patient was assessed for skin breakdown and pressure ulcer
interventions were initiated by the system in a timely manner. OIG made no recommendations.



Office of Healthcare Inspections and Office of Audits and
Evaluations Joint Review
No Signiﬁcant Differences in Delivery of Health Care, Disability Beneﬁts Found Between Veterans
Residing in U.S. Virgin Islands and Puerto Rico
At the request of Congresswoman Donna Christensen, U.S. Virgin Islands (USVI) Delegate to Congress,
OIG evaluated whether Veterans residing in the USVI receive disparate health care services and beneﬁts
compared to Veterans living in Puerto Rico. OIG partially substantiated that USVI Veterans do not have
access to the same level of health care services as Puerto Rico Veterans; however, because of liberal use
of fee basis authorization for local care, USVI Veterans’ care is not limited or less than that of Puerto Rico
Veterans. Although English-speaking USVI Veterans could face language barriers with non-direct patient
care staff at the San Juan, PR, VAMC, these barriers did not negatively affect patient care. OIG found no
evidence that the VBA processed claims differently based on a Veterans’ residency, and that applications
from USVI Veterans were processed on average 4 days sooner than Veterans from Puerto Rico. OIG
made seven recommendations to address health care services and beneﬁts.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                            | 19
Issue 66 | April 1 — September 30, 2011
                                               Office of Audits and Evaluations

Veterans Health Administration Audits and Reviews
OIG audits and reviews of VHA programs focus on the effectiveness of health care delivery for Veterans.
These audits and evaluations identify opportunities for enhancing management of program operations and
provide VA with constructive recommendations to improve health care delivery.

Audit Questions Use of $273 Million in Rural Health Care Program
OIG audited the VHA’s Ofﬁce of Rural Health (ORH) to determine if it effectively planned and managed
$533 million allocated during FYs 2009 and 2010 to improve access and quality of care for Veterans
residing in rural areas. The audit concluded that ORH lacks reasonable assurance that its expenditure
of $273.3 million in funding received actually improved access and quality of care for Veterans residing
in rural areas. This occurred because of program weaknesses such as a lack of ﬁnancial controls,
the absence of policies and procedures to ensure staff followed management directives, inadequate
communication with key stakeholders, an ineffective project monitoring system, the absence of procedures
to monitor performance measures, and an inadequate process to assess rural health needs. OIG
recommended that VHA take steps to strengthen the management of rural health care funding in order to
improve accountability of funds entrusted to ORH and measure the impact of their program on the health
care of rural Veterans and their families.

VHA Could Reduce Workers’ Compensation Costs by $264 Million Over 5 Years
OIG conducted an audit to determine whether VHA has effectively managed Workers’ Compensation
Program (WCP) claims to reduce VA’s overall WCP costs. VHA has nearly doubled its timeliness
in initiating WCP claims since 2001. However, evidence was sometimes lacking and VHA had not
consistently updated ﬁles or made job offers to employees who could work. Fraud detection was lacking
due to competing priorities. OIG projected VHA could reduce costs by $264 million over 5 years.
Additionally, converting claimants 65 years of age or older to more appropriate beneﬁt programs could
reduce VHA’s costs about $463.9 million over 5 years; legislation has been proposed to address this issue.
OIG recommended the Under Secretary for Health provide adequate staff, clear oversight, standard
guidance, and fraud detection procedures to improve WCP case management. OIG recommended the
Assistant Secretary for Human Resources and Administration (HRA) propose legislation to move retirement
age individuals to appropriate retirement programs. The Assistant Secretary for HRA plans to develop a
letter of support for the proposed legislation to provide to the Department of Labor (DOL).

Improved Third-Party Billings Could Increase VHA Revenue by $552 Million
OIG conducted an audit to determine the extent to which VHA’s Medical Care Collection Fund (MCCF)
Program bills third-party health insurers for non-VA care. OIG found VHA missed opportunities to increase
MCCF revenue by not billing third-party insurers for 46 percent of billable fee care claims. This occurred
because VHA does not have an effective process to identify billable fee claims and lacks a system of
controls to maximize the generation of MCCF fee care revenue. OIG estimates that with an improved
process and system of controls, VHA could increase third-party revenue by $110.4 million annually or by as
much as $552 million over the next 5 years. OIG issued four recommendations to correct the ﬁndings.

Accuracy in Part-time Physicians’ Time and Attendance Improves, But Better Controls Still Needed
OIG conducted a follow-up audit to assess the effectiveness of implementation actions from two prior
OIG audits that identiﬁed weaknesses in VHA’s management controls over part-time physicians’ time
and attendance. Implementation of prior recommendations has reduced the number of days part-time
physicians might not be meeting their employment obligations. OIG noted a decrease in the percentage of
days with no evidence of VA activity from 33 percent in 2003 to 11 percent in 2010. Also, only 3 percent of
                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
20 |
                                                                               Issue 66 | April 1 — September 30, 2011
Office of Audits and Evaluations

part-time physicians were not on duty as required—a drop from prior audits, which reported 11 and
8 percent, respectively. OIG found VHA abolished written physician service agreements and other controls
were not implemented, such as monitoring the type of time logged, validating attendance according to
current procedures, and timely and accurately recording actual hours. OIG recommended VHA reinstitute
written agreements for all part-time physicians, require management establish oversight on time and
attendance, and clarify standard operating procedures for time and attendance monitors. VHA agreed with
OIG’s ﬁndings and recommendations.

Beneﬁciary Travel at Increased Risk for Improper Payments at Cincinnati, Ohio, VAMC
OIG reviewed the validity of allegations of mismanagement and fraud at the Cincinnati, OH, VAMC
Beneﬁciary Travel Ofﬁce (BTO). The Beneﬁciary Travel program provides reimbursements to offset
travel costs associated with obtaining VA health care services. OIG partially or fully validated four
of nine allegations, and identiﬁed processing inconsistencies in the BTO. BTO staff approved some
travel reimbursement claims for uncompleted medical appointments, and approved travel vouchers
associated with patient-cancelled and no show appointments that staff preprinted prior to the beneﬁ ciaries’
appointments. OIG also identiﬁed one occurrence where a beneﬁciary was inappropriately approved
travel reimbursement to the Cincinnati VAMC, and determined a former supervisor improperly authorized
wheelchair van services under an expired contract. The Cincinnati VAMC Director concurred with all
recommendations.

Chicago VAMC Moves Homeless Female Veterans After OIG Reports Safety, Security, and Privacy
Issues
OIG advised VHA of serious safety, security, and privacy issues affecting female Veterans in a homeless
facility identiﬁed during ongoing audit work that required immediate management attention. The OIG site
visit to the Jesse Brown VAMC, Chicago, IL, revealed that since 2002, the VAMC’s Grant and Per Diem
(GPD) program staff has placed 22 homeless female Veterans, some with a history of sexual trauma and
domestic violence, in a male-only facility without adequately addressing the safety, security, and privacy
needs of female Veterans, needlessly exposing homeless female Veterans to safety, security, and privacy
risks. After OIG discussed this issue with senior VAMC ofﬁcials, they arranged for the immediate move of
the women to a non-VA funded facility that provided services to homeless females. OIG recommended
the GPD staff better understand the contents and requirements of the grant proposals, review policies
and procedures, and make program changes as needed. OIG also recommended an inventory of all
active homeless grant programs, and remove females from male-only or other inappropriate facilities, then
prevent future placement of female Veterans in these facilities.

Veterans Benefits Administration Audits
VBA Claims Brokering Process Not Effective at Improving Timeliness, Accuracy of Claims
OIG evaluated the effectiveness of VBA claims brokering. To help address VBA’s major challenge of
processing the increased number of Veterans’ compensation beneﬁt claims, VBA has increased claims
brokering from Veterans Service Centers (VSCs) to resource centers or other VSCs to better align
workload with stafﬁng resources. OIG found VBA can improve the effectiveness of claims brokering by
ensuring area ofﬁces consider additional factors affecting timeliness and accuracy. For nearly
171,000 brokered claims completed during FY 2009, OIG projected the average processing time of
201 days would have been 49 days less if VBA had avoided the claims processing delays identiﬁed in this
report. Of nearly 117,000 claims VBA brokered for ratings, OIG projected area ofﬁces brokered about

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 21
Issue 66 | April 1 — September 30, 2011
                                                Office of Audits and Evaluations

54,000 (46.2 percent) to facilities with lower rating accuracy rates than original VSCs. In addition, staff
at three of seven VA Regional Ofﬁces (VAROs) OIG visited brokered claims without area ofﬁce approval.
Increased effectiveness will reduce the risks of claims-processing inaccuracies. OIG recommended the
VBA revise brokering policies and procedures to help improve claims-processing timeliness and accuracy,
include brokered claims-processing timeliness and accuracy performance measurements in director
performance plans, and evaluate VSC compliance with revised brokering policies and procedures.

Veterans Benefits Administration Benefits Inspections
The Beneﬁts Inspection Program is part of OIG’s efforts to ensure our Nation’s Veterans receive timely and
accurate beneﬁts and services. These independent inspections provide recurring oversight of VAROs,
focusing on disability compensation claims processing and performance of Veterans Service Center
operations. Our objectives are to evaluate how well VAROs are accomplishing their mission of providing
Veterans with convenient access to high quality beneﬁts services and report systemic trends in VARO
operations. We also determine whether management controls ensure compliance with VA regulations and
policies, assist management in achieving program goals, and minimize the risk of fraud, waste, and other
abuses. Beneﬁts inspections may also examine issues or allegations referred by VA employees, members
of Congress, or other stakeholders.

The Beneﬁts Inspection Divisions issued 14 reports during the period April 1 through September 30, 2011.
Key results our inspections are as follows:

• 	 Claims processing: 29 percent of beneﬁt claims we reviewed requiring a rating decision were
    processed in error. These errors involved claims related to PTSD, traumatic brain injury, herbicide
    exposure-related disabilities, and temporary 100 percent evaluations.

• 	 Veterans Appeals and Record Locator System (VACOLS) compliance: 30 percent of Notice of
    Disagreements were not timely controlled for workload management in VACOLS.

On June 2, 2011, the Assistant Inspector General (AIG) for Audits and Evaluations provided testimony
before the Subcommittee on Disability Assistance and Memorial Affairs, Committee on Veterans’ Affairs,
U.S. House of Representatives on issues related to under-performing VAROs. Our inspections of
16 VAROs from April 2009 through September 2010 discussed multiple challenges that management
teams face in providing timely and accurate disability beneﬁts and services to Veterans, including:

• 	 Systematic Analyses of Operations (SAOs): VARO staff did not timely and accurately complete
    30 percent of SAOs. The inadequate SAOs represent missed opportunities for VAROs to identify
    existing or potential problems and propose corrective actions.

• 	 Mail Handling Procedures: 24 percent of mail was not properly controlled or processed. Consequently,
    beneﬁciaries may not have received accurate and timely beneﬁt payments.

• 	 Incompetency Determinations: VARO staff unnecessarily delayed making ﬁnal decisions in 34 percent
    of incompetency determinations reviewed at 10 VAROs. Delays increase the risk of an incompetent
    beneﬁciary receiving beneﬁts payments without a ﬁduciary to manage those beneﬁts and ensure the
    beneﬁciary’s welfare.



                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
22 |
                                                                                 Issue 66 | April 1 — September 30, 2011
Office of Audits and Evaluations

Other Audits and Reviews
VA at Risk of Awarding $2.5 Billion to Ineligible Businesses over Next 5 Years
OIG audited VA’s Veteran-Owned Small Business and Service-Disabled Veteran-Owned Small Business
(VOSB and SDVOSB) programs to assess whether businesses met program and contract eligibility
requirements and VA provided effective management oversight. OIG found that VA awards ineligible
businesses at least 1,400 VOSB and SDVOSB contracts valued at $500 million, annually. Moreover, VA
will award $2.5 billion to ineligible businesses over the next 5 years if it does not strengthen contracting
ofﬁcer oversight and business veriﬁcation procedures. Seventy-six percent of the reviewed businesses
were ineligible to participate in the programs or to receive the contracts, which totaled $46.5 million in
awards, including $26.7 million in American Recovery and Reinvestment Act of 2009 (ARRA) contracts.
VA’s FY 2010 socioeconomic goal accomplishment data may also be overstated by 3 to 17 percent due
to awards made to ineligible businesses. OIG recommended VA implement comprehensive program
controls to ensure awards are not made to ineligible businesses and improve adherence to Federal and VA
regulations. The Under Secretary for Health, the Ofﬁce of Small and Disadvantaged Business Utilization,
and the Ofﬁce of Acquisition, Logistics, and Construction agreed with OIG’s ﬁndings.

More Work Needed To Fully Execute Information Technology Project Management Accountability
System
At the request of the Chief Information Ofﬁcer (CIO), OIG evaluated the effectiveness of Project
Management Accountability System (PMAS) planning and implementation. VA has a history of problems
managing its information technology (IT) development projects. VA launched PMAS in 2009 to improve
its IT development success rate. OIG found the Ofﬁce of Information and Technology (OIT) has made
progress establishing PMAS. It published a PMAS Guide, developed a prototype system for monitoring
project status, and used the oversight approach to better meet incremental deliverable due dates for all
active IT development projects. However, OIT created and instituted the PMAS concept without a roadmap,
adequate leadership, and stafﬁng to effectively implement and manage this new methodology. OIG made
six recommendations that the CIO agreed to implement.

Audit Leads to Quick Action to Correct Deﬁciencies in Verifying Personal Identity for Government
Identiﬁcation Cards
An audit was conducted by OIG to assess whether VA’s Enrollment Centers met Homeland Security
Presidential Directive 12 and other Government-wide requirements when providing Personal Identity
Veriﬁcation (PIV) credentials. OIG found signiﬁcant control lapses and missing procedures that
compromised the integrity of the credentialing process. VA’s PIV credentialing operation was never
evaluated and certiﬁed to Government standards. VA may have issued thousands of PIV credentials
without determining whether applicants are known or suspected terrorists; the authenticity of applicants’
documents were not veriﬁed; some applicant background investigations were uninitiated or results
were incomplete; and staff compromised system integrity by disregarding separation of duties. OIG
recommended the Enrollment Centers stop issuing PIV credentials until control deﬁciencies in the
credentialing process are addressed, and VA assesses and accredits the existing processes to meet
Government-wide requirements. The Assistant Secretary for Operations, Security, and Preparedness
concurred with OIG’s ﬁndings and recommendations and took immediate actions to mitigate risk associated
with the program.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 23
Issue 66 | April 1 — September 30, 2011
                                               Office of Audits and Evaluations

Misinterpretation of Reporting Guidance Results in Unreported Overpayments
As required by Executive Order 13520 on reducing improper payments, OIG reviewed VA’s FY 2010 First
Quarter High-Dollar Overpayments Report to determine if it was complete and the process to identify
susceptible programs was adequate. OIG found that the report was incomplete primarily because VBA
misinterpreted guidance and did not report 143 high-dollar overpayments totaling $623,434. VBA also did
not adequately consider including an additional 39,208 potential high-dollar overpayments totaling
$213 million. VBA made adjustments after the ﬁrst quarter to improve compliance, but VBA’s process
still did not fully follow guidance for identifying the high-dollar overpayments. OIG also found VHA’s FY
2009 risk assessment did not adequately assess the level of risk associated with their programs. OIG
recommended the Under Secretary for Beneﬁts report prior period overpayments and administrative errors
as required; and the Under Secretary for Health implement planned improvements to risk assessments.

National Contract Oversight Processes Need Improvement at VA’s National Acquisition Center
Systemic weaknesses in VA’s procurement activities represent a major management challenge for VA.
OIG focused on National Acquisition Center (NAC) operations, the largest combined contracting activity
in VA. OIG found general contract development and award actions were in accordance with Federal
and VA Acquisition Regulations. However, NAC management did not ensure staff fully utilized VA’s
mandatory Electronic Contract Management System (eCMS) to develop and award national contracts.
Limited oversight and compliance monitoring of eCMS resulted in an impaired and diminished visibility
of procurement actions, which in turn may have lead to signiﬁcant delays in the contract awards and
inadequate controls to ensure timeliness. VA agreed with OIG’s ﬁndings and recommendations and plans
to complete all corrective actions by September 30, 2012.

OIG Finds Contractors Failed to Comply with VA Information Security Policies
OIG substantiated allegations that a contractor did not comply with VA information security policies for
accessing mission critical systems and networks. Speciﬁcally, contractor personnel improperly shared user
accounts when accessing VA networks and systems; did not readily initiate actions to terminate accounts
of separated employees; and did not obtain appropriate security clearances or complete security training
for access to VA systems and networks. In addition, VA has not implemented oversight to ensure the
contractor complies with VA information security policies and procedures, making sensitive data at risk of
inappropriate disclosure or misuse. VA agreed with OIG’s ﬁndings and recommendations.

VA’s Compliance with Federal Information Security Management Act Evaluated
OIG contracted with the independent accounting ﬁrms Ernst & Young and Clifton Gunderson LLP to
perform the FY 2010 Federal Information Security and Management Act (FISMA) assessment. The
results of this annual review of the agency’s information security program are reported to the Ofﬁce
of Management and Budget (OMB). OMB uses this data to assist in its oversight responsibilities and
to prepare an annual report to Congress on agency compliance with FISMA. VA has made progress
developing policies and procedures, but still faces challenges implementing components of its agency-wide
information security program to meet FISMA requirements. The report provides a total of
34 recommendations for improving VA’s information security program, including recommendations still
open from prior years’ assessments.




                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
24 |
                                                                              Issue 66 | April 1 — September 30, 2011
Office of Investigations
Veterans Health Administration Investigations
The OIG OI conducts criminal investigations into allegations of patient abuse, drug diversion, theft of VA
pharmaceuticals or medical equipment, false claims for health care beneﬁts, and other frauds relating to
the delivery of health care to millions of Veterans. In the area of health care delivery, OIG opened
198 cases, made 165 arrests, and obtained $16,517,458 in ﬁnes, restitution, penalties, and civil judgments
as well as savings, efﬁciencies, cost avoidance, and recoveries.

During this reporting period, OIG opened 58 investigations regarding diversion of controlled substances.
Subjects of these investigations included VA employees, Veterans, and private citizens. Eighty-one
defendants were charged with various crimes relating to drug diversion. OIG also initiated 23 investigations
regarding fraudulent receipt of health beneﬁts. Fourteen defendants were charged with various crimes
relating to the fraudulent receipt of health beneﬁts and court-ordered payment of ﬁnes, restitution, and
penalties amounted to $1,761,057. The following entries provide a representative sample of the type of
VHA investigations conducted during this reporting period.

Substance Abuse Counselor at Bedford, Massachusetts, VAMC, Arrested for Selling Cocaine to
Patients
A Bedford, MA, VAMC employee, who supervised Veterans undergoing substance abuse treatment at the
VAMC, was arrested for selling cocaine to the patients he was responsible for supervising. An OIG, VA
Police Service, and Drug Enforcement Administration (DEA) investigation revealed that the employee sold
cocaine to a cooperating witness on three separate occasions while on VA property.

Multiple Arrests Made in Major Palm Beach, Florida, Drug Distribution Investigation
A 7-month OIG and Palm Beach County, FL, multi-agency diversion task force undercover investigation
resulted in the arrests of 7 VA employees, 3 Veterans, and 10 associates for numerous felony drug
charges. This operation focused on combating the sale and distribution of illicit and controlled
pharmaceutical drugs at the West Palm Beach, FL, VAMC and the surrounding community. The
investigation resulted in the recovery of 6,000 oxycodone pills and $180,920.

Bay Pines, Florida, VAMC Nurse Arrested for Drug Diversion
A Bay Pines, FL, VAMC nurse was arrested after being charged in a criminal information with a scheme to
defraud VA. An OIG investigation determined that the defendant diverted hydromorphone and Demerol on
approximately 80 occasions.

Former Augusta, Georgia, VAMC Nurse Who Diverted Drugs Enters into Pretrial Diversion
Agreement
A former Augusta, GA, VAMC registered nurse entered into a 12-month agreement for pretrial diversion
for obtaining controlled substances by deception. An OIG and VA Police investigation revealed that,
from August 2009 to June 2010, the defendant stole VA narcotics from a medical center Pyxsis machine.
The defendant admitted to diverting approximately 2–3 hydrocodone and/or oxycodone pills per shift for
personal use.

Roseburg, Oregon, VAMC Pharmacy Technician Arrested for Theft
A Roseburg, OR, VAMC pharmacy technician was arrested for theft of Government property after an
OIG and DEA investigation revealed that the technician diverted more than 6,000 tablets of Oxycotin,
oxycodone, Vicodin, and clonazepam from the pharmacy. For at least 18 months, the defendant created

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 25
Issue 66 | April 1 — September 30, 2011
                                                                  Office of Investigations
and posted false drug orders in the VistA database claiming that the narcotics were being dispensed from
the VA pharmacy inventory as “reﬁlls” to the Accudose machines located throughout the facility. The loss
to VA is approximately $26,000.

Former Salem, Virginia, VAMC Nurse Pleads Guilty to Obtaining Drugs by Fraud
A former Salem, VA, VAMC registered nurse pled guilty to obtaining drugs by fraud. An OIG investigation
revealed that the nurse engaged in a variety of schemes to divert over 7,000 micrograms of fentanyl from
OmniCell machines. The defendant admitted to using the stolen narcotics while working at the VAMC.

Former Prescott, Arizona, VAMC Registered Nurse Indicted for Obtaining Controlled Substances
by Deception
A former Prescott, AZ, VAMC registered nurse was indicted for obtaining controlled substances by
deception. An OIG investigation revealed that the defendant was removing hydromorphone and morphine
at a rate of ﬁve times the average of any other full-time nurse. The defendant admitted that between
August 2009 and January 2010 she stole drugs and injected herself while on duty.

Former Portland, Oregon, VAMC Medical Technician Sentenced for Identity Theft
A former Portland, OR, VAMC medical technician was sentenced to 4 days in jail and ordered to perform
160 hours’ community service after pleading guilty to identity theft. An OIG and VA Police Service
investigation revealed that the defendant diverted controlled substances from a VA computerized
medication dispensing machine by using patient identities. The defendant self-administered the drugs and
then returned to duty monitoring patients undergoing cardiac catheter procedures.

Three Arrested for Stealing Patient Information in Order to Obtain Narcotics
Three individuals were arrested for attempting to obtain a controlled substance by fraud. In addition, one
of the defendants pled guilty and was sentenced to 12 months in a drug treatment program. An OIG, VA
Police Service, and local police investigation revealed that the defendants conspired with an employee of
the American Lake Division of the VA Puget Sound HCS in Tacoma, WA, to steal patient information in
order to obtain narcotics, to include oxycodone. As part of the scheme, the VA employee and the other
defendants obtained veteran information from VA patient records and from a local Veterans of Foreign
Wars facility. The VA employee then used the veteran information on fraudulent VA prescriptions sent to
local pharmacies. The employee previously pled guilty to her part of the scheme and resigned from VA
employment.

Former Great Lakes Consolidated Mail Outpatient Pharmacy Employee Pleads Guilty to Stealing
Viagra
A former employee of the Great Lakes Consolidated Mail Outpatient Pharmacy located in Hines, IL,
pled guilty to theft after an OIG and Food and Drug Administration (FDA) Ofﬁce of Criminal Investigation
investigation determined that he stole numerous vials of Viagra. The loss to VA is $53,004.

Postmaster Pleads Guilty to Theft of VA Drugs
A U.S. Postal Service (USPS) postmaster pled guilty to mail theft after an OIG and USPS OIG investigation
determined that, between March 2009 and December 2010, he diverted approximately 19 shipments of VA
prescribed narcotics that were mailed to Veterans residing in the eastern Washington State area.




                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
26 |
                                                                                Issue 66 | April 1 — September 30, 2011
Office of Investigations
Veteran Arrested for Drug Possession
A Veteran was arrested for possession and delivery of a controlled substance after an OIG, Federal Bureau
of Investigation (FBI), and local police investigation revealed that he sold controlled pharmaceuticals to an
undercover OIG agent on three separate occasions.

Veteran and Girlfriend Sentenced for Drug Distribution
A Veteran was sentenced to 12 months’ incarceration and 3 years’ supervised release, while his girlfriend
was sentenced to 8 months’ incarceration and 3 years’ supervised release. The sentences are the result
of an OIG investigation that revealed the pair sold the Veteran’s VA-prescribed hydrocodone tablets to
relatives and associates.

Veteran Arrested for “Doctor Shopping” to Obtain Oxycodone
A Veteran, who is also a local sheriff’s deputy, was arrested for withholding information from a
practitioner and prescription fraud. An OIG and local task force investigation revealed that the defendant
simultaneously acquired oxycodone and other scheduled drugs from VA and multiple non-VA providers.
The defendant violated her pain management contract with VA by not informing VA that she received
oxycodone from non-VA providers.

Former Bay Pines, Florida, VAMC Nurse Arrested for Sexual Battery
A former VA-licensed practical nurse was arrested for sexual battery against an inpatient at the Bay Pines,
FL, VAMC. An OIG and VA Police Service investigation determined that the defendant sexually assaulted
at least two male inpatients at the VAMC.

Columbia, South Carolina, VAMC Nurse’s Aide Indicted for Sexual Assault
A Columbia, SC, VAMC nurse’s aide was indicted for criminal sexual conduct, sexual battery of a physically
helpless adult, and false statements. The employee gave a sworn statement denying the charges, but
following an OIG polygraph exam, he confessed to sexually assaulting the patient. The Veteran patient
was an amputee and a resident of the VAMC’s nursing home.

Former West Los Angeles, California, VAMC Pharmacist Sentenced for Theft
A former West Los Angeles, CA, VAMC pharmacist was sentenced to 6 months’ home conﬁnement,
3 years’ probation, a $3,000 ﬁne, and ordered to surrender her license after pleading guilty to interstate
transportation of stolen property. The defendant had previously resigned from VA and paid $180,000 in
restitution. A multi-agency investigation revealed that for approximately 5 years the defendant stole more
than 11,000 boxes of test strips from the VA pharmacy and then sold them to another defendant involved in
the sale of stolen medical supplies.

Jackson, Mississippi, VAMC Employees Indicted for Stealing VA Property
Four VA employees, to include three facility maintenance workers and one VA supervisory police ofﬁ cer,
were indicted for grand larceny. An OIG investigation disclosed that for over 18 months the defendants
stole VA property from the Jackson, MS, VAMC. These items included ﬂat panel televisions, commercial
cleaning supplies, commercial cleaning equipment, computer equipment, and other miscellaneous
property. Over 100 stolen items were recovered during the execution of numerous search warrants. The
VA Police Service ofﬁcer has been accused of using his position to facilitate the thefts and receiving some
of the stolen property.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 27
Issue 66 | April 1 — September 30, 2011
                                                                   Office of Investigations
Palo Alto, California, HCS Employees and Construction Company Owner Arrested for Bribery
A VA contracting ofﬁcer, two VA engineers with the VA Palo Alto, CA, HCS, and the owner of a
construction company were indicted for bribery and other offenses. An investigation by OIG and FBI
revealed that the VA employees accepted bribes from the construction company owner in exchange for
inﬂuencing the awarding of a large percentage of the minor construction and nonrecurring maintenance
contracts at the VAHCS. The construction company owner provided bribes to the other three defendants
in the form of cash, airline tickets, vehicles, payment of personal debts, and other gifts totaling at least
$140,000.

Buffalo, New York, VAMC Employee Pleads Guilty to Bribery
A Buffalo, NY, VAMC employee pled guilty to bribery after an OIG investigation revealed that, from
approximately 1992 to 2008, he received gift certiﬁcates, gift cards, and cash totaling $46,075 from a
vendor’s sales agents in exchange for making purchases from that vendor.

Former Durham, North Carolina, VAMC Employee Arrested for Purchase Card Fraud
A former Durham, NC, VAMC employee was arrested on fraud charges after an OIG investigation revealed
that she purchased $7,200 worth of home furnishings using her VA purchase card. All of the purchased
items were discovered during a search of the defendant’s home. The defendant’s VA employment was
terminated following a pattern of misconduct.

Former Long Beach, California, VAMC Nurse Arrested on Identity Theft Charges
A former Long Beach, CA, VAMC nurse was arrested after an OIG and local police investigation revealed
that she stole the personal identifying information of 45 patients and used it to commit identity theft by
making purchases using their identities.

Former West Los Angeles, California, VAMC Chief Financial Ofﬁcer Indicted for Possession of
Child Pornography
A former West Los Angeles, CA, VAMC Chief Financial Ofﬁcer was indicted for possession of child
pornography. During an OIG and Internet Crimes Against Children Task Force investigation, numerous
DVDs, CDs, and a computer hard drive containing images of child pornography were found in the
defendant’s residence, which was located on VA property.

Former Leavenworth, Kansas, VAMC Canteen Employee Pleads Guilty to Theft
A former Leavenworth, KS, VAMC canteen employee pled guilty to theft of Government funds after an OIG
and DOL OIG investigation revealed that between 2003 and 2008 the defendant concealed approximately
$577,000 in earnings from VA and DOL while managing a subcontracting business and receiving workers’
compensation beneﬁts. The defendant also stole, forged, and negotiated approximately $27,000 in Ofﬁce
of Workers’ Compensation beneﬁt checks intended for her deceased brother, a former USPS employee
and service-connected Veteran. The loss to VA is approximately $175,000.

Former Chicago, Illinois, VAMC Employee Sentenced for Personal Use of Government Purchase
Card
A former Chicago, IL, VAMC employee was sentenced to 2 years’ probation and ordered to perform
500 hours’ community service after pleading guilty to theft. The defendant was also ordered to surrender
her $9,000 bond to VA as restitution. An OIG investigation determined that the defendant used her
Government purchase card to pay for $23,769 in personal expenses.

                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
28 |
                                                                                  Issue 66 | April 1 — September 30, 2011
Office of Investigations
Former Dallas, Texas, VAMC Employee Arrested for Fraudulent Overtime Claims
A former Dallas, TX, VAMC employee was arrested for theft of Government funds after admitting that
he submitted fraudulent overtime forms. An OIG and VA Police Service investigation revealed that the
defendant had submitted $103,585 in fraudulent overtime claims between February 2007 and March 2010.

Former Agent Cashier at the Fayetteville, Arkansas, VAMC Indicted for Theft
The former agent cashier at the Fayetteville, AR, VAMC was indicted for theft of Government property.
An OIG and U.S. Secret Service investigation revealed that the defendant failed to make nine deposits
to the Federal Reserve Bank and stole cash from other deposits between January and June 2010. The
defendant was interviewed and admitted to the theft. The loss to VA is $32,000.

Phoenix, Arizona, Nursing Home Owner Arrested for Vulnerable Adult Abuse
A Phoenix, AZ, nursing home owner was arrested for vulnerable adult abuse and forgery. An OIG and
local law enforcement investigation determined that the defendant, who is also a nurse at the Phoenix, AZ,
VAMC, provided inadequate care and treatment to Veterans placed under her care by VA at three assisted
living facilities she owned and operated. The State of Arizona shut down her facilities and condemned the
buildings. The Veterans were returned to the VAMC or placed in other facilities. The defendant forged
CPR certiﬁcations for her unqualiﬁed staff by forging the name of a VAMC CPR trainer.

Former VA Police Service Ofﬁcer Sentenced for False Statements
A former VA Police Service ofﬁcer was sentenced to 14 months’ incarceration after being convicted of
false statements. An OIG investigation revealed that the former ofﬁcer made numerous false statements
on various VA applications for employment, as well as his Ofﬁce of Personnel Management (OPM)
Questionnaire for Public Trust Positions. The investigation also revealed that the former ofﬁcer served
32 months in a military prison related to charges of false statements that he made while in the U.S. Army.
Additional weapon possession charges are pending.

Veteran Pleads Guilty to Reckless Homicide at Brecksville, Ohio, VAMC
A Veteran pled guilty to reckless homicide after his altercation at the Brecksville, OH, VAMC resulted in
the death of another Veteran. An OIG and VA Police Service investigation that included numerous witness
interviews, the defendant’s own statement, and autopsy results revealed that the victim died from subdural
hematomas caused by blunt force trauma to his head.

Veteran Indicted for Arson at Chicago, Illinois, VAMC
A Veteran was indicted for aggravated arson after setting ﬁre to his room at the Chicago, IL, VAMC. The
ﬁre caused damage to the room and extensive smoke and water damage throughout the ward. The
investigation further revealed that the defendant tampered with the ceiling-mounted ﬁre suppression
sprinkler heads, causing them to malfunction during the ﬁre.

Subject Arrested for Robbery of Veteran at Fayetteville, North Carolina, VAMC
A subject was arrested for robbery after an OIG and local law enforcement investigation revealed that he
assaulted and robbed a Veteran on the grounds of the Fayetteville, NC, VAMC. The Veteran sustained a
broken nose and several lacerations and contusions to his face. The defendant has an extensive criminal
record to include assault with a deadly weapon with intent to kill and narcotic-related offenses.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 29
Issue 66 | April 1 — September 30, 2011
                                                                 Office of Investigations
Defendant Sentenced for Identity Theft
A defendant was sentenced to 16 months’ incarceration and ordered to pay restitution to VA after pleading
no contest to felony identity theft. An OIG investigation determined that the defendant, who was not a
Veteran, stole the identity of his cousin and obtained over $98,274 in VA medical services.

Veteran’s Brother Indicted for Health Care Fraud
The brother of a Veteran was indicted for health care fraud and false statements after an OIG investigation
determined that he used his brother’s identity to fraudulently receive health care from the Denver, CO,
VAMC. The loss to VA is $148,123.

Veteran Sentenced After Pleading Guilty to Theft of Health Care Beneﬁts in Connection with
“Stolen Valor” Fraud
A Veteran was sentenced to 6 months’ incarceration, 36 months’ supervised release, and ordered to pay
restitution of $143,606 after pleading guilty to theft of Government property and making a false statement.
An OIG investigation revealed that the defendant submitted fraudulent military discharge documents to the
Bay Pines, FL, VAMC that resulted in the defendant receiving VA health care beneﬁts he was not entitled to
receive.

Veterans Indicted for Travel Beneﬁt Fraud from Oklahoma City, Oklahoma, VAMC
A Veteran was indicted for theft of Government funds after an OIG and VA Police Service investigation
revealed that from December 2008 to July 2010, the Veteran ﬁled approximately 313 fraudulent travel
beneﬁt claims. The defendant claimed to reside at a Kansas residence that was 165 miles from the
Oklahoma City, OK, VAMC, when in fact he resided a few miles away from the VAMC. The loss to VA is
$36,175. A second Veteran was indicted for theft of Government funds after an OIG and VA Police Service
investigation revealed that for approximately 1 year the Veteran ﬁled approximately 175 fraudulent travel
beneﬁt claims. The defendant claimed his residence was 117 miles away from the Oklahoma City, OK,
VAMC, when in fact he resided a few miles away from the VAMC. The loss to VA is $16,560.

Veteran Pleads Guilty to Committing Travel Beneﬁts Fraud Against Gainesville, Florida, VAMC
A Veteran pled guilty to theft of Government funds after an OIG investigation determined that the Veteran
ﬁled 227 fraudulent travel claims at the Gainesville, FL, VAMC. The defendant claimed that he was
traveling 300 miles roundtrip when in reality he was living 33 miles away. The loss to VA is approximately
$28,650.

Veteran Sentenced to Incarceration for Travel Fraud
A Veteran was sentenced to 6 months’ incarceration, 3 years’ supervised release, and ordered to pay
$20,464 in restitution after pleading guilty to making a false claim. An OIG investigation determined that
for approximately 1 year the defendant ﬁled 202 false travel vouchers at the Spokane, WA, VAMC, claiming
that he commuted 182 miles during each visit. The Veteran actually resided less than 2 miles from the
medical center.

Veteran Pleads Guilty to Firearms Possession
A Veteran pled guilty to a felony charge of possession of ﬁrearms in a Federal facility after an OIG, VA
Police, and Bureau of Alcohol, Tobacco, Firearms, and Explosives investigation revealed that he brought
a duffel bag into the Cleveland, OH, VAMC containing three loaded handguns, a fully loaded automatic
assault riﬂe, and two hunting knives.

                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
30 |
                                                                                Issue 66 | April 1 — September 30, 2011
Office of Investigations
Veterans Benefits Administration Investigations
VBA administers a number of ﬁnancial beneﬁts programs for eligible Veterans and certain family members,
including VA guaranteed home loans, education, insurance, and monetary beneﬁts. Investigations
routinely concentrate on payments made to ineligible individuals. For example, a beneﬁciary may
deliberately feign a medical disability to defraud the VA compensation program. OIG conducts an ongoing
Death Match project to identify deceased beneﬁciaries whose beneﬁts continue because VA was not
notiﬁed of the death. Generally, family members of the deceased are responsible for this type of fraud.
With respect to VA guaranteed home loans, OIG conducts investigations of loan origination fraud, equity
skimming, and criminal conduct related to management of foreclosed loans or properties. VA appoints
ﬁduciaries for Veterans in receipt of VA beneﬁts who are deemed incompetent and for minor children who
are receiving VA beneﬁts. OIG investigates allegations of fraud committed by these ﬁduciaries.

An ongoing proactive Death Match project is being conducted by the VA OIG Information Technology and
Data Analysis Division in coordination with the Ofﬁce of Investigations. This work is designed to identify
individuals who may be defrauding VA by receiving VA beneﬁts intended for Veterans or beneﬁciaries
who have passed away. When indicators of fraud are discovered, the matching results are transmitted
to VA OIG investigative ﬁeld ofﬁces for appropriate action. Since the inception of the Death Match
project in 2000, OIG has identiﬁed 16,212 possible cases with over 2,785 investigative cases opened.
Investigations have resulted in the actual recovery of $54.2 million, with an additional
$20.8 million in anticipated recoveries. The 5-year projected cost savings to VA is estimated at
$135.8 million. To date, there have been 514 arrests on these cases with additional cases awaiting
judicial action.

In the area of monetary beneﬁts, OIG opened 213 investigations, made 82 arrests, and had a monetary
impact of $16,482,811 in ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies,
cost avoidance, and recoveries during this reporting period. OIG opened 189 investigations involving the
fraudulent receipt of VA monetary beneﬁts including deceased payee, ﬁduciary, and identity theft fraud; as
well as beneﬁciaries fraudulently receiving these beneﬁts, which resulted in criminal charges ﬁled against
34 defendants. Court ordered payment of ﬁnes, restitution, and penalties amounted to $984,038, while
OIG achieved an additional $8.2 million in savings, efﬁciencies, cost avoidance and recoveries. Two
“Stolen Valor” cases were opened resulting in charges ﬁled against four defendants and $563,762 in court
ordered payment of ﬁnes, restitution, and penalties; and an additional $254,520 in savings. The following
entries provide a representative sample of the type of VBA investigations conducted during this reporting
period.

Former VA Field Examiner and Fiduciary Plead Guilty to Embezzling $900,000
A former VA Field Examiner and a court appointed ﬁduciary pled guilty to a criminal information that
charged both defendants with theft of Government funds and conspiracy. An OIG and FBI investigation
revealed that for approximately 10 years the defendants stole nearly $900,000 from 12 Veterans’ bank
accounts. The defendants lost large sums of the embezzled money gambling in casinos. The OIG OAE
provided signiﬁcant assistance with this case.

Fiduciary’s Assistant Pleads Guilty to Bank Fraud
An administrative assistant working for a VA appointed ﬁduciary pled guilty to bank fraud. An OIG
investigation revealed that the defendant forged the ﬁduciary’s signature on more than 325 checks from
several VA beneﬁciary accounts. The checks were made payable to the defendant and were deposited
into the defendant’s personal bank account. In furtherance of the scheme, the defendant transferred funds

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                       | 31
Issue 66 | April 1 — September 30, 2011
                                                                 Office of Investigations
from one Veteran’s account to another to conceal the thefts. The loss to VA is $626,107.

Former Federal Fiduciary Charged with Misappropriation by a Fiduciary
A former Federal Fiduciary pled guilty to misappropriation by a ﬁduciary. The defendant, who had been
a DOL employee, is charged with stealing VA funds for approximately 18 months from three incompetent
Veterans while she was their VA legal custodian. The loss to the Veterans is approximately $62,000.

Former Muskogee, Oklahoma, VARO Employee and Nephew Sentenced for Fraudulent Claims
A former Muskogee, OK, VARO claims examiner was sentenced to 366 days’ incarceration and
36 months’ supervised release, and his nephew was sentenced to 36 months’ probation for conspiring to
defraud VA by submitting fraudulent claims for VA education beneﬁts. The judge also ordered that total
restitution of $40,098 be paid jointly by both defendants. The loss to VA is approximately $45,000.

Veteran Pleads Guilty to Theft of Compensation Beneﬁts in Connection with Fraudulent Military
Records
A Veteran pled guilty to the theft of Government funds after an OIG investigation revealed that he submitted
fraudulent military discharge documents to VA and fraudulently received $324,000 in VA compensation
beneﬁts.

Veteran Sentenced for VA Compensation Fraud
A Veteran was sentenced to 5 years’ probation and ordered to pay $110,238 in restitution after pleading
guilty to making false statements. An OIG investigation revealed that since 2003 the defendant, who was
collecting VA compensation due to unemployability, was employed full-time with a Government contractor
and submitted false documentation to VA claiming he was unemployed.

Navy Deserter Sentenced for Identity Theft
An active duty U.S. Navy sailor was sentenced to 21 months’ incarceration, 3 years’ supervised probation,
and ordered to pay $64,986 in restitution to VA. An OIG investigation revealed that the defendant deserted
the U.S. Navy in 1985 after the theft of over $8,000 in Navy funds and then assumed his brother’s identity
to avoid arrest. The defendant subsequently received VA pension beneﬁts using his brother’s identity. The
defendant is also scheduled for a military court-martial on desertion and theft charges.

Non-Veteran Indicted for Fraud and Identity Theft
A non-Veteran was indicted on charges of wire fraud, false statements, health care fraud, theft, and
aggravated identity theft. An OIG and Defense Criminal Investigative Service (DCIS) investigation was
initiated after a referral from a VARO that noticed numerous discrepancies in the defendant’s claim forms.
The defendant fraudulently obtained and submitted the DD-214 of a retired military Veteran to obtain
VA medical services, as well as TRICARE beneﬁts for his spouse. The defendant also obtained VA
and Department of Defense identiﬁcation cards and diverted the Veteran’s VA compensation and Army
retirement pay to his own bank account. The defendant ﬁled numerous documents with VA in an attempt to
obtain additional compensation, education, and vocational rehabilitation beneﬁts.

Veteran’s Son Sentenced for Theft of VA Funds
The son of a deceased Veteran was sentenced to 10 years’ probation and ordered to pay $47,409 in
restitution to VA and OPM after pleading guilty to misapplication of ﬁduciary property and theft. An OIG
and OPM OIG investigation revealed that for 4 years the son routinely moved the Veteran from one nursing
home to another, relocating the Veteran when the nursing home demanded payment. During this time
                                                                                VA O f f i c e o f I n s p e c t o r G e n e r a l
32 |
                                                                                Issue 66 | April 1 — September 30, 2011
Office of Investigations

period, approximately $20,000 in VA beneﬁts and $36,000 in OPM beneﬁts were stolen by the defendant
from his father’s bank account. The Veteran died shortly after being moved to his ﬁnal nursing home.

Sister and Niece Sentenced for Theft of Veteran’s Beneﬁts
The sister of an incompetent Veteran was sentenced to 8 years’ incarceration (suspended), 10 years’
probation, and ordered to pay the Veteran restitution of $100,000. The Veteran’s niece was sentenced
to 10 years’ probation and ordered to pay an additional $100,000 in restitution after both defendants pled
guilty to the theft of approximately $180,000 in VA and Social Security beneﬁts. The investigation revealed
that the defendants obtained a Power of Attorney from the Veteran, who is permanently hospitalized at
the San Antonio, TX, VAMC, and subsequently used the document to misappropriate all of the Veteran’s
savings and divert his direct-deposited VA and Social Security funds for their personal use.

Son-in-Law of Incompetent Veteran Sentenced for Elder Abuse
The son-in-law of an incompetent and disabled Veteran was sentenced to 19 to 23 months’ incarceration
and ordered to participate in a substance abuse program after pleading guilty to the exploitation of a
disabled or elderly adult. An OIG, Social Security Administration (SSA) OIG, local law enforcement, and
social services investigation revealed that the defendant and his wife stole $213,662 from the Veteran and
that they physically and mentally abused the Veteran for several years. Collaborative efforts resulted in the
Veteran being placed in a safe environment with a ﬁduciary.

Veteran Sentenced for “Stolen Valor” Fraud
A Veteran was sentenced to 18 months’ probation, 80 hours’ community service, and ordered to write a
letter of apology to VA after pleading guilty to forgery. An OIG investigation revealed that the defendant
purchased a fraudulent DD-214 discharge certiﬁcate online, which reﬂected that he had served as a
corporal in the U.S. Marine Corps and had been awarded a Silver Star, Bronze Star, and three Purple
Hearts. The Veteran then submitted the false DD-214 with his VA application for beneﬁts claiming he
suffered from PTSD from wounds he incurred during combat in Vietnam. The investigation revealed that
the Veteran was dishonorably discharged from the U.S. Air Force and was never awarded any of the
claimed medals, nor had he served in combat.

Veteran Sentenced for Theft of VA Beneﬁts
A Veteran was sentenced to 2 years’ incarceration and ordered to pay $70,749 in restitution after being
found guilty at trial of unlawful possession of an altered discharge certiﬁcate, false representation of
earning military decorations, false statements, and mail fraud. An OIG and DCIS investigation revealed
that the defendant, a former elected county ofﬁcial, claimed to be a recipient of Vietnam Campaign and
Service Medals while running for re-election in 2007. During the investigation into false representations of
earning military decorations, the Veteran resigned his position as County Commissioner of Revenue. The
investigation also determined that the defendant made false statements to VA related to an October 1973
murder at Fort Bragg while applying for VA beneﬁts for his PTSD claim.

Veteran Indicted for Education Fraud
A Veteran was indicted for identity fraud and false statements after an OIG investigation revealed that
he submitted a fraudulent DD-214 to VA in support of an application for education beneﬁts under the
Montgomery GI Bill.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 33
Issue 66 | April 1 — September 30, 2011
                                                                  Office of Investigations
Veteran Pleads Guilty to Theft Charges in Connection with PTSD Claim
A Veteran pled guilty to theft charges after an OIG investigation revealed that he provided fraudulent
information to a VARO and a VAMC in support of his claim for VA disability compensation beneﬁts.
Between 2003 and 2006, the defendant submitted documents and photos and later made statements to VA
that he allegedly participated in combat activities while serving in the Persian Gulf War. The false claims
included hand-to-hand combat in the trenches, killing enemy combatants, seeing fellow soldiers die, seeing
dead bodies inside burned-out tanks, and being under chemical attack. Based on these false statements,
the VAMC diagnosed the Veteran with PTSD relating to his purported military service, and the VARO
subsequently awarded the Veteran disability compensation. Since the conclusion of the investigation, VA
terminated the disability compensation. The loss to VA is approximately $173,000.

Veteran and Wife Found Guilty of Defrauding VA in Tax Evasion Scheme
A Veteran and his wife were found guilty at trial of tax evasion, VA beneﬁts fraud, Social Security fraud,
and education beneﬁts fraud. An OIG, Internal Revenue Service (IRS) Criminal Investigation Division
(CID), SSA OIG, and Department of Education (DOE) OIG investigation revealed that the Veteran and his
wife conspired to falsify their own and others’ tax returns and in the process hide their income from VA,
SSA, and DOE. The loss to VA is approximately $240,000 and the total loss to the Government exceeds
$500,000.

Veteran Sentenced in VA Loan Guaranty Investigation
A Veteran was sentenced to 45 months’ incarceration, 5 years’ supervised release, and ordered to pay
$65,386 in restitution after pleading guilty to bank fraud and identity theft. An OIG and U.S. Secret Service
investigation revealed that the defendant was using multiple fraudulent social security numbers in order to
acquire VA home loans.

Son of Deceased VA Beneﬁciary Sentenced for Theft
The son of a deceased beneﬁciary was sentenced to 48 months’ incarceration, 3 years’ probation, and
ordered to pay restitution of $79,265. An OIG investigation revealed that the defendant failed to report his
father’s March 1999 death and collected the beneﬁts for over 8 years. The defendant secretly transported
the deceased Veteran’s remains to another state and buried them in an unmarked grave in a national
forest. OIG assisted State and local authorities in the recovery of the Veteran’s remains.

Daughter of Deceased Beneﬁciary Sentenced for Theft
The daughter of a deceased beneﬁciary was sentenced to 5 years’ probation and 100 hours’ community
service, ﬁned $25,000, and ordered to pay $1,254 in restitution after having pled guilty to theft of
Government funds. An OIG investigation determined that the defendant failed to notify VA of her mother’s
death in March 1994 and admitted she used the VA beneﬁts for personal expenses. The loss to VA is
$136,885.

Daughter-in-Law of Deceased VA Beneﬁciary Sentenced for Theft of VA Funds
The daughter-in-law of a deceased VA beneﬁciary was sentenced to 10 months’ electronically monitored
home conﬁnement, 5 years’ probation, and ordered to pay $114,683 in restitution after pleading guilty to the
theft of Government property. An OIG investigation determined that the defendant withdrew funds from her
deceased mother-in-law’s bank account after her death in September 2002 and subsequently redirected
the monthly VA beneﬁt checks to three separate addresses in order to continue to defraud VA. The
defendant admitted to receiving, forging, and negotiating the beneﬁt checks through multiple bank accounts
and converting the funds to her own use.
                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
34 |
                                                                                 Issue 66 | April 1 — September 30, 2011
Office of Investigations
Veteran Pleads Guilty to Theft of Government Funds
A Veteran pled guilty to theft of Government funds after an OIG and SSA investigation revealed that he
fraudulently received VA individual unemployability beneﬁts and SSA disability beneﬁts. The defendant
concealed earned income from both VA and SSA. The loss to VA is $72,921 and the loss to SSA is
$28,765.

Former Cleveland, Ohio, VARO Employee Sentenced for Theft of Government Funds
A former Cleveland, OH, VARO employee was sentenced to 5 years’ probation and ordered to pay $11,259
in restitution to VA after pleading guilty to theft of Government funds. An OIG investigation revealed that
while employed by VA the defendant diverted retroactive payments intended for Veterans by changing
the direct deposit information to her own account. After the retroactive payments were deposited into her
account, she changed the deposit information back to the Veterans’ bank accounts.

Widow Sentenced for Fraudulently Receiving VA Beneﬁts
The widow of a Veteran was sentenced to 4 months’ home conﬁnement, 8 months’ community service,
3 years’ probation, and ordered to pay restitution of $4,345. An OIG investigation determined the
defendant fraudulently received VA Dependency and Indemnity Compensation (DIC) beneﬁts from March
1997 to December 2009 by failing to report her remarriage to VA. The loss to VA is $148,943.

Other Investigations
OIG investigates allegations of bribery and kickbacks, bid rigging and antitrust violations, false claims
submitted by contractors, and other fraud relating to VA procurement activities. In the area of procurement
practices, OIG opened 18 cases, made 11 arrests, and had a monetary impact of $9.5 million in ﬁnes,
restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance, and recoveries.
The monetary impact includes settlements in four criminal cases brought under the qui tam provisions of
the False Claims Act, P.L. 111-148, which resulted in recoveries totaling $7.58 million.

OI also investigates theft of IT equipment or data, network intrusions, identity theft, and child pornography.
In the area of information management crimes, OIG opened three cases, made two arrests, and had
$29,130 in ﬁnes, restitution, penalties, and civil judgments as well as savings, efﬁciencies, cost avoidance,
and recoveries.

Former VA OIT Employee Sentenced for Identity Theft
A former VA OIT employee was sentenced to 11 years’ incarceration, 3 years’ supervised release, and
ordered to pay $464,599 in restitution. An OIG and IRS CID investigation revealed that the defendant,
while employed by VA, stole the PII of at least 160 Veterans to create fraudulent tax documents without the
Veterans’ knowledge.

Chief Executive Ofﬁcer Convicted of Fraudulently Obtaining Over $16 Million in Contracts Set
Aside for Veterans
The Chief Executive Ofﬁcer (CEO) of a construction management and general contracting company, who
received VA and Department of the Army construction contracts set aside for SDVOSB and VOSB, was
convicted of committing major frauds against the United States, witness tampering, false statements,
and mail fraud. An OIG, Small Business Administration (SBA) OIG, and Department of the Army CID
investigation revealed that the defendant falsely certiﬁed that his company qualiﬁed as an SDVOSB and
VOSB in order to obtain over $16 million in contracts fraudulently. During the investigation, the defendant

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           | 35
Issue 66 | April 1 — September 30, 2011
                                                                 Office of Investigations
made false statements to a Federal agent claiming that another person who had served in the military was
the majority owner of his company. VA’s Suspension and Debarment Committee subsequently debarred
the defendant and his company from doing business with the Federal government.

Company and Four Defendants Indicted for SDVOSB Fraud
A company and four defendants were indicted for conspiracy to defraud the Government, major program
fraud, wire fraud, money laundering, and false statements. Subsequently, the four defendants were
arrested and eight search and seizure warrants were executed. A joint VA OIG, SBA OIG, General
Services Administration OIG, and DCIS investigation determined that the SDVOSB acted as a pass-
through company for a larger company and that the owner of the SDVOSB was not a service-disabled
Veteran. Based on information provided by OIG, VA’s Suspension and Debarment Committee suspended
the company and the four defendants from doing business with the Federal government.

Subject Arrested for Sexual Assault at Perry Point, Maryland, VAMC
An AmeriCorps member, residing in leased housing at the Perry Point, MD, VAMC, was arrested after
being indicted on various charges related to committing a sexual assault. An OIG and State police
investigation revealed that the defendant sexually assaulted a female AmeriCorps member at her
residence, located on the grounds of the VAMC. The defendant remains in custody pending trial.

Former Accountant Sentenced for Embezzling over $1 Million from Non-Proﬁt VA Research and
Education Corporation
A former employee of the Louisiana Veterans Research and Education Corporation (LVREC) was
sentenced to 33 months’ incarceration, 3 years’ probation, and ordered to pay $1,009,605 in restitution
after pleading guilty to embezzlement of Federal program funds and mail fraud. The defendant also
consented to an asset forfeiture decree and surrendered approximately $650,000 in cash, vehicles, and
real estate to the Government. An OIG, DCIS, and Department of the Army CID investigation revealed
that for over 4 years the defendant, who was a bookkeeper and accountant with LVREC, embezzled
approximately $1,013,700 through Department of Defense grants given to the VA Gulf Coast HCS.
The LVREC is a domestic non-proﬁt organization employing VA research specialists and contractors
responsible for neurological research studies on Veterans before and after deployment to war zones. The
defendant issued payroll checks in the names of employees of the corporation, forged their signatures on
the endorsement line, and then cosigned the checks in order to deposit the funds to her own accounts. To
conceal the scheme, she also falsiﬁed the annual accountings of the corporate assets.

Physician Sentenced for Money Laundering, Defrauding VA and the Department of Health and
Human Services
A physician who owned a private medical clinic and treated Veterans and private patients was sentenced to
4 years’ probation, a $700,000 ﬁne, ordered to pay $297,215 in restitution, and is barred from engaging in
business with VA, the Department of Health and Human Services (HHS), and any other agency impacted
by his offense. The defendant, who was paid approximately $828,000 by VA, entered into a corporate plea
agreement and pled guilty to health care fraud and money laundering. An OIG and HHS OIG investigation
revealed that from May 2003 to December 2004, the defendant defrauded VA and HHS by submitting false
claims for services not rendered, falsely up-coding services, billing for false “incident to” services, and
double-billing. A civil suit is pending.




                                                                               VA O f f i c e o f I n s p e c t o r G e n e r a l
36 |
                                                                               Issue 66 | April 1 — September 30, 2011
Office of Investigations
Fee Basis Dentist Charged with Wire Fraud
A VA fee basis dentist was charged with wire fraud after an OIG and FBI investigation revealed that she
fraudulently billed VA for dental treatments on homeless Veterans that were never performed. The dental
treatments were offered to Veterans as part of the VA Palo Alto HCS’s Homeless Veteran Rehabilitation
Program (HVRP). Fifteen Veterans participating in the VA’s HVRP were authorized treatment from the
defendant, and 12 of the 15 Veterans never received any treatment. The investigation also revealed that
the defendant had a conscious sedation permit and was diverting controlled substances from her dental
practice to support her personal addiction. The loss to VA is $27,898.

Physician’s Assistant and Wife Arrested for Defrauding VA
A physician’s assistant and his wife were arrested for conspiracy to commit health care fraud, false claims,
and aiding and abetting after an OIG investigation revealed that the two defendants were fraudulently
conducting disability rating examinations of Veterans. The company’s contract with VA required that a
physician perform all disability rating examinations conducted at the clinic. However, the investigation
determined that the defendants conducted 337 of the 347 exams performed at the clinic between
September 2005 and August 2008 and forged the signature of the company’s medical director, who is a
physician, on all of the reports. The defendants then submitted the reports and claims to VA for payment.
The loss to VA is $154,219.

Former Pharmaceutical CEO Sentenced for Off-Label Marketing
The former CEO of a pharmaceutical company, previously convicted at trial of wire fraud, was sentenced
to 6 months’ home detention, 3 years’ probation, 200 hours’ community service, and a $20,000 ﬁne. A
multi-agency investigation revealed that under the direction of the defendant, who is also a medical doctor,
the company marketed and sold a drug as a treatment for idiopathic pulmonary ﬁbrosis (IPF), despite the
fact that it was not approved by the FDA. This investigation further revealed that the defendant and other
senior ofﬁcials were aware that a clinical trial involving the use of this drug to treat patients with IPF failed.
However, when the trial results were publicized, the defendant caused the issuance and distribution of
a false and misleading press release to portray that the trial established that patients lived longer using
this drug. The company previously agreed to pay the Government nearly $37 million to resolve criminal
charges and civil liability in connection with its illegal marketing and sales. VA’s portion of this civil
settlement was approximately $3.2 million.

Pharmaceutical Company Agrees to Pay $34.3 Million for Off-Label Marketing
A pharmaceutical company entered into a settlement agreement with the Government after an OIG, FBI,
and FDA investigation determined that the company promoted an antiepileptic drug to physicians for
several off-label indications, which included treatment for migraines, pain, anxiety, and bipolar disorder.
As a result of this agreement, the company pled guilty to a misdemeanor count of misbranding under the
Federal Food, Drug, and Cosmetic Act. This pharmaceutical company agreed to pay over $25.7 million to
settle civil liabilities associated with the investigation. VA’s portion of the civil settlement is approximately
$669,000. The company also agreed to pay a criminal ﬁne of $7.55 million and an asset forfeiture of
$1.078 million.

Pharmaceutical Company Enters into Settlement Agreement in Off-Label Marketing Scheme
A pharmaceutical company entered into a settlement agreement with the Government after an OIG
and HHS OIG investigation disclosed that two VA doctors received kickbacks from the pharmaceutical
company for off-label marketing of the company’s prescription medications. The investigation further
revealed that the pharmaceutical company had a national policy for paying substantial inducements to

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                              | 37
Issue 66 | April 1 — September 30, 2011
                                                                   Office of Investigations
encourage providers to prescribe their drugs instead of their competitors’. In a civil agreement reached
in December 2010, the pharmaceutical company agreed to pay over $41 million to settle civil and criminal
liabilities. The VA’s portion of the civil settlement is approximately $3.4 million dollars. The company also
agreed to pay a $3.36 million criminal ﬁne as a condition of the deferred prosecution agreement.

Contract Employee Arrested for Theft of Government Property
A contract employee working as the ﬁre safety director in Federal and private buildings, including a
VARO, was arrested for theft of Government property. A multi-agency investigation that included covert
surveillance equipment and undercover purchases revealed that the defendant used his access to the
buildings to enter various locked storage areas and unlawfully remove handcuffs, belly-chains, stab
resistant vests, and other property, which were subsequently sold for proﬁt. Additional Government
property, as well as what appeared to be stolen property from a private company, was discovered during
a search of the defendant’s residence. The actual loss to VA and other Federal agencies likely exceeds
$100,000; however, the exact monetary ﬁgure has yet to be determined.

Former Gainesville, Florida, Credit Union Teller Sentenced for Stealing VA Canteen Service
Deposits
A former teller for a Federal credit union located on the Gainesville, FL, VAMC campus was sentenced to
1 year of incarceration, 10 years’ probation, and ordered to pay restitution of $34,064 after pleading guilty
to grand theft for embezzling funds from the credit union, to include $20,197 in deposits from VA Canteen
Services. The teller confessed to stealing VA deposits and manipulating the credit union computer systems
to hide the loss.

Company Manager Sentenced for Perjury and Forgery
A regional accounts receivables manager of a company that provided nursing home services was
sentenced to 10 months’ incarceration after pleading guilty to perjury and forgery. The state judge ordered
the defendant to serve the sentence concurrently with an earlier sentence of 18 months’ incarceration. A
Federal and state investigation revealed that the defendant provided false documents concerning a resident
receiving nursing home care and lying about the matter in civil court.

Ambulance Service Company Enters into $2.7 Million Settlement Agreement with Government
An ambulance company that provided services to and received payment from various Federal programs
to include VA entered into a settlement agreement, agreeing to pay over $2.7 million in damages. The
settlement was the result of a VA OIG, HHS OIG, FBI, OPM OIG, and United States Postal Inspection
Service investigation that revealed the ambulance company engaged in questionable billing practices by
up-coding transactions to include billing for advanced life support transport when only a basic life support
transport occurred or transporting patients by ambulance when other forms of transportation were more
appropriate and less expensive. VA received $11,327 as a result of this investigation.

Defendants Arrested for Theft of Government Checks
A former USPS mail clerk and another defendant were arrested for theft and forgery. A multi-agency
investigation revealed that the defendants participated in a scheme to steal and negotiate stolen U.S.
Treasury and state revenue checks. A search of the mail clerk’s residence resulted in the recovery of
approximately 650 stolen U.S. Treasury checks. The clerk is believed to be the source for all of the stolen
checks in this case which has led to 15 arrests to date. The loss to VA is approximately $95,000 and the
total loss to the U.S. Government is approximately $590,000.


                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
38 |
                                                                                  Issue 66 | April 1 — September 30, 2011
Office of Investigations
Administrative Investigations
OIG’s Administrative Investigations Division independently reviews allegations and conducts administrative
investigations generally concerning high-ranking senior ofﬁcials and other high proﬁle matters of interest
to the Congress and the Department. During this reporting period, OIG opened 17 administrative
investigations, issued 1 report containing 1 recommendation for corrective action, and issued 4 advisory
memos with 6 suggestions for corrective action. The Division also issued 10 administrative memos
containing 19 allegations that OIG did not substantiate.

Investigation Substantiates Misuse of Over $130K in VHA Travel Funds
An administrative investigation substantiated that a VHA senior ofﬁcial was improperly assigned to a duty
station outside the Washington, DC, commuting area, requiring his frequent travel to Washington, DC, to
perform the responsibilities of his position. This resulted in the ofﬁcial, with the knowledge and approval of
his supervisor, misusing over $130,900 in travel funds for commuting to and from his personal residence to
Washington, DC, to avoid relocating.

Threats Made Against VA Employees
During this reporting period, OIG initiated nine criminal investigations resulting from threats made against
VA facilities and employees. Eight defendants were charged with making threats as a result of the
investigations. The following summaries provide representative samples of threats made against VA
facilities and employees:

• 	 A Veteran was sentenced to 10 months’ incarceration and 36 months’ supervised release after pleading
    guilty to making threats. An OIG and VA Police Service investigation revealed that the defendant left
    threatening voicemail messages at the White River Junction, VT, VAMC stating that he would blow
    up the place and use an AK-47 and MAC-10 to “go out in a blaze of glory.” During an interview, the
    defendant admitted to making the phone calls and provided a written statement that said, “If you take
    away my disability, I will go on a killing spree.” In 2009, the Veteran intimidated another VAMC by
    threatening to make an ammonium nitrate bomb.

• 	 A Veteran was sentenced to 99 days’ incarceration and 3 years’ supervised release after pleading guilty
    to threatening to murder a VA employee. An OIG and VA Police Service investigation determined that
    the Veteran made a telephonic threat to a VA employee in the patient advocate’s ofﬁce at the Seattle,
    WA, VAMC.

• 	 A Veteran was arrested and subsequently indicted after attempting to sexually assault a Phoenix,
    AZ, VAMC employee. An OIG investigation was initiated after VA Police Service responded to a call
    regarding a Veteran assaulting a VA social worker in her ofﬁce at the VAMC. The defendant is in
    custody pending a mental competency evaluation.

• 	 A Veteran, who is also a former VA employee, was indicted for transmitting an interstate e-mail
    communication that threatened to injure the director of the White River Junction, VT, VAMC. An OIG
    and VA Police Service investigation disclosed that the Veteran, whose employment was terminated in
    2008, submitted numerous harassing e-mails to VAMC personnel, including one that caused a 6-hour
    facility shutdown in anticipation of his arrival.



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 39
Issue 66 | April 1 — September 30, 2011
                                                                   Office of Investigations

• 	 A Veteran was indicted for assaulting a VA nurse at the White River Junction, VT, VAMC. An OIG
    and VA Police Service investigation revealed that, while in the emergency room, the defendant locked
    the door, took a scalpel from a hospital cart and physically gained control of the nurse by holding the
    scalpel to her throat. VA police ofﬁcers were able to subdue the Veteran, and the nurse sustained no
    injuries.

• 	 A Veteran was sentenced to 40 months’ incarceration and 3 years’ supervised release after being found
    guilty at trial of assaulting a Federal employee. The Veteran seriously injured two VA nurses during a
    visit to the Spokane, WA, VAMC ED.

Fugitive Felons Arrested with OIG Assistance
OIG continues to identify and apprehend Veterans and VA employees as a direct result of the OIG
Fugitive Felon Program. To date, 42.4 million felon warrants have been received from the National Crime
Information Center and participating states resulting in 58,849 investigative leads being referred to law
enforcement agencies. Over 2,198 fugitives have been apprehended as a direct result of these leads.
Since the inception of the OIG Fugitive Felon Program in 2002, OIG has identiﬁed $849.3 million in
estimated overpayments with an estimated cost avoidance of $972.5 million. During this reporting period,
OIG opened 41 investigations and made 30 fugitive felon arrests, with an additional 27 arrests made by
other law enforcement agencies. Six of these arrests were of VAMC employees at various medical centers
wanted on larceny, drug violations, failure to register as a sex offender, parole, and forgery. Apprehensions
included the following:

• 	 Local police, with the assist of OIG and VA Police Service, arrested an employee of the VA CBOC in
    Bradenton, FL. The employee was wanted on an outstanding felony warrant for trafﬁcking illegal drugs.

• 	 A Veteran was arrested by local ofﬁcers with the assistance of OIG. The fugitive was wanted on felony
    warrants for aggravated battery with a deadly weapon, assault with a deadly weapon, violation of
    probation, and other charges.

• 	 A Veteran was arrested at the Houston, TX, VAMC with the assistance of OIG on a felony warrant for
    failing to register as a sex offender. The fugitive was previously convicted of aggravated sexual assault
    on a child.

• 	 The OIG, working with a United States Marshals Fugitive Apprehension Strike Team, arrested a Veteran
    wanted for the sexual abuse of a child. The Veteran had previously been convicted of murder and
    manslaughter.

• 	 The U.S. Marshals Service, with the assistance of OIG, arrested a Veteran as he was being released
    from the Phoenix, AZ, VAMC. The Veteran was a known member of a white supremacist group and
    was wanted on a probation violation stemming from a Federal weapons conviction.




                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
40 |
                                                                                  Issue 66 | April 1 — September 30, 2011
Office of Management and Administration
The Ofﬁce of Management and Administration provides comprehensive support services that promote
organizational effectiveness and efﬁciency through reliable and timely management and administrative
support, and through products and services that promote the overall mission and goals of OIG.

Operations Division
The Operations Division conducts follow-up reporting and tracking of OIG report recommendations;
provides strategic, operational, and performance planning; prepares and publishes OIG-wide reports,
such as the Semiannual Report to Congress; develops OIG policies and procedures; and electronically
distributes all OIG oversight reports. The Operations Division also promotes organizational effectiveness
and efﬁciency by managing all OIG contracting and providing reliable, timely human resources
management, and related support services.

Information Technology and Data Analysis Division
IT staff promote organizational effectiveness and efﬁciency by ensuring the accessibility, usability, and
security of information assets; developing, maintaining, and enhancing the enterprise database application;
facilitating reliable, secure, responsive, and cost-effective access to VA databases and electronic mail by all
authorized employees; providing internet document management and control; and providing support to all
OIG components.

Data Analysis staff provide automated data processing technical support of OIG and other Federal and
governmental agencies requiring information from VA ﬁles. Data Analysis Division products facilitate the
identiﬁcation of fraud-related activities and support OIG comprehensive initiatives that result in solutions
beneﬁcial to VA.

Administrative and Financial Operations Division
The Administrative and Financial Operations Division promotes OIG organizational effectiveness and
efﬁciency by providing reliable and timely management and administrative support services such as
employee travel, credit card purchases, and property management.

Budget Division
The Budget Division promotes organizational effectiveness by providing a full complement of budgetary
formulation and execution services to management and organizational components, including formulation
of submissions and operating plans; monitoring allocations, expenditures, and reserves; conducting
ﬁnancial analyses; and developing internal budget policies.

Hotline Division
The Hotline Division is the focal point for contacts made to OIG, operating a toll-free telephone service
5 days a week, Monday through Friday, from 9:00 AM to 4:00 PM Eastern Time. Phone calls, letters,
and e-mails are received from employees, Veterans, the general public, Congress, the Government
Accountability Ofﬁce, and other Federal agencies reporting issues of criminal activity, waste, abuse, and
mismanagement. During this reporting period, the Hotline received 15,286 contacts, 628 of which became
OIG cases. The Hotline also closed 637 cases during this reporting period, substantiating allegations
40% percent of the time. The following cases were initiated as a direct result of Hotline contacts:


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 41
Issue 66 | April 1 — September 30, 2011
                              Office of Management and Administration
Supervisor Demoted at Indianapolis, IN, VAMC After Misrepresenting Himself as a Care Provider
A review conducted by the Indianapolis, IN, VAMC substantiated that a supervisor misrepresented himself
as a Licensed Practical Nurse and improperly administered intravenous solutions to approximately eight
patients. None of the patients were harmed. Management took appropriate administrative action as a
result of the review.

Review Finds Senior Ofﬁcial Misused Ofﬁcial Travel and Government Resources
In response to an anonymous call to the Hotline, a review initiated by the Veterans Canteen Service at
the St. Louis, MO, VAMC found that a senior ofﬁcial repeatedly misused ofﬁcial travel and Government
resources from January 2010 through June 2011 to conduct personal business. As a result, management
took appropriate administrative action.

Review Finds Attempt to Bypass Merit Promotion Policy at Independence, Ohio, VHA Service
Center
A review conducted at the VHA Service Center in Independence, OH, found that a senior ofﬁ cial placed
undue pressure on Human Resources Management staff to upgrade a position with the intent to promote
a subordinate without competition. The review recommended a classiﬁcation review by VA Central Ofﬁce
and that the Service Center announce the position in accordance with applicable merit promotion policy.

Philadelphia, Pennsylvania, VAMC Delinquent in Payments to University Afﬁliate Totaling $3 Million
A Philadelphia, PA, VAMC review found that the facility was delinquent in payments of more than $3 million
to its university afﬁliate and had expired service contracts. The facility took several actions to correct the
problems, including reassigning and training staff.

Deceased Veteran’s Pension Beneﬁt Terminated After Family Members’ Failure to Report Death
A review at the VARO in Manila, Philippines, determined that family members improperly received VA
pension beneﬁts for a deceased Veteran. The Veteran’s death, which occurred in 2008, was not reported
to the VARO. As a result of the Hotline referral, the VARO terminated the decedent’s beneﬁts, resulting in
cost savings of $73,770 over a 5-year period.

Widow’s Failure to Report Additional Income Results in Improper Receipt of Pension Beneﬁts
A review conducted by the Philadelphia, PA, VARO and Insurance Center determined that a surviving
spouse improperly received pension beneﬁts because she did not inform the VARO of her employment and
additional income. As a result, the beneﬁciary was assessed an overpayment of $70,548.

Widow’s Beneﬁts Terminated After Unreported Remarriage Discovered Via Social Media
A review conducted by the St. Petersburg, FL, VARO found that a surviving spouse improperly continued to
receive DIC beneﬁts after remarrying. A complainant reported the remarriage to the OIG Hotline based on
information posted to a social media website. The VARO subsequently terminated her beneﬁts, resulting in
a recovery of $36,683.




                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
42 |
                                                                                 Issue 66 | April 1 — September 30, 2011
Offices of Contract Review and Counselor to the
Inspector General
The OIG OCR operates under a reimbursable agreement with VA’s Ofﬁce of Acquisition, Logistics
and Construction (OALC) to provide preaward, postaward, and other requested reviews of vendors’
proposals and contracts. In addition, OCR provides advisory services to OALC contracting activities.
OCR completed 63 reviews in this reporting period. The tables that follow provide an overview of OCR
performance during this reporting period.

Preaward Reviews
Preaward reviews provide information to assist VA contracting ofﬁcers in negotiating fair and reasonable
contract prices and ensuring price reasonableness during the term of the contract. Preaward reviews
identiﬁed nearly $248 million in potential cost savings during this reporting period. In addition to FSS
proposals, preaward reviews during this reporting period included eight health care provider proposals—
accounting for over $10.2 million of the identiﬁed potential savings.


                                                     April 1–September 30, 2011        FY Total

     Preaward Reports Issued                                    48                         92
       Potential Cost Savings                              $247,789,339              $370,631,428



Postaward Reviews
Postaward reviews ensure vendors’ compliance with contract terms and conditions, including compliance
with the Veterans Health Care Act of 1992, P.L. 102-585, for pharmaceutical products. OCR reviews
resulted in VA recovering contract overcharges totaling over $2.1 million, including over $1.5 million related
to Veterans Health Care Act compliance with pricing requirements, recalculation of Federal ceiling prices,
and appropriate classiﬁcation of pharmaceutical products. Postaward reviews continue to play a critical
role in the success of VA’s voluntary disclosure process. Of the 15 postaward reviews performed,
7 involved voluntary disclosures. In two of the seven reviews, OCR identiﬁed additional funds due. OCR
recovered 100 percent of recommended recoveries for postaward contract reviews.


                                                     April 1–September 30, 2011        FY Total

    Postaward Reports Issued                                    15                         30
            Dollar Recoveries                               $2,143,678               $21,480,417


Recurring Contracting and Pricing Issues Persist in Health Care Resource Contracts
In August 2006, the VA Secretary signed into policy VA Directive 1663, Healthcare Resources Contracting
– Buying, Title 38 U.S.C. § 8153, under which VA may enter into non-competitive (sole-source) contracts
with afﬁliated institutions for health care resources. VA Directive 1663 requires a preaward review for
health care resources procured on a sole-source basis that are valued at more than $500,000. The report
advised VA of OIG’s collective ﬁndings in preaward reviews since VA Directive 1663 became effective.
OIG determined that VHA has not effectively implemented all the requirements set forth in VA Directive
1663 due to lack of resources, training, and enforcement, which resulted in recurring contracting and

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                           | 43
Issue 66 | April 1 — September 30, 2011
                     Offices of Contract Review and Counselor to the
                                                  Inspector General
pricing issues with sole-source contracts with afﬁliated institutions. OIG’s report also discusses ﬁndings
regarding conﬂict of interest issues and recommends that VA seek personal services contracting authority.
The Under Secretary for Health concurred with all OIG ﬁndings and recommendations.

Qui Tam Cases
Settlements in ﬁve civil cases brought under the qui tam provisions of the False Claims Act, resulted
in recoveries totaling $16,723,905. Three of the cases involved off-label marketing and anti-kickback
violations. Another case involved billing for services not provided by a home health care vendor, and the
ﬁfth case involved the failure to comply with contract warranty provisions. Total civil recoveries for VA in
FY 2011 were $34,171,823.




                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
44 |
                                                                                  Issue 66 | April 1 — September 30, 2011
Other Significant OIG Activities
Congressional Testimony
AIG for Audits and Evaluations Testiﬁes on VA’s Contract Management
Belinda Finn, AIG for Audits and Evaluations, testiﬁed before the Subcommittee on Oversight and
Investigations, Committee on Veterans’ Affairs, United States House of Representatives, on VA’s contract
management. Ms. Finn discussed the deﬁciencies of VA’s acquisition processes and infrastructure as well
as the impact these deﬁciencies have on VA operations. She stated that VA needs to exercise greater
organizational discipline over its primary management oversight tool, the eCMS, to ensure the transparency
needed to manage a multi-billion dollar acquisition program. Ms. Finn also recommended that VA continue
its efforts to integrate eCMS into existing and future ﬁnancial systems. Ms. Finn was accompanied by
Cherie Palmer, Director, Chicago Ofﬁce of Audits and Evaluations.

AIG for Healthcare Inspections Testiﬁes on Review of Infection Controls at the Dayton, Ohio, VA
Medical Center
John D. Daigh, Jr., M.D., AIG for Healthcare Inspections, testiﬁed at a ﬁeld hearing of the Committee on
Veterans’ Affairs, United States Senate, on OIG’s oversight review of VA’s handling of the infection control
breaches at the Dayton, OH, VAMC Dental Clinic. Dr. Daigh discussed the reviews conducted by VA after
learning of the allegations of improper infection control procedures at the Dental Clinic. He concluded that
established infection control practices and policies were not properly or consistently adhered to, that there
was evidence Dental Clinic staff and management were aware of these unacceptable practices, and that
deﬁnitive action was not taken until a VA Central Ofﬁce review body was at the Dayton VAMC conducting
a routine inspection. Dr. Daigh was accompanied by George Wesley, M.D., Director, Medical Consultation
and Medical Review Division, and Kathleen Shimoda, BNS, Healthcare Inspector, Los Angeles Ofﬁ ce of
Healthcare Inspections.

AIG for Healthcare Inspections Testiﬁes on Patient Safety Concerns at VHA Facilities
John D. Daigh, Jr., M.D., testiﬁed before the Committee on Veterans’ Affairs, United States House of
Representatives, on patient safety issues at VHA facilities. Dr. Daigh discussed several OIG reviews
of allegations that reusable medical equipment (RME) was not properly cleaned or sterilized and the
processes used to notify Veterans of improper sterilization. Dr. Daigh made recommendations related
to improving the notiﬁcation process based on the experiences in those medical centers where the RME
allegations were substantiated.

AIG for Audits and Evaluations Testiﬁes on VA’s Information Technology Program
Belinda J. Finn testiﬁed before the Subcommittee on Oversight and Investigations, Committee on Veterans’
Affairs, United States House of Representatives, on VA’s IT strategy for the 21st Century. Ms. Finn
discussed the results of OIG audits that continue to ﬁnd that VA struggles to manage IT development
projects that will deliver the desired results within cost, schedule, and performance objectives. Ms. Finn
was accompanied by Maureen Regan, Counselor to the Inspector General.

AIG for Audits and Evaluations Testiﬁes on VA’s Regional Ofﬁces Performance
Belinda J. Finn testiﬁed before the Subcommittee on Disability Assistance and Memorial Affairs,
Committee on Veterans’ Affairs, United States House of Representatives, on the performance of VAROs.
Ms. Finn discussed the results of OIG inspections and audits of the programs and operations of VBA,
speciﬁcally focusing on the results of inspections conducted at 16 individual VAROs from April 2009
through September 2010. Since September 2009, OIG has consistently reported the need for enhanced

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                          | 45
Issue 66 | April 1 — September 30, 2011
                                                Other Significant OIG Activities

policy guidance, oversight, workload management, training, and supervisory review to improve the
timeliness and accuracy of disability claims processing and VARO operations. Ms. Finn was accompanied
by Brent Arronte, Director, Bay Pines Beneﬁts Inspection Division.

Deputy AIG for Investigations Testiﬁes on Sexual Assaults and Safety Incidents at VA Facilities
Joseph G. Sullivan, Jr., Deputy AIG for Investigations, testiﬁed before the Subcommittee on Health,
Committee on Veterans’ Affairs, United States House of Representatives, on sexual assaults and safety
incidents at VA facilities. Mr. Sullivan discussed the role of the OIG investigating these incidents, how the
OIG interacts with the VA Police Service, and a recent report by the Government Accountability Ofﬁce
(GAO) on this subject. Under the Code of Federal Regulations, VA Police Service must report any alleged
felonies to the OIG. However, 33 percent of the incidents examined by the OIG for the GAO study were
not reported as required. Mr. Sullivan expressed his support for VA’s decision to generate automated
reminders to VA Police Service and notices to OIG ﬁeld ofﬁces, which are expected to reduce the number
of felonies not reported to the OIG.

AIG for Healthcare Inspections Testiﬁes on VA MH Care: Progress Made, But More Work Needs To
Be Done
John D. Daigh, Jr., M.D., testiﬁed before the Committee on Veterans’ Affairs, United States Senate, on
VA MH care. Dr. Daigh discussed the results of the OIG’s work in the area of MH, including reports on
system-wide reviews and reports on the care provided to individual Veterans. Speciﬁcally, he focused on
the importance of the coordination of care between primary care providers and MH care providers. He
also discussed the recent follow-up review of VA’s MH Residential Rehabilitation Treatment Programs
where OIG evaluated any improvements made or problems remaining since OIG’s 2009 report. Dr. Daigh
concluded that continued attention must be given to improving stafﬁng and access to care; providing
continuity during integral care transitions; coordinating care for individual Veterans with MH issues; and
linking pain management, MH, and substance use programs. Dr. Daigh was accompanied by Michael
Shepherd, M.D., Senior Physician, in OIG’s Ofﬁce of Healthcare Inspections.

Ineligible “Veteran-Owned” Firms Receive VA Contracts, AIG for Audits and Evaluations Tells
House Panel
Belinda J. Finn testiﬁed before the Subcommittee on Oversight and Investigations, Committee on Veterans’
Affairs, United States House of Representatives, on the OIG’s work related to VA’s VOSB and SDVOSB
programs. OIG’s recent report found that 76 percent of the businesses OIG reviewed were ineligible for the
program and/or the speciﬁc VOSB or SDVOSB contract award, potentially resulting in $2.5 billion awarded
to ineligible businesses over the next 5 years. Ms. Finn was accompanied by Mr. James J. O’Neill, AIG for
Investigations, whose ofﬁce’s work recently resulted in the successful prosecution of the CEO of a business
that had been awarded SDVOSB set-aside construction contracts for which the company was not eligible.

Special Recognition
OIG Employees Currently Serving on or Returning From Active Military Duty
Charles Cook, a Healthcare Inspector in the Bay Pines OHI, was deployed by the Army in June 2007 and
was stationed in Pinellas, Florida. In 2008, Charles brieﬂy served in Seoul, South Korea, and Atlanta, GA.
Charles returned from deployment on October 24, 2011.




                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
46 |
                                                                                 Issue 66 | April 1 — September 30, 2011
Other Significant OIG Activities

Ken Sardegna, an Auditor at OIG Headquarters, was deployed by the Army in June 2007 and is currently
stationed at Camp Lemonier, Djibouti. Ken also served at the Pentagon for 2 years between 2007—2009.

Randy Snow, Director, Washington, DC, OHI, was deployed by the Air Force in March 2011 and was
stationed in Afghanistan. Randy returned from deployment on October 1, 2011.

AIG for Management and Administration Received Presidential Rank Award
Richard Ehrlichman, AIG for Management and Administration, was the recipient of the Presidential Rank
Award of “Meritorious Executive” for outstanding leadership in the Senior Executive Service. Each
year, the President recognizes a select group of senior executives with demonstrated track records
of exceptional achievements throughout their careers. Richard was recognized for many noteworthy
accomplishments since his appointment as a senior executive in 1999, including the direction of one of the
premier Hotline operations in the IG community; modernization of the OIG’s IT program and establishment
of ﬁeld help desk support; and enhancements to the OIG report follow-up program. Over the last decade,
he led the formulation and execution of the OIG’s budget, which increased 350 percent during that time,
and oversaw the transition of our human resources and payroll programs from VA to the Bureau of Public
Debt and the National Finance Center.

Manchester, New Hampshire, Resident-Agent-In-Charge Receives Public Service Award
Donna Neves, Resident-Agent-In-Charge, was the recipient of the Department of Justice Public Service
Award for Law Enforcement Service for her “outstanding efforts and tireless pursuit of justice” in United
States ex. rel. Eckard v. GlaxoSmithKline, et al. and United States v. SB Pharmco Puerto Rico, Inc.

OHI Celebrates 20th Anniversary
On July 1, 2011, OHI celebrated its 20th anniversary. This unique medical oversight ofﬁce was established
on July 1, 1991, as a direct result of both Congress’ and the VA Secretary’s need for upgraded medical and
clinical oversight of VA’s medical care and quality assurance programs. In 1991, OHI had less than
10 staff, all located in Washington, D.C. Today, OHI conducts inspections covering the entire VA system,
with these healthcare inspections performed by more than 100 medical professionals located in 12 regional
ofﬁces spread across the country.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 47
Issue 66 | April 1 — September 30, 2011
                              Appendix A: List of OIG Reports Issued

                                                 Funds Recommended for Better
                                                               Use                          Questioned
      Report Title, Number, and Issue Date
                                                                  Agreed to by                Costs
                                                     by OIG
                                                                  Management
                                         AUDITS AND REVIEWS
Audit of the VHA’s Ofﬁce of Rural Health
                                                  $73,300,000      $73,300,000            $200,000,000
Report No. 10-02461-154, Issued 04/29/2011
Federal Information Security Management Act
Assessment for FY 2010
Report No. 10-01916-165, Issued 05/11/2011
Systemic Issues Reported During Inspections at
VA Regional Ofﬁ ces
Report No. 11-00510-167, Issued 05/18/2011
Audit of the Medical Care Collection Fund
Billings for Non-VA Care                          $552,000,000    $552,000,000
Report No. 10-02494-176, Issued 05/25/2011
Review of Cincinnati VA Medical Center
Beneﬁciary Travel Ofﬁ ce Allegations                                                             $3,500
Report No. 10-03292-217, Issued 07/06/2011
Audit of Veteran-Owned and Service Disabled
Veteran-Owned Small Business Programs                                                    $2,500,000,000
Report No. 10-02436-234, Issued 07/25/2011
Review of Alleged Unauthorized Access to VA
Systems
Report No. 10-03516-229, Issued 07/27/2011
Audit of VA’s Implementation of Executive Order
13520, “Reducing Improper Payments”
Report No. 10-2892-251, Issued 08/12/2011
Audit of the Project Management Accountability
System Implementation
Report No. 10-03162-262, Issued 08/29/2011
Audit of National Contract Awards at VA’s
National Acquisition Center
Report No. 10-01744-265, Issued 09/02/2011
VHA’s Safety, Security, and Privacy for Female
Veterans at a Chicago, IL, Homeless Grant
Provider Facility
Report No. 11-00334-267, Issued 09/06/2011
Audit of Compensation Program Claims
Brokering
Report No. 09-03154-271, Issued 09/27/2011
Follow-Up Audit of VHA’s Part-Time Physician
Time and Attendance
Report No. 11-00308-294, Issued 09/30/2011

                                                                       VA O f f i c e o f I n s p e c t o r G e n e r a l
48 |
                                                                       Issue 66 | April 1 — September 30, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Audit of VA’s Enrollment Centers’ Implementation
 of Personal Identity Veriﬁcation Requirements
 Report No. 10-04037-295, Issued 09/30/2011
 Audit of VHA’s Workers’ Compensation Case
 Management                                        $264,000,000     $264,000,000    $70,100,000
 Report No. 10-03850-298, Issued 09/30/2011
                                         BENEFITS INSPECTIONS
 Salt Lake City, Utah, VA Regional Ofﬁce
 Report No. 10-03880-142, Issued 04/13/2011
 Des Moines, Iowa, VA Regional Ofﬁce
 Report No. 11-00511-164, Issued 05/11/2011
 St. Louis, Missouri, VA Regional Ofﬁce
 Report No. 11-00519-172, Issued 05/20/2011
 Louisville, Kentucky, VA Regional Ofﬁce
 Report No. 11-00520-174, Issued 05/24/2011
 Atlanta, Georgia, VA Regional Ofﬁce
 Report No. 11-00512-179, Issued 05/27/2011
 Chicago, Illinois, VA Regional Ofﬁce
 Report No. 11-00521-183, Issued 06/02/2011
 New Orleans, Louisiana, VA Regional Ofﬁce
 Report No. 11-00238-184, Issued 06/06/2011
 Reno, Nevada, VA Regional Ofﬁce
 Report No. 11-00517-204, Issued 06/24/2011
 Huntington, West Virginia, VA Regional Ofﬁce
 Report No. 11-00522-231, Issued 07/20/2011
 New York, New York, VA Regional Ofﬁce
 Report No. 11-00516-240, Issued 07/28/2011
 Columbia, South Carolina, VA Regional Ofﬁce
 Report No. 11-00236-257, Issued 08/24/2011
 Buffalo, New York, VA Regional Ofﬁce
 Report No. 11-00523-258, Issued 08/25/2011
 Hartford, Connecticut, VA Regional Ofﬁce
 Report No. 11-00514-264, Issued 09/07/2011
 Seattle, Washington, VA Regional Ofﬁce
 Report No. 11-00515-266, Issued 09/08/2011
                                             JOINT REVIEW
 Review of Healthcare Services and Beneﬁts for
 Resident U.S. Virgin Islands Veterans
 Report No. 10-03882-151, Issued 05/05/2011

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                              | 49

Issue 66 | April 1 — September 30, 2011
                             Appendix A: List of OIG Reports Issued

                                               Funds Recommended for Better
                                                          Use                            Questioned
      Report Title, Number, and Issue Date
                                                             Agreed to by                  Costs
                                                  by OIG
                                                             Management
                           COMBINED ASSESSMENT PROGRAM REVIEWS
VA Palo Alto Health Care System, Palo Alto,
California
Report No. 11-00028-140, Issued 04/04/2011
VA Caribbean Healthcare System, San Juan,
Puerto Rico
Report No. 11-00025-144, Issued 04/14/2011
VA Northern Indiana Health Care System,
Marion, Indiana
Report No. 11-00026-146, Issued 04/19/2011
Wilmington VA Medical Center, Wilmington,
Delaware
Report No. 11-00024-152, Issue 04/27/2011
Tennessee Valley Healthcare System, Nashville,
Tennessee
Report No. 11-00030-160, Issued 05/05/2011
Kansas City VA Medical Center, Kansas City,
Missouri
Report No. 11-00027-162, Issued 05/9/2011
Durham VA Medical Center, Durham, North
Carolina
Report No. 11-00035-191, Issued 06/10/2011
Oklahoma City VA Medical Center, Oklahoma
City, Oklahoma
Report No. 11-00031-197, Issued 06/10/2011
Northampton VA Medical Center, Leeds,
Massachusetts
Report No. 11-00029-193, Issued 06/13/2011
Chalmers P. Wylie VA Ambulatory Care Center,
Columbus, Ohio
Report No. 11-01101-196, Issued 06/16/2011
VA Northern California Health Care System,
Sacramento, California
Report No. 11-01106-207, Issued 06/30/2011
VA Southern Oregon Rehabilitation Center and
Clinics, White City, Oregon
Report No. 11-00032-213, Issued 07/07/2011
Cheyenne VA Medical Center, Cheyenne,
Wyoming
Report No. 11-01297-222, Issued 07/12/2011

                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
50 |
                                                                    Issue 66 | April 1 — September 30, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Birmingham VA Medical Center, Birmingham,
 Alabama
 Report No. 11-01295-232, Issued 07/21/2011
 Central Arkansas Veterans Healthcare System,
 Little Rock, Arkansas
 Report No. 11-01296-235, Issued 08/02/2011
 VA Pittsburgh Healthcare System, Pittsburgh,
 Pennsylvania
 Report No. 11-01107-243, Issued 08/02/2011
 VA Maine Healthcare System, Augusta, Maine
 Report No. 11-01294-244, Issued 08/03/2011
 Miami VA Healthcare System, Miami, Florida
 Report No. 11-01099-247, Issued 08/11/2011
 Battle Creek VA Medical Center, Battle Creek,
 Michigan
 Report No. 11-01104-252, Issued 08/15/2011
 Jesse Brown VA Medical Center Chicago, Illinois
 Report No. 11-01611-250, Issued 08/16/2011
 Wilkes-Barre VA Medical Center, Wilkes-Barre,
 Pennsylvania
 Report No. 11-01298-268, Issued 09/01/2011
 G.V. (Sonny) Montgomery VA Medical Center,
 Jackson, Mississippi
 Report No. 11-01608-273, Issued 09/08/2011
 St. Louis VA Medical Center St. Louis, Missouri
 Report No. 11-01606-277, Issued 09/13/2011
 Minneapolis VA Health Care System
 Minneapolis, Minnesota
 Report No. 11-01610-278, Issued 09/13/2011
 Lebanon VA Medical Center Lebanon,
 Pennsylvania
 Report No. 11-01605-279, Issued 09/14/2011
 White River Junction VA Medical Center White
 River Junction, Vermont
 Report No. 11-02077-282, Issued 09/15/2011
 Alaska VA Healthcare System, Anchorage,
 Alaska
 Report No. 11-02080-286, Issued 09/21/2011



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 51
Issue 66 | April 1 — September 30, 2011
                                 Appendix A: List of OIG Reports Issued

                                              Funds Recommended for Better
                                                         Use                             Questioned
       Report Title, Number, and Issue Date
                                                            Agreed to by                   Costs
                                                 by OIG
                                                            Management
West Texas VA Health Care System, Big Spring,
Texas
Report No. 11-02079-287, Issued 09/21/2011
Lexington VA Medical Center, Lexington,
Kentucky
Report No. 11-02078-290, Issued 09/27/2011
                         COMMUNITY BASED OUTPATIENT CLINIC REVIEWS
Georgetown, DE, and Ventnor, NJ; Guayama
and Ponce, PR; Goshen, IN; Belton and Nevada,
MO; Capitola and French (Stockton), CA
Report No. 11-00843-169, Issued 05/17/2011
Springﬁeld, MA; Morehead City and Raleigh, NC;
Clarksville and Cookeville, TN; Wichita Falls, TX;
Klamath Falls, OR
Report No. 11-00844-220, Issued 07/06/2011
Branson, MO, and Harrison, AR; Conroe and
Lufkin, TX; Hammond and Houma, LA
Report No. 11-01406-228, Issued 07/18/2011
Bradford (McKean County) and Franklin
(Venango County), PA; Camp Hill and Pottsville/
Frackville, PA; Mission, SD, and Newcastle, WY;
Hibbing and Rochester, MN
Report No. 11-01406-238, Issued 07/29/2011
San Antonio (North Central Federal Clinic) and
Uvalde, TX; Tyler, TX; Alamogordo and Artesia,
NM; Bellemont and Kingman, AZ
Report No. 11-01406-288, Issued 09/26/2011
                           NATIONAL HEALTHCARE INSPECTION REPORTS
Post Traumatic Stress Disorder Counseling
Services at Vet Centers
Report No. 10-00628-170, Issued 05/17/2011
Community Based Outpatient Clinic Cyclical
Reports FY 2011
Report No. 11-01406-177, Issued 05/31/2011
Evaluation of Community Based Outpatient
Clinics Fiscal Year 2010
Report No. 11-00794-185, Issued 06/07/2011
A Follow-Up Review of VHA Mental Health
Residential Rehabilitation Treatment Programs
(MH RRTP)
Report No. 10-04085-203, Issued 06/22/2011
                                                                    VA O f f i c e o f I n s p e c t o r G e n e r a l
52 |
                                                                    Issue 66 | April 1 — September 30, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Review of Facility Capabilities Where Veterans
 Received Complex Surgical Care
 Report No. 10-02302-225, Issued 07/14/2011
 Combined Assessment Program Summary
 Report Management of Test Results in Veterans
 Health Administration Facilities
 Report No. 11-02869-272, Issued 09/07/2011
 Combined Assessment Program Summary
 Report – Evaluation of Infection Prevention
 Practices in Veterans Health Administration
 Facilities
 Report No. 11-03361-274, Issued 09/13/2011
 Informational Report – Community Based
 Outpatient Clinic Cyclical Reports Fiscal Year
 2012
 Report No. 11-03653-283, Issued 09/20/2011
                                  HOTLINE HEALTHCARE INSPECTIONS
 Self-Administered Rescue Medications,
 Specialized Inpatient Stress Disorders Unit, VA
 Eastern Kansas Health Care System, Topeka,
 Kansas
 Report No. 11-00184-147, Issued 04/20/2011
 Oversight Review of Dental Clinic Issues, Dayton
 VA Medical Center, Dayton, Ohio
 Report No. 10-03330-148, Issued 04/25/2011
 Evaluation of Patient Prostate Care, Tennessee
 Valley Healthcare System, Nashville, Tennessee
 Report No. 11-00181-153, 04/28/2011
 Alleged Delay in Diagnosis and Communication
 Issues, Chattanooga Community Based
 Outpatient Clinic, Tennessee Valley Healthcare
 System, Nashville, Tennessee
 Report No. 11-00599-186, Issued 06/08/2011
 Contract Community Based Outpatient Clinic
 Issues New Mexico VA Health Care System,
 Albuquerque, New Mexico
 Report No. 11-00588-189, Issued 06/08/2011
 Post-Operative Paralysis, Overton Brooks VA
 Medical Center, Shreveport, Louisiana
 Report No. 10-03462-190, Issued 06/08/2011


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 53

Issue 66 | April 1 — September 30, 2011
                                 Appendix A: List of OIG Reports Issued

                                                 Funds Recommended for Better
                                                            Use                             Questioned
       Report Title, Number, and Issue Date
                                                               Agreed to by                   Costs
                                                    by OIG
                                                               Management
Prescribing Practices in the Pain Management
Clinic, John D. Dingell VA Medical Center,
Detroit, Michigan
Report No. 11-00057-195, Issued 06/15/2011
Quality of Care in the Intensive Care Unit, VA
Northern Indiana Health Care System, Fort
Wayne, Indiana
Report No. 10-02816-200, Issued 06/20/2011
Provider Privileging and Delayed Patient Care,
VA Connecticut Healthcare System, West Haven,
Connecticut
Report No. 11-01733-208, Issued 06/28/2011
Alleged Patient Abuse and Inadequate
Community Nursing Home Program Oversight,
Oklahoma City VA Medical Center, Oklahoma
City, Oklahoma
Report No. 11-01829-209, Issued 06/28/2011
Delays in Cancer Care, West Palm Beach VA
Medical Center, West Palm Beach, Florida
Report No. 11-00930-210, Issued 06/29/2011
Prosthetic and Sensory Aids Service Records
Review, Durham VA Medical Center, Durham,
North Carolina
Report No. 11-01416-212, Issued 07/07/2011
Alleged Pain Management Deﬁ ciencies, VA
Maryland Health Care System, Baltimore,
Maryland
Report No. 11-00904-216, Issued 07/08/2011
Electronic Waiting List Management for Mental
Health Clinics, Atlanta VA Medical Center,
Atlanta, Georgia
Report No. 10-02986-215, Issued 07/12/2011
Case Review of a Patient with End-Stage
Cancer, John D. Dingell VA Medical Center,
Detroit, Michigan
Report No. 11-01194-224, Issued 07/13/2011
Attempted Suicide During Treatment West Palm
Beach VA Medical Center, West Palm Beach,
Florida
Report No. 11-01052-233, Issued 07/25/2011


                                                                       VA O f f i c e o f I n s p e c t o r G e n e r a l
54 |
                                                                       Issue 66 | April 1 — September 30, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Alleged Improper Care and Prescribing Practices
 for a Veteran, Tyler VA Primary Care Clinic, Tyler,
 Texas
 Report No. 11-01996-253, Issued 08/19/2011
 Clinical and Administrative Issues in the Suicide
 Prevention Program, Alexandria VA Medical
 Center, Pineville, Louisiana
 Report No. 11-02325-263, Issued 08/30/2011
 Quality of Care Issues, VA Nebraska–Western
 Iowa Health Care System, Omaha, Nebraska,
 And VA Central Iowa Health Care System, Des
 Moines, Iowa
 Report No. 11-02275-269, Issued 09/06/2011
 Surgeon Privileging and Resident Supervision
 Issues, W.G. (Bill) Hefner VA Medical Center,
 Salisbury, North Carolina
 Report No. 11-01993-281, Issued 09/16/2011
 Management of Patient Abuse Cases, Charlie
 Norwood VA Medical Center, Augusta, Georgia
 Report No. 11-01997-289, Issued 09/21/2011
 Alleged Patient Neglect and Abuse, VA Central
 California Health Care System, Fresno, California
 Report No. 11-01184-293, Issued 09/28/2011
 Quality of Care Provided at Corpus Christi
 Community Based Outpatient Clinic, VA Texas
 Valley Coastal Bend Health Care System,
 Harlingen, Texas
 Report No. 11-02548-291, Issued 09/29/2011
 Alleged Quality of Care Issues, Captain James
 A. Lovell Federal Health Care Center, North
 Chicago, Illinois
 Report No. 11-00768-292, Issued 09/29/2011
 Review of a Patient with Pulmonary Embolism,
 Oklahoma City VA Medical Center, Oklahoma
 City, Oklahoma
 Report No. 11-02385-300, Issued 09/30/2011
                                    ADMINISTRATIVE INVESTIGATION
 Improper Duty Station and Misuse of Travel
 Funds, VHA, VA Central Ofﬁce Washington, DC
 Report No. 10-02328-192, Issued 06/10/2011


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 55

Issue 66 | April 1 — September 30, 2011
                             Appendix A: List of OIG Reports Issued

                                                Funds Recommended for Better
                                                             Use                          Questioned
     Report Title, Number, and Issue Date
                                                                Agreed to by                Costs
                                                    by OIG
                                                                Management
                                      PREAWARD REVIEWS
Review of a Contract Extension Proposal Under
a FSS Contract
Report No. 11-00859-143, Issued 04/12/2011
Review of Proposal Submitted Under Solicitation
No. VA-260-11-RQ-0031                             $1,241,638
Report No. 11-01768-145, Issued 04/14/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R2                   $37,821,620
Report No. 11-01777-150, Issued 04/20/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R1
Report No. 11-01514-155, Issued 04/28/2011
Review of Proposal Submitted Under Solicitation
No. RFP-797-652F-05-0001-R2                       $1,274,654
Report No. 11-01618-158, Issued 04/29/2011
Review of Proposal Submitted Under Solicitation
No. VA-101-11-RP-0017                              $163,389
Report No. 11-01687-159, Issued 05/02/2011
Review of Proposal Submitted Under Solicitation
No. VA-260-11-RP-0357                               $83,815
Report No. 11-02019-156, Issued 05/05/2011
Review of Proposal Submitted Under Solicitation
No. VA-101-10-RP-0063
Report No. 11-01860-163, Issued 05/05/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R2
Report No. 11-01685-166, Issued 05/09/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R2
Report No. 11-02024-168, Issued 05/11/2011
Review of Proposal Submitted Under Solicitation
No. VA-101-10-RP-0064
Report No. 11-01861-173, Issued 05/20/2011
Review of Proposal Submitted Under Solicitation
No. VA-260-11-RP-0364                             $1,759,464
Report No. 11-02556-175, Issued 05/24/2011
Review of FSS Proposal Submitted Under
Solicitation No. RFP-797-FSS-99-025-R6           $13,525,617
Report No. 11-02091-178, Issued 05/25/2011

                                                                     VA O f f i c e o f I n s p e c t o r G e n e r a l
56 |
                                                                     Issue 66 | April 1 — September 30, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Review of Proposal Submitted Under Solicitation
 No. VA-101-10-PR-0064
 Report No. 11-01935-180, Issued 05/27/2011
 Review of Proposal Submitted Under Solicitation
 No. VA-101-10-RP-0064
 Report No. 11-01934-181, Issued 05/27/2011
 Review of Proposal Submitted Under Solicitation
 No. VA-243-10-RP-0459                                $1,023,780
 Report No. 11-02053-171, Issued 06/02/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R4
 Report No. 11-02036-182, Issued 06/03/2011
 Review of Proposal Submitted Under Solicitation
 No. VA-101-10-RP-0064
 Report No. 11-01948-187, Issued 06/03/2011
 Review of Proposal Submitted Under Solicitation
 No. VA-248-10-RP-0557                                $1,463,230
 Report No. 11-02768-194, Issued 06/13/2011
 Review of Proposal Submitted Under Solicitation
 No. VA-101-10-RP-0064
 Report No. 11-03238-198, Issued 06/13/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R4
 Report No. 11-01746-188, Issued 06/14/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q52A-04-R2                        $749,259
 Report No. 11-01928-201, Issued 06/14/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R2
 Report No, 11-01776-199, Issued 06/15/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R4                       $9,918,258
 Report No. 11-01904-206, Issued 06/24/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R2
 Report No. 11-02037-214, Issued 06/30/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R1                       $44,910,791
 Report No. 11-01775-219, Issued 07/07/2011



VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                             | 57
Issue 66 | April 1 — September 30, 2011
                                 Appendix A: List of OIG Reports Issued

                                                  Funds Recommended for Better
                                                             Use                             Questioned
       Report Title, Number, and Issue Date
                                                                Agreed to by                   Costs
                                                     by OIG
                                                                Management
Review of FSS Proposal Submitted Under
Solicitation No. 797-FSS-99-0025-R6                $9,120,550
Report No. 11-01690-221, Issued 07/07/2011
Review of Product Additions Submitted Under a
FSS Contract
Report No. 11-02394-223, Issued 07/07/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R2
Report No. 11-02035-230, Issued 07/14/2011
Review of Proposal Submitted Under Solicitation
No. RFP-797-FSS-99-0025-R6                         $7,111,019
Report No. 11-01903-218, Issued 07/19/2011
Review of Proposal Submitted Under Solicitation
No. 797-FSS-99-0025-R6                             $5,671,400
Report No. 11-02379-236, Issued 07/22/2011
Review of Contract Extension Proposal
Submitted Under a FSS Contract
Report No. 11-02395-239, Issued 07/26/2011
Review of Proposal Submitted Under Solicitation
No. VA-243-10-RP-0484                              $2,185,214
Report No. 11-02624-237, Issued 07/27/2011
Review of Contract Extension Proposal
Submitted Under a FSS Contract                     $43,069,339
Report No. 11-01930-246, Issued 08/03/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R2                     $2,263,120
Report No. 11-02025-245, Issued 08/04/2011
Supplement to Review of Proposal Submitted
Under Solicitation No. VA-101-10-RP-0064
Report No. 11-03238-254, Issued 08/18/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R2
Report No. 11-02028-255, Issued 08/19/2011
Review of Proposal Submitted Under Solicitation
No. VA-248-10-RP-0314                              $2,025,360
Report No. 11-03642-248, Issued 08/22/2011
Review of FSS Proposal Submitted Under
Solicitation No. M5-Q50A-03-R4
Report No. 11-02934-260, Issued 08/22/2011



                                                                        VA O f f i c e o f I n s p e c t o r G e n e r a l
58 |
                                                                        Issue 66 | April 1 — September 30, 2011
Appendix A: List of OIG Reports Issued

                                                     Funds Recommended for Better
                                                                Use                 Questioned
    Report Title, Number, and Issue Date                                              Costs
                                                                   Agreed to by
                                                        by OIG
                                                                   Management
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R2
 Report No. 11-02205-261, Issued 08/24/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-R4                     $50,715,501
 Report No. 11-02286-259, Issued 08/25/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q52A-04-R2                  $8,346,189
 Report No. 11-03193-270, Issued 08/31/2011
 Review of Contract Extension Proposal
 Submitted Under a FSS Contract                  $1,264,982
 Report No. 11-02283-275, Issued 09/07/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R2
 Report No. 11-03397-280, Issued 09/13/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. RFP-797-FSS-99-0025-R6           $4,900
 Report No. 11-03615-284, Issued 09/14/2011
 Review of Proposal Submitted Under Solicitation
 No. VA-69D-11-RP-0100                            $423,799
 Report No. 11-03383-276, Issued 09/20/2011
 Review of FSS Proposal Submitted Under
 Solicitation No. M5-Q50A-03-R4
 Report No. 11-03221-297, Issued 09/27/2011
 Review of Proposal Submitted Under Solicitation
 No. RFP-797-FSS-99-0025-R7
 Report No. 11-04079-299, Issued 09/28/2011
                                        POSTAWARD REVIEWS
 Review of Overcharges Under a FSS Contract
                                                                                     $221,519
 Report No. 10-00298-141, Issued 04/07/2011
 Review of Voluntary Disclosure Under a FSS
 Contract                                                                           $1,111,040
 Report No. 09-02290-149, Issued 04/21/2011
 Review of Certiﬁed Claim Submitted Under a
 Contract                                                                            $271,273
 Report No. 11-01327-157, Issued 04/29/2011
 Review of Violations of the Trade Agreements
 Act Under Multiple Department of Defense and
 Department of Veterans Affairs Contracts
 Report No. 09-02157-161, Issued 05/04/2011

VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                 | 59

Issue 66 | April 1 — September 30, 2011
                                 Appendix A: List of OIG Reports Issued

                                                  Funds Recommended for Better
                                                             Use                             Questioned
       Report Title, Number, and Issue Date
                                                                Agreed to by                   Costs
                                                     by OIG
                                                                Management
Postaward Review of a FSS Contract
                                                                                               $149,986
Report No. 09-02428-202, Issued 06/14/2011
Review of Voluntary Disclosure Submitted Under
a FSS Contract                                                                                  $57,686
Report No. 09-03111-205, Issued 06/22/2011
Review of a Self Audit Under a FSS Contract
                                                                                                  $6,395
Report No. 11-01619-211, Issued 06/28/2011
Review of Voluntary Disclosure and Refund Offer
Submitted Under a FSS Contract                                                                  $37,286
Report No. 09-01855-226, Issued 07/12/2011
Review of VHA Sole-Source Contracts with
Afﬁliated Institutions
Report No. 09-00981-227, Issued 07/21/2011
Review of a Self Audit Under a FSS Contract
Number                                                                                          $76,674
Report No. 09-03109-241, Issued 07/27/2011
Review of Voluntary Disclosures Under a FSS
Contract                                                                                        $21,813
Report No. 08-02442-242, Issued 07/28/2011
Review of Voluntary Disclosure and Refund Offer
Under a FSS Contract                                                                           $105,131
Report No. 10-03376-249, Issued 08/17/2011
Review of a Self Audit Under a FSS Contract
                                                                                                $69,492
Report No. 10-02212-256, Issued 08/22/2011
Review of Settlement Proposal Submitted Under
a VA Contract                                      $1,652,451
Report No. 11-03024-285, Issued 09/16/2011
Review of Voluntary Disclosure for Public Law
Damages Under a FSS Contract                                                                    $15,383
Report No. 11-02174-296, Issued 09/26/2011
Total Funds Recommended for Better Use            $899,300,000   $899,300,000                    -
Total Questioned Costs                                  -              -                  $2,770,103,500
Total Preaward Savings and Cost Avoidance         $247,789,339         -                         -
Total Postaward Dollar Recoveries                       -              -                    $2,143,678




                                                                        VA O f f i c e o f I n s p e c t o r G e n e r a l
60 |
                                                                        Issue 66 | April 1 — September 30, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
The Federal Acquisition Streamlining Act of 1994, P.L. 103-355, requires Federal agencies to complete
ﬁnal action on each OIG report recommendation within 1 year after the report is ﬁnalized. OIG is required
to identify unimplemented recommendations in its Semiannual Report to Congress until the ﬁnal action
is completed. Table 1 summarizes the status of all unimplemented OIG reports and recommendations.
Results are sorted by the action ofﬁce responsible for implementation. Additionally, Table 2 indicates how
many of these unimplemented OIG reports and recommendations are less than or more than 1 year.

As of September 30, 2011, there are 155 open reports and 846 open recommendations. Thirty-ﬁve of
these reports and 76 of these recommendations remain unimplemented for over 1 year. However, some
reports and recommendations are counted more than once in Table 1 below because they have actions
at more than one ofﬁce. Of the reports open less than 1 year, ﬁve reports have actions at two or more
ofﬁces. Of the reports open more than 1 year, one report and ﬁve recommendations have actions at two
or more ofﬁces. Although the FY 2010 FISMA audit contains unimplemented OIG recommendations from
previous years’ FISMA audits, the report and its recommendations are considered to be open less than
1 year because it was issued after September 30, 2010.


                               Table 1: Total Unimplemented OIG Reports and Recommendations




                                                                                                Total Reports Open
                                                                            Reports Open More




                                                                                                                                                         Recommendations
                                                        Reports Open Less




                                                                                                                                       Recommendations
                                                                                                                     Recommendations




                                                                                                                                        Open More Than
                                                                                                                      Open Less Than
                                                           Than 1 Year



                                                                               Than 1 Year




                                                                                                                          1 Year



                                                                                                                                            1 Year



                                                                                                                                                              Open
                                                                                                                                                              Total
       Veterans Health Administration                       96                  19              115                      627                32              659
      Veterans Beneﬁts Administration                       19                  3               22                       80                  7               87
      National Cemetery Administration                      0                   1                1                         0                 2                2
     Ofﬁce of Information & Technology                      5                   9               14                        52                22               74
     Ofﬁce of Operations, Security, and
                                                              1                   1                 2                      0                10                10
                Preparedness
    Ofﬁce of Acquisitions, Logistics, and
                                                              2                   3                 5                      4                 8                12
                 Construction
      Ofﬁce of Human Resources and
                                                              1                   0                 1                      4                 0                 4
                Administration
 Ofﬁce of Small and Disadvantaged Business
                                                              1                   0                 1                      3                 0                 3
                  Utilization
                    Total                                 125                   36              161                      770                81               851




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                                                                   | 61
Issue 66 | April 1 — September 30, 2011
                      Appendix B: Status of OIG Reports Unimplemented
                                                        for Over 1 Year
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                                  Responsible Number of Open   Monetary
     Report Title, Number, and Issue Date
                                                  Organization Recommendations  Impact
Review of Issues Related to the Loss of VA
Information Involving the Identity of Millions of
                                                     OI&T           1 of 6        -
Veterans
Report No. 06-02238-163, Issued 07/11/2006

Recommendation d: We recommend that the Secretary ensure that all position descriptions are evaluated and have proper
sensitivity level designations, that there is consistency nationwide for positions that are similar in nature or have similar
access to VA protected information and automated systems, and that all required background checks are completed in a
timely manner.

Healthcare Inspection, Review of VA Use of
Animals in Research Activities                                      VHA                   4 of 6                               -
Report No. 07-01148-109, Issued 04/15/2009

Recommendation 1: We recommended that the Under Secretary for Health work with all VA animal research programs to
require university afﬁliates’ compliance with the requirements of VHA Handbook 1200.7.

Recommendation 2: We recommended that the Under Secretary for Health ensure that all VA animal research programs
have an active occupational health program.

Recommendation 4: We recommended that the Under Secretary for Health ensure that the VHA work orders submitted for
repairs to ARFs [Animal Research Facilities] are completed in a timely fashion.

Recommendation 6: We recommended that the Under Secretary for Health deﬁne minimum qualiﬁcation standards for
VMOs [Veterinary Medical Ofﬁcers] and VMCs [Veterinary Medical Consultants] performing duties described in VHA
Handbook 1200.7.

Audit of VA’s Management of Information
Technology Capital Investments                                      OI&T                  1 of 5                               -
Report No. 08-02679-134, Issued 05/29/2009

Recommendation 4: We recommend that the Acting Assistant Secretary for Information and Technology clearly deﬁne the
roles of the IT governance boards responsible for providing oversight and management of VA’s IT capital investments.

Audit of VA Electronic Contract Management
System                                                             OALC                   2 of 8                               -
Report No. 08-00921-181, Issued 07/30/2009

Recommendation 1: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction develop and
implement VA-wide eCMS policy and handbook to ensure consistent use and compliance with system requirements.

Recommendation 7: We recommend the Executive Director, Ofﬁce of Acquisition, Logistics, and Construction coordinate
with the Assistant Secretary for Management and the Assistant Secretary for Information and Technology to determine the
feasibility of integrating eCMS with the IFCAP or FMS systems in order to eliminate or minimize duplicate data entry and
streamline the procurement process.


                                                                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
62 |
                                                                                              Issue 66 | April 1 — September 30, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
      Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact
 Administrative Investigation, Misuse of
 Position, Abuse of Authority, and Prohibited
 Personnel Practices, Ofﬁce of Information &      OI&T          1 of 11            -
 Technology, Washington, DC
 Report No. 09-01123-195, Issued 08/18/2009

 Recommendation 5: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
 of Human Resources to determine the appropriate corrective action concerning _______’s appointment, to include her
 appointment at a rate above the minimum, and take such corrective action.

 Administrative Investigation, Nepotism, Abuse
 of Authority, Misuse of Position, Improper
 Hiring, and Improperly Administered Awards,                        OI&T                 8 of 34                   -
 OI&T, Washington, DC*
 Report No. 09-01123-196, Issued 08/18/2009

 Recommendation 6: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
 HR to determine the appropriate corrective action concerning _______’s appointment, to include her appointment at a rate
 above the minimum, and take such action.


 Recommendation 10: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
 HR to determine the appropriate corrective action concerning _______’s improper VA appointment, and take such action.


 Recommendation 13: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
 of HR to determine the appropriate corrective action concerning _______’s improper VA appointment, to include her
 appointment at a rate above the minimum, and take such action.

 Recommendation 26: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
 of HR to determine the appropriate corrective action concerning the improper FCIP appointments, failure to provide 2-year
 formal training programs, and subsequent conversions to career-conditional status of _______, and take such action.

 Recommendation 27: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce
 of HR to determine whether OI&T managers made additional improper FCIP appointments, failed to provide a 2-year formal
 training program, and subsequently converted employees to career-conditional status, and take appropriate corrective action.

 Recommendation 29: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
 HR to determine the appropriate corrective action concerning the improper DHA appointments of _______ and take such
 action.

 Recommendation 30: We recommend that the Assistant Secretary for Information and Technology confer with the Ofﬁce of
 HR to identify any additional improper VA appointments made using DHA, and take appropriate corrective action.

 Recommendation 33: We recommend that the Assistant Secretary for Information and Technology ensure that a review of
 OI&T retention incentives is conducted to ensure that they are necessary and support the mission and program needs and
 that they fully comply with law, OPM regulations, and VA policy.


VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                         | 63
Issue 66 | April 1 — September 30, 2011
                      Appendix B: Status of OIG Reports Unimplemented
                                                        for Over 1 Year
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
       Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact

* OIG disagrees with the Ofﬁce of General Counsel’s (OGC’s) legal opinions ﬁnding that a violation of the nepotism statute
did not occur and no legal basis exists for collecting funds from individual employees, but closed recommendations 1, 3, and
18-24 because OIT is planning no further action in light of OGC’s legal opinions. OIG stands by the recommendations, but
will not waste any more resources in pursuit of corrective action.

Veterans Beneﬁts Administration’s Control of
Veterans’ Claim Folders                                             VBA                   2 of 9                               -
Report No. 09-01193-228, Issued 09/28/2009

Recommendation 2: We recommended the Under Secretary for Beneﬁts establish a mechanism to identify and track the
number of claims folders regional ofﬁce personnel rebuild.

Recommendation 9: We recommended the Under Secretary for Beneﬁts establish a mechanism to ensure regional ofﬁce
personnel enforce the maximum 60 day search established in recommendation 8 and take corrective actions to meet the
standard where improvement is needed.

Department of Veterans Affairs System
Development Life Cycle Process                                       OIT                  2 of 4                               -
Report No. 09-01239-232, Issued 09/30/2009

Recommendation 1: We recommend the Assistant Secretary for Information and Technology require OI&T develop and issue
a directive that communicates, VA-wide, the mandatory requirements of VA’s SDLC process outlined in the existing Program
Management Guide to ensure consistent management of VA’s IT investment portfolio.

Recommendation 4: We recommend the Assistant Secretary for Information and Technology require OI&T establish and
maintain a central data repository to store all program artifacts, including cumulative cost and schedule data.


Healthcare Inspection, VistA Outages Affecting
Patient Care, Ofﬁce of Risk Management and
                                                                     OIT                  1 of 5                               -
Incident Response, Falling Waters, WV
Report No. 09-01849-39, Issued 12/03/2009

Recommendation 3: We recommend that the Assistant Secretary for Information and Technology ensure that the Ofﬁce for 

Information Protection and Risk Management performs and reports on risk management for essential medical IT systems.


Inspection of VA Regional Ofﬁce, Roanoke, VA
                                                                    VBA                   1 of 6                               -
Report No. 09-01995-63, Issued 01/14/2010

Recommendation 6: We recommend the Roanoke VA Regional Ofﬁce Director research alternative locations to store and 

safeguard veterans’ claims folders and expeditiously relocate these folders to reduce the risk of structural damage to the 

building and ensure employee safety.





                                                                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
64 |
                                                                                              Issue 66 | April 1 — September 30, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
      Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact
 Healthcare Inspection, Hospitalized
 Community-Dwelling Elderly Veterans:
 Cognitive and Functional Assessments and         VHA           1 of 1             -
 Follow-up after Discharge
 Report No. 09-01588-92, Issued 03/04/2010

 Recommendation 1: We recommended that the Under Secretary for Health develop and implement a plan to ensure that
 vulnerable elders admitted to hospitals have a documented assessment of cognitive functioning.

 Audit of VA’s Efforts to Provide Timely
 Compensation and Pension Medical
                                                                   VHA                  5 of 10                   -
 Examinations
 Report No. 09-02135-107, Issued 03/17/2010

 Recommendation 1: We recommend the Acting Under Secretary for Health establish procedures to capture compensation
 and pension medical examination workload data at the examination level for all examinations conducted by VHA, fee-basis,
 and local contract providers.

 Recommendation 2: We recommend the Acting Under Secretary for Health establish procedures to capture all costs
 associated with each compensation and pension medical examination conducted by VHA, fee-basis, and local contract
 providers.


 Recommendation 3: We recommend the Acting Under Secretary for Health establish procedures to measure productivity
 by identifying the number of full-time equivalents who conduct VHA compensation and pension medical examinations and
 establishing standard times to complete each type of compensation and pension medical examination.


 Recommendation 4: We recommend the Acting Under Secretary for Health utilize and monitor data on VHA workload, costs,
 and productivity to ensure sufﬁcient and appropriate resources are dedicated to completing compensation and pension
 medical examination requests sent to VA medical facilities.

 Recommendation 5: We recommend the Acting Under Secretary for Health establish timeliness performance standards that
 adequately measure whether veterans receive timely compensation and pension medical examinations conducted by VHA,
 fee-basis, and local contract providers.

 Review of Brachytherapy Treatment of Prostate
 Cancer, Philadelphia, Pennsylvania and Other
                                                                   VHA                  1 of 5                    -
 VA Medical Centers
 Report No. 09-02815-143, Issued 05/03/2010

 Recommendation 3: VHA should review the controls that are in place to ensure that VA contracts for health care comply with
 applicable laws and regulations, and where necessary, make the required changes in organization and/or process to bring
 this contracting effort into compliance.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                       | 65
Issue 66 | April 1 — September 30, 2011
                      Appendix B: Status of OIG Reports Unimplemented
                                                        for Over 1 Year
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible Number of Open     Monetary
     Report Title, Number, and Issue Date
                                               Organization Recommendations    Impact
Audit of National Call Centers and the Inquiry
Routing and Information System                     VBA           4 of 7           -
Report No. 09-01968-150, Issued 05/13/2010

Recommendation 2: We recommend the Acting Under Secretary for Beneﬁts establish a national performance target for
blocked call rate.

Recommendation 3: We recommend the Acting Under Secretary for Beneﬁts establish a national performance standard for
productivity at the call agent level.

Recommendation 4: We recommend the Acting Under Secretary for Beneﬁts conduct a review of call agent productivity
and call demand to determine what changes in the call center structure and/or additional stafﬁng are needed to ensure
performance standards are met.

Recommendation 7: We recommend the Acting Under Secretary for Beneﬁts establish consistent accuracy performance
measures and national performance standards for call agents and the IRIS [Inquiry Routing and Information System]
manager.

Audit of Oversight of Patient Transportation
Contracts                                                         VHA                  3 of 8                     $91,944,596
Report No. 09-01958-155, Issued 05/17/2010

Recommendation 3: We recommend the Under Secretary for Health establish speciﬁc controls to provide effective
monitoring and oversight in accordance with the OAL [Ofﬁce of Acquisition and Logistics] issued IL 001AL-09-02 and hold
COs [Contracting Ofﬁcers] responsible and accountable for all patient transportation contracts.

Recommendation 4: We recommend the Under Secretary for Health implement controls to ensure patient transportation
invoices are adequately reviewed before certiﬁcation for payment and initiate recovery of overpayments and reimbursements
of underpayments resulting from calculation errors on contractor invoices identiﬁed by our audit.

Recommendation 6: We recommend the Under Secretary for Health automate patient transportation billing information in
order to maintain and retain data needed to efﬁciently perform invoice reconciliation.

Audit of VISN Procurement Practices for FSS
Professional and Allied Healthcare Stafﬁng
                                                                  VHA                  1 of 5                                -
Services
Report No. 08-00270-162, Issued 06/07/2010

Recommendation 5: We recommend the Under Secretary for Health have the PLO [Procurement and Logistics Ofﬁce]
evaluate the identiﬁed health care stafﬁng services orders where facilities exceeded the FSS NTE [Federal Supply Schedule
not-to-exceed] rates to determine if any improper payments can be recovered.




                                                                                           VA O f f i c e o f I n s p e c t o r G e n e r a l
66 |
                                                                                           Issue 66 | April 1 — September 30, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
      Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact
 Review of Federal Supply Schedule 621 I--
 Professional and Allied Healthcare Stafﬁng
                                                 OALC           5 of 7             -
 Services
 Report No. 08-02969-165, Issued 06/07/2010

 Recommendation 1: We recommend that the Deputy Assistant Secretary for OAL direct the NAC [National Acquisition
 Center] to not award any 621 I contracts unless the Contracting Ofﬁcer can determine that the prices offered are fair and
 reasonable.

 Recommendation 2: We recommend that the Deputy Assistant Secretary for OAL direct the NAC [National Acquisition
 Center] to eliminate national NTE [not-to-exceed] pricing as a pricing objective, and to establish pricing objectives under 621
 I contracts that are consistent with the goals of the FSS Program (MFC pricing, or the best pricing to commercial customers
 purchasing under similar terms and conditions as the Government).

 Recommendation 3: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to revise the 621 I
 Solicitation’s CSP [Commercial Sales Practices] format to require disclosure of information relevant to Recommendation 2.

 Recommendation 4: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to use price analysis
 methodologies that place signiﬁcant reliance on the 621 I CSP disclosures, once revised.

 Recommendation 5: We recommend that the Deputy Assistant Secretary for OAL direct the NAC to cease using
 comparisons to existing FSS prices and/or national market surveys as methodologies for establishing price reasonableness.

 Audit of Guide and Service Dog Program
                                                                      VHA                    1 of 1                    -
 Report No. 10-01714-188, Issued 07/07/2010

 Recommendation 1: We recommended the Under Secretary for Health issue comprehensive interim guidance, until the draft
 regulation addressing service dogs is ﬁnalized, to ensure VA medical center providers and PSAS [Prosthetics and Sensory
 Aids Service] employees better understand the beneﬁts offered and process to apply for service dogs.

 Combined Assessment Program Review of the
 Central Texas Veterans Health Care System,
                                                                      VHA                   1 of 15                    -
 Temple, Texas
 Report No. 10-01189-187, Issued 07/09/2010

 Recommendation 2: We recommended that the Acting VISN Director ensure that the System Director requires that
 device-speciﬁc SOPs and guidelines for LLD [low-level disinfection] are established and consistent with the manufacturers’
 instructions for all pieces of RME [reusable medical equipment] and that staff comply.


 Combined Assessment Program Review of the
 Providence VA Medical Center, Providence,
                                                                      VHA                   3 of 18                    -
 Rhode Island
 Report No. 10-01158-190, Issued 07/13/2010

 Recommendation 15: We recommended that the VISN Director ensure that the Acting Medical Center Director requires that
 staff complete inter-facility transfer documentation and implement processes to monitor and evaluate transfers.
VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                             | 67
Issue 66 | April 1 — September 30, 2011
                       Appendix B: Status of OIG Reports Unimplemented
                                                         for Over 1 Year
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
       Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact

Recommendation 16: We recommended that the VISN Director ensure that the Acting Medical Center Director requires that
staff provide patients with appropriate written discharge instructions, educate patients regarding discharge instructions, and
consistently document these actions.

Recommendation 18: We recommended that the VISN Director ensure that the Acting Medical Center Director requires that
skin care assessments and interventions be consistently documented.


Combined Assessment Program Review of
Information Security Issues Impacting VA
                                                                     VHA                   1 of 6                               -
Teleradiology Contracts
Report No. 10-03122-198, Issued 07/20/2010

Recommendation 3: We recommend that the Under Secretary for Health implement automated mechanisms to ensure that
all computers, supporting Teleradiology services, deploy and maintain appropriate security protections, such as ﬁrewalls and
antivirus solutions, in accordance with VA policy and the terms of the contracts.

Combined Assessment Program Review of the
VA New York Harbor Healthcare System, New
                                                                     VHA                   1 of 9                               -
York, New York
Report No. 10-00471-201, Issued 07/21/2010

Recommendation 9: We recommended that the VISN Director ensure that the System Director requires that discharge
summaries and discharge instructions include all required elements and that information in the summaries and instructions is
consistent.

Healthcare Inspection Community Based
Outpatient Clinic Reviews: Corpus Christi and
New Braunfels, TX; Long Beach (Cabrillo) and
Santa Fe Springs (Whittier), CA; San Diego
                                                                     VHA                  1 of 21                               -
(Mission Valley) and El Centro (Imperial Valley),
CA; and Commerce (East Los Angeles) and
Oxnard, CA
Report No. 10-00627-208, Issued 07/27/2010

Recommendation 19: We recommended that the VISN 22 Director ensure that the Greater Los Angeles HCS Director
provides contract oversight and enforcement in accordance with the terms and conditions as stated in the contract for the
East Los Angeles CBOC. The Greater Los Angeles HCS should research the overpayments attributable to inactive patients
and seek reimbursement for those overpayments.




                                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
68 |
                                                                                               Issue 66 | April 1 — September 30, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
         Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                               Responsible Number of Open       Monetary
       Report Title, Number, and Issue Date
                                               Organization Recommendations      Impact
 Combined Assessment Program Review
 of the New Mexico VA Health Care System,
                                                   VHA           2 of 13            -
 Albuquerque, New Mexico
 Report No.10-01435-210, Issued 07/27/2010

 Recommendation 5: We recommended that the VISN Director ensure that the System Director requires that staff identiﬁed
 as at risk for exposure to harmful atmospheres receive annual respirator ﬁt testing and bloodborne pathogens training, as
 required.

 Recommendation 7: We recommended that the VISN Director require that the System Director ensures that all required
 disciplines attend EOC [environment of care] rounds and that deﬁciencies found on EOC rounds are properly recorded,
 tracked, and prioritized.

 Audit of Community-Based Outpatient Clinic
 Management Oversight                                               VHA                  1 of 6                    -
 Report No. 09-02093-211, Issued 07/28/2010

 Recommendation 2: We recommended that the Under Secretary for Health develop a set of comprehensive monitoring
 mechanisms to evaluate CBOC performance and hold quarterly CBOC reviews with the Networks to discuss CBOC
 performance results, and as needed, corrective actions.

 Combined Assessment Program Review of the
 North Florida/South Georgia Veterans Health
                                                                    VHA                 1 of 12                    -
 System, Gainesville, Florida
 Report No. 10-00054-218, Issued 08/10/2010

 Recommendation 9: We recommended that the VISN Director ensure that the System Director requires that measures be
 taken to maintain temperature, humidity, and air exchanges in sterile storage areas at prescribed levels.

 Combined Assessment Program Review of the
 Erie VA Medical Center, Erie, Pennsylvania                         VHA                 2 of 10                    -
 Report No. 10-01782-222, Issued 08/16/10

 Recommendation 4: We recommended that the facility implement interim measures to maintain temperature and humidity
 ranges in accordance with VA policy until construction is completed.

 Recommendation 10: We recommended that staff complete required inter-facility transfer documentation and implement
 processes to monitor and evaluate transfers.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                        | 69
Issue 66 | April 1 — September 30, 2011
                       Appendix B: Status of OIG Reports Unimplemented
                                                         for Over 1 Year
       Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                             Responsible Number of Open       Monetary
     Report Title, Number, and Issue Date
                                             Organization Recommendations      Impact
Combined Assessment Program Review of the
VA Greater Los Angeles Healthcare System,
                                                 VHA           1 of 11            -
Los Angeles, California
Report No. 10-01438-231, Issued 08/24/2010

Recommendation 5: We recommended that N95 respirator ﬁt testing be provided annually to staff identiﬁed as at risk for
exposure to airborne infections.

Audit Review of Alleged Improper Program
Management within the FLITE Strategic Asset
                                                                       OIT                   1 of 7                                -
Management Pilot Project
Report No. 10-01374-237, Issued 09/07/2010

Recommendation 6: We recommended the Assistant Secretary for Information and Technology validate that SAM [Strategic
Asset Management] project ofﬁcials complete system migration plans for the SAM project.

Audit of the FLITE Strategic Asset Management
Pilot Project                                                          OIT                   2 of 9                                -
Report No. 09-03861-238, Issued 09/14/2010

Recommendation 2: We recommended that within the next 3 months, the Assistant Secretary for Information and
Technology in coordination with the SAM project manager develop a new operating model and related roles and
responsibilities to provide a clear deﬁnition of both VA and contractors’ roles and responsibilities for the SAM pilot, beta, and
national deployment projects.

Recommendation 8: We recommended that the Assistant Secretary for Information and Technology perform periodic
independent quality assurance reviews of closed risks and issues to ensure that they were adequately addressed before
closure.

Combined Assessment Program Review of the
Tuscaloosa VA Medical Center, Tuscaloosa,
                                                                       VHA                   1 of 8                                -
Alabama
Report No. 10-00050-247, Issued 09/15/2010

Recommendation 8: We recommended that monitoring results be reported quarterly to the MSEC [Medical Staff Executive
Committee], as required.




                                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
70 |
                                                                                                 Issue 66 | April 1 — September 30, 2011
Appendix B: Status of OIG Reports Unimplemented
for Over 1 Year
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
      Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact
 American Recovery and Reinvestment Act
 Oversight Advisory Report: Review of Efforts
 to Meet Competition Requirements and            OALC           1 of 5             -
 Monitor Recovery Act Awards
 Report No. 10-00969-248, Issued 09/17/2010

 Recommendation 2: We recommended the Executive Director of the OALC develop and issue a comprehensive policy that
 clearly deﬁnes the appropriate procedures for the proper completion of adequate contractor responsibility determinations and
 related justiﬁcations.

 Healthcare Inspection Inappropriate Research
 & Development Data Entries Affecting Veterans
 Equitable Resource Allocation (VERA) Funding
                                                                     VHA                   1 of 2                    -
 VA Maryland Health Care System, Baltimore,
 MD
 Report No. 10-01247-256, Issued 09/23/2010

 Recommendation 2: We recommended that the CRADO [Chief Research and Development Ofﬁcer] ensure that ORD [Ofﬁce
 of Research and Development] establish an R&D [Research and Development] management and tracking system to help
 facilities meet Congressional and other reporting requirements.

 VA Has Opportunities to Strengthen Program
 Implementation of Homeland Security
                                                                   OSP/OIT                10 of 11                   -
 Presidential Directive 12
 Report No. 10-01575-262, Issued 09/30/2010

 Recommendation 1: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in conjunction
 with the Assistant Secretary for Information and Technology, develop a plan to ensure the PIV [Personal Identity Veriﬁcation]
 System interfaces with internal and external systems to electronically verify PIV credential applicant information.

 Recommendation 3: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in conjunction
 with the Assistant Secretary for Information and Technology, ensure the PIV System is modiﬁed to generate standard
 performance reports to assist the PMO, system administrators, and other users to effectively manage the HSPD [Homeland
 Security Presidential Directive]-12 Program.

 Recommendation 4: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in conjunction
 with the Assistant Secretary for Information and Technology, ensure the PIV System is modiﬁed to provide effective
 monitoring of System users for unlawful, unauthorized, or inappropriate activities.

 Recommendation 5: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in conjunction
 with the Assistant Secretary for Information and Technology, ensure the required Privacy Impact Assessment for the PIV
 System is prepared and approved annually.

 Recommendation 6: We recommend the Assistant Secretary for Operations, Security, and Preparedness, in conjunction
 with the Assistant Secretary for Information and Technology, deﬁne the extent to which PIV credentials will be required
 to access VA facilities and information systems and develop plans to test and implement the infrastructure necessary to
 establish these controls.
VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                           | 71
Issue 66 | April 1 — September 30, 2011
                       Appendix B: Status of OIG Reports Unimplemented
                                                         for Over 1 Year
        Table 2: Unimplemented OIG Reports and Recommendations More Than 1 Year Old
                                              Responsible Number of Open       Monetary
       Report Title, Number, and Issue Date
                                              Organization Recommendations      Impact

Recommendation 7: We recommend the Assistant Secretary for Operations, Security, and Preparedness staff program
vacancies in the HSPD-12 Program Management Ofﬁce.

Recommendation 8: We recommend the Assistant Secretary for Operations, Security, and Preparedness ﬁnalize the VA
Directive and VA Handbook deﬁning the roles, responsibilities, and processes for implementation and ongoing operations of
the HSPD-12 Program.

Recommendation 9: We recommend the Assistant Secretary for Operations, Security, and Preparedness develop
quantiﬁable performance measures for the HSPD-12 Program.

Recommendation 10: We recommend the Assistant Secretary for Operations, Security, and Preparedness implement a
formal oversight process to monitor progress in achieving compliance with the requirements of HSPD-12.

Recommendation 11: We recommend the Assistant Secretary for Operations, Security, and Preparedness establish
accountability over program costs and estimated costs of future HSPD-12 operations.

American Recovery and Reinvestment Act
Oversight Advisory Report, Review of the
Management of Recovery Act Funds for                                 NCA                   2 of 3                               -
Monument and Memorial Repairs
Report No. 09-01814-263, Issued 09/30/2010

Recommendation 1: We recommend the Acting Under Secretary for Memorial Affairs establish a formal process for
prioritizing and selecting future work requirements that includes maintaining adequate documentation to justify key project
decisions.

Recommendation 3: We recommend the Acting Under Secretary for Memorial Affairs establish outcome-based performance
measurements that facilitate the monitoring and managing of the selected projects, as well as the dollars obligated and spent
on them, to ensure accomplishment of ARRA [American Recovery and Reinvestment Act of 2009] goals.

TOTALS                                                                                       76                      $91,944,596




                                                                                              VA O f f i c e o f I n s p e c t o r G e n e r a l
72 |
                                                                                              Issue 66 | April 1 — September 30, 2011
Appendix C: Inspector General Act Reporting
Requirements
The table below cross-references the speciﬁc pages in this Semiannual Report to the reporting
requirements where they are prescribed by the Inspector General Act, as amended by the Inspector
General Act Amendments of 1988, P.L. 100-504, and the Omnibus Consolidated Appropriations Act of
1997, P.L. 104-208.

The Federal Financial Management Improvement Act of 1996 (FFMIA) requires OIG to report instances
and reasons when VA has not met the intermediate target dates established in the VA remediation plan to
bring VA’s ﬁnancial management system into substantial compliance with FFMIA. VA has made signiﬁ cant
progress on the material weaknesses reported in FY 2010. Only the IT Security Controls deﬁciency was
repeated as a material weakness in VA’s FY 2010 consolidated ﬁnancial statements. The prior year report
identiﬁed four material weaknesses in the areas of (1) Financial Management System Functionality, (2)
IT Security Controls, (3) Financial Management Oversight, and (4) Compensation, Pension, and Burial
Liabilities. The Financial Management System Functionality and the Compensation, Pension, and Burial
Liabilities material weaknesses have been downgraded to signiﬁ cant deﬁciencies this year. The Financial
Management Oversight ﬁnding was not repeated.

         IG Act                                                Reporting                                      Status
       References                                             Requirements
                                                                                                       410 total reviews
                                       Review of legislative, regulatory, and administrative
  Section 4 (a) (2)                                                                                    commented on 42
                                       proposals
                                                                                                       times
  Section 5 (a) (1)                    Signiﬁcant problems, abuses, and deﬁciencies                    See pages 9-47

                                       Recommendations with respect to signiﬁcant problems,
  Section 5 (a) (2)                                                                                    See pages 9-47
                                       abuses, and deﬁciencies
                                       Prior signiﬁcant recommendations on which corrective action
  Section 5 (a) (3)                                                                                    See pages 61-72
                                       has not been completed
                                       Matters referred to prosecutive authorities and resulting
  Section 5 (a) (4)                                                                                    See pages 25-40
                                       prosecutions and convictions

  Section 5 (a) (5)                    Summary of instances where information was refused              None
                                       List of reports by subject matter, showing dollar value of
  Section 5 (a) (6)                    questioned costs and recommendations that funds be put to       See pages 48-60
                                       better use
  Section 5 (a) (7)                    Summary of each particularly signiﬁcant report                  See pages 9-47
                                       Statistical tables showing number of reports and dollar value
  Section 5 (a) (8)                    of questioned costs for unresolved, issued, and resolved        See page 74
                                       reports
                                       Statistical tables showing number of reports and dollar value
  Section 5 (a) (9)                    of recommendations that funds be put to better use for          See page 74
                                       unresolved, issued, and resolved reports




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                                        | 73
Issue 66 | April 1 — September 30, 2011
                                 Appendix C: Inspector General Act Reporting
                                                               Requirements
         IG Act                                  Reporting                                              Status
       References                               Requirements
                         Summary of each audit report issued before this reporting
                                                                                             See Table 1 and
 Section 5 (a) (10)      period for which no management decision was made by end
                                                                                             Table 2 below
                         of reporting period
 Section 5 (a) (11)      Signiﬁcant revised management decisions                             None
                         Signiﬁcant management decisions with which the Inspector
 Section 5 (a) (12)                                                                          None
                         General is in disagreement
 Section 5 (a) (13)      Information described under section 5(b) of FFMIA                   See page 73




                       Table 1: Resolution Status of Reports with Questioned Costs
                                                                                                   Dollar Value
                        RESOLUTION STATUS                                Number
                                                                                                   (In Millions)
 No management decision by 09/30/2010                                        0                                   $0
 Issued during reporting period                                              4                     $2,770,103,500
   Total inventory this period                                               4                     $2,770,103,500
 Management decisions during the reporting period
 Disallowed costs (agreed to by management)                                  4                     $2,770,103,500
 Allowed costs (not agreed to by management)                                 0                                 $0
   Total management decisions this reporting period                          4                     $2,770,103,500
   Total carried over to next period                                         0                                 $0




                      Table 2: Resolution Status of Reports with Recommended Funds 

                                  To Be Put To Better Use By Management

                                                                                                   Dollar Value
                        RESOLUTION STATUS                                Number
                                                                                                   (In Millions)
 No management decision by 09/30/2010                                        0                                  $0
 Issued during reporting period                                              3                        $899,300,000
   Total inventory this period                                               3                        $899,300,000
 Management decisions during the reporting period
 Agreed to by management                                                     3                        $899,300,000
 Not agreed to by management                                                 0                                  $0
   Total management decisions this reporting period                          3                        $899,300,000
   Total carried over to next period                                         0                                  $0




                                                                                 VA O f f i c e o f I n s p e c t o r G e n e r a l
74 |
                                                                                 Issue 66 | April 1 — September 30, 2011
Appendix D: Government Contractor Audit Findings
The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each IG appointed
under the Inspector General Act of 1978 to submit an appendix on ﬁnal, completed contract audit reports
issued to the contracting activity that contain signiﬁcant audit ﬁndings—unsupported, questioned, or
disallowed costs in an amount in excess of $10 million, or other signiﬁ cant ﬁndings—as part of the
Semiannual Report to Congress. During this reporting period, OIG issued no contract review reports under
this requirement.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                    | 75
Issue 66 | April 1 — September 30, 2011
              Appendix E: American Recovery and Reinvestment Act
                                              Oversight Activities
Enacted in February 2009, ARRA requires OIG to conduct oversight of the VA projects, programs, grants,
and initiatives that received a total of $1.4 billion in funding under the Act. OIG’s program of oversight
includes audits, evaluations, investigation, fraud awareness and prevention training, and other monitoring
activities covering the major VA programs that received ARRA funding. The VA programs and the amounts
of their ARRA funding include:

   • 	 $1.0 billion for VHA medical facility nonrecurring maintenance (NRM) and energy projects.
   • 	 $150.0 million for VHA Grants to States for extended care facilities.
   • 	 $50.0 million for NCA headstone, marker, gravesite, and monument repairs; NRM, energy, and road
       repair projects; and equipment upgrades.
   • 	 $150 million for VBA claims processing hiring initiative and support of Veterans economic recovery
       payments.
   • 	 $45 million for OIT support of VBA implementation of the new Post 9/11 GI Bill education assistance
       programs for Veterans.

Additionally, the Act provided for an estimated $700 million for the one-time $250 economic recovery
payments to Veterans and their survivors or dependents.

As of September 30, 2011, OIG has expended $2.3 million (the entire $1.0 million OIG received under
ARRA and $1.3 million from regular appropriations) in conducting its comprehensive program of ARRA
oversight. OIG’s ARRA-related accomplishments and activities completed to date include:

   •    I	ssued seven ﬁnal audit and evaluation reports and one interim advisory report on VA management
         of ARRA program activities.
   •	    Conducted 519 fraud awareness training and outreach sessions across the country attended by over
         14,600 VA and other ofﬁcials responsible for managing or overseeing ARRA programs and projects.
   •	    Opened 249 and closed 89 criminal investigations, including 28 convictions, 34 referrals for
         monetary reclamation, and $30,250 in recoveries related to ARRA-funded programs and projects.
   •	    Received 64 Hotline complaints of potential fraud or waste related to ARRA programs or projects.
   •	    Established the OIG Recovery Act Web Site, http://www.va.gov/oig/recovery, which provides access
         to the VA OIG Hotline and information on OIG ARRA reports, activities, plans, and fraud prevention
         training materials.

Under ARRA, an employee of any non-Federal employer receiving covered ARRA funds may not be
discharged, demoted, or otherwise discriminated against as a reprisal for disclosing information that the
employee reasonably believes is evidence of: 1) gross mismanagement of an agency contract or grant
relating to covered funds; 2) a gross waste of covered funds; 3) a substantial and speciﬁc danger to public
health or safety related to the implementation or use of covered funds; 4) an abuse of authority related to
the implementation or use of covered funds, or 5) a violation of law, rule, or regulation related to an agency
contract or grant, awarded or issued relating to covered funds.

Pursuant to the reporting requirements under this provision, OIG conducted no investigations such as
those described above. Consequently, OIG did not request or receive an extension beyond the 180-day
period for such investigations.




                                                                                  VA O f f i c e o f I n s p e c t o r G e n e r a l
76 |
                                                                                  Issue 66 | April 1 — September 30, 2011
Appendix F: Restoring American Financial Stability Act
Reporting Requirements
Pursuant to the Restoring American Financial Stability Act of 2010, P.L. 111-203, OIG’s OAE reports that
no peer reviews were conducted by another OIG during the reporting period ending September 30, 2011.
The last peer review was conducted by the U.S. Department of Agriculture OIG on December 23, 2009,
and contained no outstanding recommendations. The next peer review will be initiated in September 2012
by the DOL OIG. VA OIG conducted an external peer review of the Department of Transportation OIG and
issued the ﬁnal report on March 3, 2010, which contained no recommendations. VA OIG is scheduled to
begin a peer review for SSA OIG in March 2012.

Additionally, OIG’s OI reports that no Council of the Inspectors General on Integrity and Efﬁciency (CIGIE)
Qualitative Assessment Review (QAR) was conducted by another OIG during the reporting period ending
September 30, 2011. The last CIGIE QAR conducted on VA OIG’s investigative operation was completed
by the U.S. DOE OIG in 2009. The report contained no recommendations. VA OIG conducted a CIGIE
QAR of the National Aeronautics and Space Administration OIG’s investigative operation and issued the
ﬁnal report on May 1, 2008, which contained no recommendations.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                                        | 77
Issue 66 | April 1 — September 30, 2011
       This page left blank intentionally.




                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
78 |
                                             Issue 66 | April 1 — September 30, 2011
                                                     This page left blank intentionally.




VA O f f i c e o f I n s p e c t o r G e n e r a l
                                                                                           | 79

Issue 66 | April 1 — September 30, 2011
       This page left blank intentionally.




                                             VA O f f i c e o f I n s p e c t o r G e n e r a l
80 |
                                             Issue 66 | April 1 — September 30, 2011
On the Cover
Returning servicemembers are greeted by their children. Photo courtesy Department of Veterans
Affairs.
       (#.5..-5*,.'(.5) 5.,(-5Ŀ5#,-
                      Ń
                       555) 5	(-*.),5(,&





Report Fraud, Waste, Abuse, or Misconduct
Help VA’s Secretary ensure the integrity of departmental operations by
reporting suspected criminal activity, waste, abuse, or misconduct in VA
       programs or operations to the Inspector General Hotline.
                     Callers can remain anonymous.


           Telephone: 800-488-VAIG (8244) | Fax: 202-565-7936

   E-mail: vaoighotline@va.gov | http://www.va.gov/oig/contacts/hotline.asp


                       *,.'(.5) 5.,(-5Ŀ5#,-
                      Inspector General Hotline (53E)

                              P.O. Box 50410

                        Washington, DC 20091-0410

